<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011 

                              ----------                              


                        WEDNESDAY, JUNE 23, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Cochran.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I would like to welcome everyone to this 
hearing where we receive public testimony pertaining to various 
issues related to the fiscal year 2011 Defense appropriations 
request.
    Because we have so many witnesses today, I would like to 
remind each witness that they will be limited to no more than 4 
minutes apiece. But I can assure you that your full statements 
will be made part of the record.
    And at this point, I would like to recognize the vice 
chairman of this subcommittee, Senator Cochran of Mississippi.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I am very pleased to join you and welcome our witnesses who 
are here today to talk about their views in connection with the 
Defense Department's fiscal year 2011 budget.
    We appreciate your assistance and the time you have taken 
to prepare your remarks and to present them to us today. Thank 
you very much.
    Chairman Inouye. The subcommittee has divided the witnesses 
into four panels. And the first panel consists of Mr. H. James 
Gooden; Rear Admiral Casey Coane of the Navy, retired; Ms. 
Janet Hieshetter; and Mr. John R. Davis.
    Mr. Gooden, are you prepared?
STATEMENT OF H. JAMES GOODEN, CHAIRMAN, BOARD OF 
            DIRECTORS, AMERICAN LUNG ASSOCIATION
    Mr. Gooden. Yes, I am.
    Chairman Inouye. Please proceed.
    Mr. Gooden. Mr. Chairman, Mr. Vice Chairman, and members of 
the subcommittee, my name is Jim Gooden, and I am the chairman 
of the board of directors of the American Lung Association. I 
am honored to testify today.
    The American Lung Association was founded in 1904 to fight 
tuberculosis, and today, our mission is to save lives by 
improving lung health and preventing lung disease. We 
accomplish this through research, advocacy, and education.
    The American Lung Association wishes to call your attention 
to three issues for the Department of Defense's fiscal year 
2011 budget. Number one, the terrible burden on the military 
caused by tobacco use and the need for the Department to 
aggressively combat it by implementing recommendations from the 
Institute of Medicine. Two, the importance of restoring the 
original intent and full funding for the Peer-Reviewed Lung 
Cancer Research Program. And number three, addressing the 
health threat posed by burn pits in Iraq and Afghanistan.
    First, I would like to speak to the need for the Department 
of Defense to better combat tobacco use. Tobacco use remains a 
significant problem for the military. The Department of Defense 
has started moving in the right direction with making 
submarines smoke free, as well as other positive actions. But 
much more is needed to curb tobacco use in the military. Here 
are a few statistics to point out to what the Department of 
Defense is up against.
    While smoking rates among Active Duty personnel have 
essentially remained steady since 2002, rates among deployed 
personnel are significantly higher, and alarmingly, more than 1 
in 7, or 15 percent, of Active Duty personnel began smoking 
after joining the service. This alarming use of tobacco in the 
military has severe consequences and impacts troop readiness. 
It impairs physical capacity, vision, and hearing, and 
increases the chance of physical injury and hospitalization.
    Furthermore, the healthcare expenses associated with these 
behaviors have cost the Department of Defense billions of 
dollars. The Pentagon spends over $1.6 billion on tobacco-
related medical care, increased hospitalization, and lost days 
of work. Lost productivity costs are primarily caused by 
smoking breaks and greater absenteeism.
    Last summer, the prestigious Institute of Medicine, or IOM, 
issued a report entitled ``Combating Tobacco Use in Military 
and Veteran Populations.'' The IOM recommendations include 
common-sense approaches to eliminating the use of tobacco in 
the U.S. military. Some of the IOM's recommendations include 
tobacco-free policies should be phased in, starting with 
military academies and officer candidate training programs, 
followed by new enlisted accessions and then all Active Duty 
personnel.
    Also, end the sale of tobacco products on all military 
installations. Ensure that all DOD personnel have barrier-free 
access to tobacco cessation services and that healthcare and 
health promotion staff are trained to help tobacco users quit.
    The American Lung Association recommends that the 
Department of Defense implement all recommendations called for 
in the 2009 IOM report, and we ask for this subcommittee's 
leadership in ensuring that that happens. Second, the American 
Lung Association strongly supports the Lung Cancer Research 
Program (LCRP) in the Congressionally Directed Medical Research 
Program and its original intent to research the scope of lung 
cancer in our military.
    We urge this subcommittee to restore the funding level to 
the fiscal year 2009 level of $20 million, and we request that 
the 2011 governing language for the LCRP be returned to its 
original intent as directed by the 2009 program, which directed 
the funds to be awarded competitively and to identify, treat, 
and manage early curable lung cancer.
    We urge that the national registry be established to track 
all personnel who were exposed to burn pits while in Iraq. The 
American Lung Association also recommends that the DOD begin 
immediately to find alternatives to this method of waste 
disposal.
    Mr. Chairman, in summary, our Nation's military is the best 
in the world, and we should do whatever necessary to ensure 
that the lung health needs of our armed services are fully met.
    Thank you for this opportunity.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Just a matter of curiosity, when I was a 
young soldier, we were given K-rations for lunches, and in each 
pack, there was a little pack of cigarettes. And then you were 
able to buy cigarettes, if you wished to, for 5 cents a pack. 
When were these practices ceased?
    Mr. Gooden. To that, I will have to defer to my other 
specialists that are here with me from the American Lung 
Association, and if they cannot answer at this time, we will 
gladly be able to put that on the record.
    Chairman Inouye. Thank you very much.
    Mr. Gooden. Thank you, sir.
    [The statement follows:]
                   Prepared Statement of James Gooden
    Mr. Chairman and members of the Committee, my name is James Gooden 
and I am the Chairman of the Board of Directors of the American Lung 
Association. I am honored to testify today.
    The American Lung Association was founded in 1904 to fight 
tuberculosis and today, our mission is to save lives by improving lung 
health and preventing lung disease. We accomplish this through 
research, advocacy and education.
    The American Lung Association wishes to call your attention to 
three issues for the Department of Defense's (DOD) fiscal year 2011 
budget: the terrible burden on the military caused by tobacco use and 
the need for the Department to aggressively combat it; the importance 
of restoring funding for the Peer-Review Lung Cancer Research Program 
to $20 million; and the health threat posed by burn pits in Iraq and 
Afghanistan.
    First, the American Lung Association is concerned about the use of 
tobacco products by troops within the military. The effects of both the 
health and performance of our troops are significantly hindered by the 
prevalence of smoking and smokeless tobacco products. As a result, we 
urge the Department of Defense to immediately implement the 
recommendations in the Institute of Medicine's 2009 Report, Combating 
Tobacco Use in Military and Veteran Populations.
    Next, the American Lung Association recommends and supports 
restoring funding to $20 million for the Peer-Reviewed Lung Cancer 
Research Program (LCRP) within the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP). We were 
disappointed that this critical public health research program was cut 
in fiscal year 2010 by $5 million and ask that the funding return to 
$20 million. Finally, the American Lung Association is deeply troubled 
by reports of the use of burn pits and the negative effects on lung 
health on soldiers in both Iraq and Afghanistan. Thus, we urge the DOD 
to immediately find alternatives to this method of waste disposal.
Combating Tobacco Use
    Tobacco use remains the leading cause of preventable death in the 
United States and not surprisingly, is a significant problem within the 
military as well. The DOD has started moving in the right direction 
with its recent smoking ban on submarines and other positive actions, 
but much more is needed to curb tobacco use in the military.
    The 2008 Department of Defense Survey of Health Behaviors among 
Active Duty Personnel found that smoking rates among active duty 
personnel have essentially remained steady since 2002. However, smoking 
rates among deployed personnel are significantly higher and, 
alarmingly, more than one in seven (15 percent) of active duty 
personnel begin smoking after joining the service.
    Currently, the smoking rate for active duty military is 30.5 
percent, with smoking rates highest among personnel ages 18 to 25--
especially among soldiers and Marines. The Department of Veterans 
Affairs estimates that more than 50 percent of all active duty 
personnel stationed in Iraq smoke.\1\
---------------------------------------------------------------------------
    \1\ Hamlett-Berry, KW, as cited in Beckham, JC et al. Preliminary 
findings from a clinical demonstration project for veterans returning 
from Iraq or Afghanistan. Military Medicine. May 2008; 173(5):448-51.
---------------------------------------------------------------------------
    This alarming use of tobacco in the military has severe 
consequences. First, tobacco use compromises military readiness. 
Studies have found that smoking is one of the best predictors of 
training failure and smokers also report significantly more stress from 
military duty than non-smokers. Smoking is also shown to impair a 
person's physical capacity, vision, or hearing and increase their 
chances of physical injury and hospitalization.\2\ In addition; if a 
soldier experiences nicotine withdrawal while on active duty; 
depression, anxiety, and difficulty concentrating on cogitative tasks 
can develop.\3\ All of these consequences have a negative impact on the 
performance of our men and women in our armed forces.
---------------------------------------------------------------------------
    \2\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 3-4.
    \3\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 4.
---------------------------------------------------------------------------
    Furthermore, the healthcare expenses associated with these 
behaviors have cost the DOD billions of dollars. The Pentagon spends 
over $1.6 billion on tobacco-related medical care, increased 
hospitalization and lost days of work. Lost productivity costs are 
primarily caused by smoking breaks (estimated at 30 minutes over 220 
work days a year) and greater absenteeism. There are also great costs 
associated with the failure of new recruits to complete basic training. 
It is clear that more must be done to reduce smoking rates and tobacco 
use among active duty personnel.
    Last summer, the prestigious Institute of Medicine (IOM) issued a 
report entitled, Combating Tobacco Use in Military and Veterans 
Populations. The panel found ``tobacco control does not have a high 
priority in DOD or VA.'' This report, which was requested by both 
departments, issued a series of recommendations, which the American 
Lung Association fully supports and asks this Committee to ensure are 
implemented.
    The IOM recommendations include commonsense approaches to 
eliminating the use of tobacco use in the U.S. military. Some of the 
IOM's recommendations include:
  --Phase in tobacco-free policies by starting with military academies, 
        officer-candidate training programs, and university-based 
        reserve officer training corps programs. Then the IOM 
        recommends new enlisted accessions be required to be tobacco-
        free, followed by all active-duty personnel;
  --Eliminate tobacco use on military installations using a phased-in 
        approach;
  --End the sales of tobacco products on all military installations. 
        Personnel often have access to cheap tobacco products on base, 
        which can serve to start and perpetuate addictions;
  --Ensure that all DOD healthcare and health promotion staff are 
        trained in the standard cessation treatment protocols; and
  --Ensure that all DOD personnel have barrier-free access to tobacco 
        cessation services.
    According to the IOM, the authority for the implementation of all 
the recommendations should rest with the highest levels of the 
Department, including the surgeon general of each armed service and the 
individual installation commander. The American Lung Association asks 
for the Committee's leadership to ensure this occurs.
    The United States military cannot fight two wars without ready and 
healthy troops to successfully complete each mission. With tobacco use 
causing a decrease of troop readiness, performance and health, the DOD 
can no longer afford to stand idly by.
    Therefore, the American Lung Association recommends that the 
Department of Defense implement all recommendations called for in the 
2009 IOM report. The IOM has laid out a very careful, scientifically-
based road map for the DOD to follow and the American Lung Association 
strongly urges that its recommendations be implemented without delay.
Peer Reviewed Lung Cancer Research Program
    The American Lung Association strongly supports the Lung Cancer 
Research Program (LCRP) in the Congressionally Directed Medical 
Research Program (CDMRP) and its original intent to research the scope 
of lung cancer in our military. It is for that reason that we were 
deeply disappointed by changes made by Congress in fiscal year 2010 to 
the both the LCRP's governing language and funding.
    First, LCRP's funding was cut by 25 percent--$5 million--which may 
diminish the effectiveness of this crucial research. We urge this 
Committee to restore the funding level to the fiscal year 2009 level of 
$20 million.
    In addition to the reduced funding, the American Lung Association 
is troubled by the change in governance language of the LCRP authorized 
by the Congress last fiscal year. The language change not only has 
consequences for the LCRP in the future but also hampered the 
implementation of the 2009 LCRP. We request that the 2011 governing 
language for the LCRP be returned to its original intent, as directed 
by the 2009 program: ``These funds shall be for competitive research . 
. . Priority shall be given to the development of the integrated 
components to identify, treat and manage early curable lung cancer''.
Troubling Lung Health Concern in Iraq and Afghanistan
    The American Lung Association is extremely troubled by reports of 
soldiers who were exposed to burn pits in Iraq and Afghanistan, and are 
now returning home with lung illnesses including asthma, chronic 
bronchitis and sleep apnea. Civilians are also at risk.
    Emissions from burning waste contain fine particulate matter, 
sulfur oxides, carbon monoxide, volatile organic compounds, and various 
irritant gases such as nitrogen oxides that can scar the lungs. 
Emissions also contain chemicals that are known or suspected to be 
carcinogens.
    For vulnerable populations, such as people with cardiovascular 
diseases, diabetes, asthma and chronic respiratory disease, exposure to 
these burn pits is particularly harmful. Even short exposures can kill. 
However, the health impact of particle pollution is not limited to 
individuals with pre-existing conditions. Healthy, young adults who 
work outside--such as our young men and women in uniform--are also at 
higher risk.
    EPA has just concluded that particulate matter causes heart 
attacks, asthma attacks, and early death. The particles are extremely 
small and are unable to be filtered out of our respiratory system. 
Instead, these small particles end up deep in the lungs where they 
remain for months, causing structural damage and chemical changes. In 
some cases, the particles can move through the lungs and penetrate the 
bloodstream. Larger particles will end up in the upper respiratory 
system, causing coughs.
    Given what we know about the health effects of burning refuse, the 
American Lung Association recommends that the DOD begin immediately to 
find alternatives to this method of waste disposal. It is important 
that the short- and long-term consequences of exposure to these burn 
pits be monitored by DOD in conjunction with the VA. Finally, we urge 
that a national registry be established to track all personnel who were 
exposed to burn pits while in Iraq and Afghanistan.
Conclusion
    Mr. Chairman, in summary, our nation's military is the best in the 
world and we should do whatever necessary to ensure that the lung 
health needs of our armed services are fully met. We can ill afford to 
fight a third war against tobacco and unsafe air conditions with their 
severe consequences. Thank you for this opportunity.

    Chairman Inouye. Our next witness is Rear Admiral Casey 
Coane. Admiral.
STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, 
            ASSOCIATION OF THE UNITED STATES NAVY
    Admiral Coane. Mr. Chairman, Senator Cochran, the 
Association of the United States Navy is once again very 
pleased to have this opportunity to testify before you.
    Our Veterans Service Organization focuses a majority of its 
legislative activity on personnel issues and the equipment 
necessary for the Navy to carry out its missions. It is only 
through the attention of Congress and committees such as yours 
that we can be sure that the needs of our young men and women 
are being met. We are grateful to take this particular 
opportunity to speak to you about equipment.
    With the pressing personnel needs of the services, it may 
seem a bit cold for me to be here speaking about ships and 
aircraft. Nonetheless, the equipment of which I am speaking is 
vital to the conduct of this war and directly supports the 
thousands of Navy men and women serving on the ground in 
Afghanistan, Iraq, or other places in the theater, such as the 
Horn of Africa. Today, 14,000 Navy people are ashore in 
Operation Iraqi Freedom (OIF), Operation Enduring Freedom 
(OEF), including Active Duty and reservists.
    We are pleased with the increased emphasis that the House 
has recently shown toward the Navy's ship building plan in 
order to meet the Nation's maritime strategy. We urge the 
Senate to do the same.
    I invite the subcommittee's attention to the recently 
released National Guard and Reserve equipment report for fiscal 
year 2011, signed out by the Assistant Secretary of Defense for 
Reserve Affairs. In the Navy section of this report, the point 
is made that the Navy has successfully and fully integrated its 
Reserve component.
    The significance here is that all the Navy's overused and 
aging organic airlift aircraft are in the Reserve component. 
The Navy Reserves electronic attack squadron right here at 
Andrews Air Force Base is a critical and frequently deployed 
component of the Navy's arsenal and is badly in need of new F-
18G Growler aircraft to replace its aged A-6Bs.
    The Secretary's report lists aircraft as the top Navy 
equipping challenge. The aircraft programs listed are the C-40 
replacement for the C-9s, the P-8, the Growlers I mentioned, 
and the KC-130J airlifters. Our association could not agree 
more.
    The issue, as Secretary McCarthy indicates on page 14 of 
the report, is not just newer aircraft, it is that the current 
aircraft have aged and turned the maintenance expense curve to 
the extent that prudent business practices, on behalf of the 
taxpayer, dictate replacement now.
    The Navy needs six more C-40s to finish the program, and it 
needs some of them this year. The P-8 is an on-time, on-budget 
program to replace aging and grounded P-3s, the backbone of the 
Navy's overland reconnaissance effort in theater. Anything that 
this subcommittee could do to accelerate that program, perhaps 
by utilization of the NGREA account, would be most beneficial.
    The Navy and Air Force have testified to the unfunded need 
for electronic attack aircraft in fiscal year 2012 and beyond. 
Without the transition of the Navy Reserve squadron to the 
Growler, the Navy will--and I quote from the report--``lose 
critical operational and strategic Reserve airborne electronic 
attack capability and capacity.'' We urge the subcommittee to 
ensure this does not happen.
    The Navy's 30-year aircraft program, the Naval Aviation 
Plan 2030, has the requirement for the replacement of the C-
130T airlifters with the new KC-130Js. Currently, this 
essential tactical, intra-theater airlift is operating five 
aircraft short of its requirement.
    Each year that the new aircraft is delayed will force the 
Navy to spend more money to upgrade worn-out aircraft to meet 
new European aviation aircraft standards without which they 
cannot fly across Europe. We urge the subcommittee to bring the 
KC-130J forward in the future year defense plan (FYDP) or by 
adding to the NGREA account.
    Again, the Association of the United States Navy thanks the 
subcommittee for their tireless efforts on behalf of our 
services and for providing this opportunity to be heard.
    Thank you.
    Chairman Inouye. Thank you very much, Admiral.
    Do you have any questions?
    Thank you very much, sir.
    [The statement follows:]
             Prepared Statement of Rear Admiral Casey Coane
    The Association of the United States Navy (AUSN) recently changed 
its name as of May 19, 2009. The association, formerly known as the 
Naval Reserve Association, traces its roots back to 1919 and is devoted 
solely to service to the Nation, Navy, the Navy Reserve and Navy 
Reserve officers and enlisted. It is the premier national education and 
professional organization for Active Duty Navy, Navy Reserve personnel, 
Veterans of the Navy, families of the Navy, and the Association Voice 
of the Navy and Navy Reserve.
    Full membership is offered to all members of the U.S. Navy and 
Naval Reserve. Association members come from all ranks and components.
    The Association has active duty, reserve, and veterans from all 50 
states, U.S. Territories, Europe, and Asia. Forty-five percent of AUSN 
membership is active reservists, active duty, while the remaining 55 
percent are made up of retirees, veterans, and involved DOD civilians. 
The National Headquarters is located at 1619 King Street Alexandria, 
VA. 703-548-5800.
    Mister Chairman and distinguished members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to testify.
    Our newly transitioned VSO-MSO association works diligently to 
educate Congress, our members, and the public on Navy equipment, force 
structure, policy issues, personnel and family issues and Navy 
veterans.
    I thank this Committee for the on-going stewardship on the 
important issues of national defense and, especially, the 
reconstitution and support of the Navy during wartime. At a time of 
war, non-partisan leadership sets the example.
    Your unwavering support for our deployed Service Members in Iraq 
and Afghanistan (of which over 14,000 Sailors are deployed at Sea in 
the AOR and over 10,000 are on the ground--Active and Reserve) and for 
the world-wide fight against terrorism is of crucial importance. 
Today's Sailors watch Congressional actions closely. AUSN would like to 
highlight some areas of emphasis.
    As a nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training and combat as well as humanitarian and peacekeeping 
operations. Additionally, we must never forget the Navy families, 
reserve members and the employers of these unselfish volunteers--Active 
and Reserve.
    In recent years, the Maritime Strategy has been highlighted, 
debated and disputed. We feel this is a time where the Total Navy force 
needs to be stabilized, strengthened, and be reconstituted--because of 
the consistent, constant, and increasing National Security crisis in a 
dangerous world--
  --Piracy is on the rise in many areas of the world, and especially in 
        the 5th Fleet AOR;
  --The flow of commerce still remains a top priority for our economy;
  --Naval engagement and support on the ground, in the air, and on the 
        seas for OIF and OEF has not decreased;
  --Ever increasing Middle East instability;
  --Ballistic missile threats (N Korea-Iran) and the Navy requirement 
        to be the front line of defense for missile defense threat;
  --U.S. Navy response to natural disasters; tsunami, Haiti, Chile, and 
        possible man made disasters (oil spill support);
  --Humanitarian assistance in the Philippines, Indonesia, and American 
        Samoa; and
  --Ever increasing and changing Arctic issues.
    In addition to equipment to accomplish assigned missions, the AUSN 
believes that the Administration and Congress must make it a high 
priority to maintain, if not increase, but at least stabilize the end 
strengths of already overworked, and perhaps overstretched, military 
forces. This includes the Active Navy and the Navy Reserve. Reductions 
in manpower are generally for appropriations reasons within the 
Service, not because people are not needed and their benefits are not a 
requirement.
    Our current maritime history and strategy--requires that our nation 
must achieve the 313+ Navy Ships, not decrease them, and there should 
be a balance between personnel end-strengths and equipment.
    Carriers, submarines, and Naval Aviation are more relevant than 
ever--as proven by initial and constant actions in Iraq and Afghanistan 
and ongoing operations in OIF-OEF and throughout Southwest Asia. 
Additionally--Navy weapon systems and personnel play a critical role in 
Natural disasters around the world! Therefore, it is not a time--to cut 
back.
    We must fund the Navy for proper shipbuilding and aviation programs 
which the House this year authorized funds to accomplish.
    As you know, neither the Navy nor the Navy Reserve has ever been a 
garrisoned force--but, a deployed force. Nothing has changed in recent 
contingency operations or wars, except that the Navy's forces needs 
equipment as much as anyone.
    We recognize that there are many issues that need to be addressed 
by this Committee and this Congress. The Association of the United 
States Navy supports the Navy's fiscal year 2011 budget submission and 
the Unfunded Programs List provided by the Chief of Naval Operations 
that addressed an increased shipbuilding and increase aircraft 
procurement to relieve the documented shortages and maintenance 
requirements.
    Overwhelmingly, we have heard Service Chiefs, Reserve Chiefs and 
Senior Enlisted Advisors discuss the need and requirement for more and 
unit equipment for training in order to be ready as well as combat 
equipment in the field. Navy needs to have equipment and unit cohesion 
to keep personnel trained. This means--Navy equipment and Navy Reserve 
equipment with units.
Equipment Ownership
    Issue.--Sharing of equipment has been done in the past. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. This issue needs to be addressed if the current National 
Security Strategy is to succeed.
    Position.--The overwhelming majority of Navy and Navy Reserve 
members join to have hands-on experience on equipment. The training and 
personnel readiness of members depends on constant hands-on equipment 
exposure. History shows, this can only be accomplished through 
appropriate equipment, since the training cycles are rarely if ever--
synchronized with the training or exercise times or deployment times. 
Additionally, historical records show that units with unite hardware 
maintain equipment at higher than average material and often have 
better training readiness. This is especially true with Navy Reserve 
units. Current and future war fighting requirements will need these 
highly qualified units when the Combatant Commanders require fully 
ready units.
    Navy has proven its readiness. The personnel readiness, retention, 
and training of all members will depend on them having equipment that 
they can utilize, maintain, train on, and deploy with when called upon. 
AUSN recommends the Committee strengthen the Navy equipment 
appropriation as the House has done in the fiscal year 2011 NDAA in 
order to maintain optimally qualified and trained Navy and Navy Reserve 
forces.
Pay, Promotion, and Pride
    Pay needs to be competitive. If pay is too low, or expenses too 
high, a service member knows that time may be better invested 
elsewhere. The current pay raise discussions of 1.9 percent is woefully 
inadequate when the Nation considers what service members, Navy 
members, are doing in defense of this nation. The risks and sacrifices 
of every service member, to defend this great nation, make it illogical 
to formulate a direct comparison of civil pay to military pay. It just 
does not make common sense.
    Promotions need to be fairly regular, and attainable.
    Pride is a combination of professionalism, parity and awards: doing 
the job well with requisite equipment, and being recognized for one's 
sacrifices and efforts.
    Care must be taken that the current tremendous reservoir of 
operational capability be maintained and not lost due to resource 
shortages. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. In the current environment of Navy Individual Augmentee 
in support of ground forces, there is a risk that Navy mid-grade 
leadership will not be able to flourish due to the extended ground war 
of OIF and OEF. Having the right equipment is critical to our Maritime 
Strategy.
    In summary, we believe the Committee needs to address the following 
issues for Navy and Navy Reserve in the best interest of our National 
Security:
  --Fund the 9 Navy Ships provided for in the House fiscal year 2011 
        NDAA.
  --Fund one C-40A for the Navy, per the past years documented request; 
        Navy must replace the C-9s and replace the C-20Gs in Hawaii and 
        Maryland.
  --Fund the FA-18 E/F and FA-18 E/F Growlers per the House fiscal year 
        2011 NDAA and include unit assets for Navy Reserve units 
        currently in EA-6B aircraft.
  --Just as other services are having difficulties with intra theater 
        C-130 assets, the Navy needs to replace their C-130 aircraft 
        with C-130J for the Navy and Navy Reserve.
  --Increase funding for Naval Reserve equipment in NGREA: Increase 
        Navy Reserve NGREA by $100 million; and Naval Expeditionary 
        Combat Equipment.
    For the foreseeable future, we must be realistic about what the 
unintended consequences are from a high rate of usage. History shows 
that an Active force and Reserve force are needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations. Our Active Duty Navy and the current operational 
Reserve members are pleased to be making a significant contribution to 
the nation's defense as operational forces; however, the reality is 
that the added stress on Active Navy and the Reserve could pose long 
term consequences for our country in recruiting, retention, family and 
employer support. In a time of budget cut discussions, this is not the 
time to cut end-strengths on an already stressed force. We have already 
been down this road previously. This issue deserves your attention in 
pay, maintaining end-strengths, proper equipment, Family Support 
Programs, Transition Assistance Programs and for the Employer Support 
for the Guard and Reserve programs.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, their 
families, and Navy veterans, and the fine men and women who defend our 
country.

    Chairman Inouye. Our next witness is Ms. Kathy Rentfrow. 
Ms. Rentfrow.
STATEMENT OF KATHY RENTFROW, VOLUNTEER, DYSTONIA 
            MEDICAL RESEARCH FOUNDATION
    Ms. Rentfrow. Mr. Chairman and members of the Senate 
Appropriations Defense Subcommittee, thank you for allowing me 
the opportunity to testify today.
    My name is Kathy Rentfrow, and I am a volunteer with the 
Dystonia Medical Research Foundation, or DMRF. The DMRF is a 
patient-centered, nonprofit organization dedicated to serving 
dystonia patients and their families.
    The DMRF works to advance dystonia research, increase 
dystonia awareness, and provide support for those living with 
the disorder. More importantly, I am a proud military spouse 
and the mother of a child suffering from dystonia.
    Dystonia is a neurological movement disorder that causes 
muscles to contract and spasm involuntarily. Dystonia is not 
usually fatal, but it is a chronic disorder whose symptoms vary 
in degrees of frequency, intensity, disability, and pain.
    Dystonia can be generalized, affecting all major muscle 
groups, resulting in twisting, repetitive movements, and 
abnormal postures, or focal, affecting a specific part of the 
body, such as the legs, arms, hands, neck, face, mouth, 
eyelids, or vocal cords.
    At this time, no known cure exists, and treatment is highly 
individualized. Patients frequently rely on invasive therapies 
like botulinum toxin injections or deep brain stimulation, DBS, 
to help manage their symptoms.
    At age 6, while our family was stationed in Washington, my 
daughter Melissa was diagnosed with generalized dystonia at 
Madigan Army Medical Center. What began as muscle spasms in her 
left shoulder, progressed throughout her entire arm, her right 
hand, legs, and vocal cords.
    Now, at age 15, Melissa is luckier than many dystonia 
patients, and this is in large part to the superior care she 
receives as a military dependent. Due to my husband's position 
as a permanent military professor at the United States Naval 
Academy, our daughter is able to receive care at Walter Reed 
Army Medical Center.
    Melissa responds well to treatment with medications, but 
still needs to take upwards of 20 pills per day. Unlike many 
dystonia sufferers, Melissa's extensive costs are covered by 
TRICARE. Although she does not have use of her left arm, she is 
able to walk and talk without more invasive treatments like 
botulinum toxin injections, or DBS. This not only affects 
Melissa's quality of life, but also that of our entire family.
    Dystonia is not a discriminatory condition. It affects 
people of all backgrounds, and this increasingly includes 
military personnel. Conservative estimates suggest that 
dystonia affects no less than 300,000 Americans. However, the 
incidence of dystonia has seen a noticeable increase since our 
military forces were deployed to Iraq and Afghanistan. This 
recent increase is widely considered to be the result of a 
well-documented link between head injuries, other traumatic 
injuries, and the onset of dystonia.
    Until a cure for dystonia can be discovered, it remains 
vital we learn more about the exact causes of the condition and 
develop more effective and efficient treatments. Although 
Federal dystonia research is conducted through a number of 
medical and scientific agencies, the DOD's Peer-Reviewed 
Medical Research Program remains the most essential program in 
studying dystonia in military and veteran populations.
    The DMRF has been receiving increasing reports of dystonia 
from service personnel and family members, as well as increased 
anecdotal evidence from medical professionals linking dystonia 
to traumatic brain injury, or TBI. As the subcommittee is 
aware, TBI has emerged as a trademark injury of the current war 
efforts in Iraq and Afghanistan, often sustained as the result 
of improvised explosive devices.
    More and more, TBI and other traumatic injuries are serving 
as the catalyst for the onset of dystonia. As military 
personnel remain deployed for longer periods, we can expect 
dystonia prevalence in military and veterans populations to 
increase.
    Thank you for allowing me the opportunity to address the 
subcommittee today. As the mother of a child suffering from 
dystonia and as a military spouse concerned with the well-being 
of our troops, I hope you will continue to include dystonia as 
a condition eligible for the DOD Peer-Reviewed Medical Research 
Program.
    Chairman Inouye. May I assure you that the subcommittee 
will most seriously consider your request. That, I can assure 
you.
    Ms. Rentfrow. Thank you.
    Chairman Inouye. Do you have any----
    Senator Cochran. I wish we had more time to go into 
questions and discussions, but I think you can be assured that 
we take everybody's testimony seriously. And we want you all to 
know that we appreciate your being here and keeping us up to 
date on the needs that we face through our medical programs in 
the military.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Kathy Rentfrow
    Mr. Chairman and members of the Senate Appropriations Defense 
Subcommittee, thank you for allowing me the opportunity to testify 
before you today. My name is Kathy Rentfrow, and I am a volunteer with 
the Dystonia Medical Research Foundation or ``DMRF''. The DMRF is a 
patient-centered nonprofit organization dedicated to serving dystonia 
patients and their families. The DMRF works to advance dystonia 
research, increase dystonia awareness, and provide support for those 
living with the disorder. Most importantly, I am a proud military 
spouse and the mother of a child suffering from dystonia.
    Dystonia is a neurological movement disorder that causes muscles to 
contract and spasm involuntarily. Dystonia is not usually fatal, but it 
is a chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized, affecting 
all major muscle groups, and resulting in twisting repetitive movements 
and abnormal postures or focal, affecting a specific part of the body 
such as the legs, arms, hands, neck, face, mouth, eyelids, or vocal 
chords. At this time, no known cure exists and treatment is highly 
individualized. Patients frequently rely on invasive therapies like 
botulinum toxin injections or deep brain stimulation (DBS) to help 
manage their symptoms.
    At age 6, while our family was stationed in Washington State, my 
daughter Melissa was diagnosed with generalized dystonia at Madigan 
Army Medical Center. What began as muscle spasms in her left shoulder 
and progressed throughout the entire arm, her right hand, legs, and 
vocal chords. Now at age 15, Melissa is luckier than many dystonia 
patients, and this is in large part to the superior care she receives 
as a military dependent. Due to my husband's position as a permanent 
military professor at the U.S. Naval academy, our daughter is able to 
receive care at Walter Reed Army Medical Center. Melissa responds well 
to treatment with medications, but still needs to take upwards of 20 
pills per day. Unlike many dystonia sufferers, Tricare covers the 
extensive costs of her medications. Although she does not have use of 
her left arm, she is able to walk and talk without more invasive 
treatments like botulinum toxin injections or DBS. Dystonia affects not 
only Melissa's quality of life, but also that of our entire family.
    Dystonia is not a discriminatory condition, as it affects people of 
all backgrounds and this increasingly includes military personnel. 
Conservative estimates suggest that dystonia affects no less than 
300,000 Americans. However, the incidence of dystonia has seen a 
noticeable increase since our military forces were deployed to Iraq and 
Afghanistan. This recent increase is widely considered to be the result 
of a well documented link between head injuries, other traumatic 
injuries, and the onset of dystonia. Until a cure for dystonia is 
discovered, it remains vital we learn more about the exact causes of 
the condition and develop more effective and efficient treatments for 
patients.
    Although Federal dystonia research is conducted through a number of 
medical and scientific agencies, the DOD's Peer-Reviewed Medical 
Research Program remains the most essential program studying dystonia 
in military and veteran populations. The DMRF has been receiving 
increasing reports of dystonia from service personnel and family 
members, as well as increased antidotal evidence from medical 
professionals linking dystonia to traumatic brain injury or ``TBI''. As 
the committee is aware, TBI has emerged as a trademark injury of the 
current war efforts in Iraq and Afghanistan, often sustained as the 
result of improvised explosive devices. More and more, TBI and other 
traumatic injuries are serving as the catalyst for the onset of 
dystonia. As military personnel remain deployed for longer periods, we 
can expect dystonia prevalence in military and veterans populations to 
increase, particularly in combat personnel.
    Dystonia severity and symptoms can vary dramatically from person to 
person, often drastically effecting quality of life. A June 2006 
article in Military Medicine, titled Post-Traumatic Shoulder Dystonia 
in an Active Duty Soldier reported that, ``Dystonia after minor trauma 
can be as crippling as a penetrating wound, with disability that 
renders the soldier unable to perform his duties.'' The article goes on 
to say that although battlefield treatment may not be practical, 
``awareness of this disorder [dystonia] is essential to avoid 
mislabeling, and possibly mistreating, a true neurological disease.''
    The DMRF would like to thank the Subcommittee for adding dystonia 
to the list of conditions eligible for study under the DOD Peer-
Reviewed Medical Research Program in the fiscal year 2010 DOD 
Appropriations bill. Unlike other Federally funded medical research 
programs, conditions eligible for study through the Peer-Reviewed 
Medical Research Program must affect members of the armed services and 
their families. As traumatic injuries and dystonia among service 
personnel increases, it is critical that we develop a better understand 
of the mechanisms connecting TBI and dystonia. We urge Congress to 
maintain dystonia as a condition deemed eligible for study through the 
Peer-Reviewed Medical Research Program, as the number of current 
military members and veterans with dystonia swells.
    Thank you again for allowing me the opportunity to address the 
Subcommittee today. As the mother of a child suffering from dystonia, 
and as a military spouse concerned with the well-being of our troops 
and veterans, I hope you will continue to include dystonia as condition 
eligible for study under the DOD Peer-Reviewed Medical Research 
Program.

    Chairman Inouye. And now, may I recognize Mr. John Davis. 
Mr. Davis.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Davis. Thank you, Mr. Chairman.
    My name is John Davis, and I want to thank you for the 
opportunity to express the views of the Fleet Reserve 
Association. The association appreciates the administration's 
second consecutive request for full funding of the TRICARE 
program without a fee increase.
    We believe we need to look at other cost-saving options 
first before looking at a TRICARE fee increase. Further, FRA 
believes that raising TRICARE fees during wartime would send 
the wrong message that could impact recruitment and retention. 
A recent FRA survey indicates that more than 90 percent of all 
Active Duty, retired, and veteran respondents cited healthcare 
as their top quality of life benefit.
    FRA welcomes the administration's focus on creating an 
electronic health record for service members that can follow 
them to the Department of Veterans Affairs (VA) and for the 
rest of their lives. Oversight notwithstanding, adequate 
funding for an effective delivery system between DOD and VA to 
guarantee a seamless transition and quality services for 
wounded personnel is very important to our membership.
    The association appreciates President Obama's support for 
authorizing chapter 61 retirees to receive full military 
retired pay and full veterans' disability compensation. FRA 
continues to seek authorization of funding of full concurrent 
receipt for all disabled retirees. An FRA survey indicates that 
more than 70 percent of military retirees cite concurrent 
receipt among their top priorities.
    The association strongly supports the fiscal year 2011 
budget request of $408 million to cover the first phase of the 
5-year cost of concurrent receipt for chapter 61 beneficiaries 
that are 90 percent or more disabled and supports provisions in 
the so-called ``tax extenders bill''--that is H.R. 4213--that 
expands the concurrent receipt of military retired pay and the 
VA disability compensation.
    Family support is also important and should include full 
funding for compensation, training and certification, and 
respite care for family members functioning as full-time 
caregivers for wounded warriors. The recently enacted 
Caregivers and Veterans Omnibus Health Services Act--that is S. 
1963--and parallel provision in the Senate version of the 
Defense authorization bill improves compensation, training, and 
assistance for caregivers of severely disabled Active Duty 
service members. And if authorized, FRA supports funding for 
these enhancements.
    FRA strongly supports the funding of a 1.9 percent pay 
increase, which is 0.5 percent above the administration's 
request for fiscal year 2011. Pay increases in recent years 
have helped close the pay gap and contributed to improved 
morale, readiness, and retention. Pay and benefits must reflect 
the fact that military service is very different from the work 
in the private sector.
    If authorized, FRA supports funding retroactive eligibility 
for early retirement benefits to include reservists who have 
supported contingency operations since 9/11/2001. The 2008 
Defense authorization act reduces the Reserve retirement age, 
which is age 60, by 3 months for each cumulative 90 days 
ordered to Active Duty. This applies only to servicemen after 
the effective date of legislation, which is January 28, 2008, 
and leaves out more than 600,000 reservists mobilized since 9/
11.
    Again, thank you for allowing FRA to submit its views to 
the subcommittee.
    Chairman Inouye. Mr. Davis, I can assure you that the 
subcommittee is well aware that the men and women who serve in 
uniform are all volunteers. And as far as we are concerned, 
anyone who is willing to stand in harm's way on our behalf 
deserves the very best. We give it the highest priority.
    Thank you very much.
    Senator Cochran. Thank you very much, Mr. Chairman.
    We appreciate your testimony and the reminders of the real-
life challenges that many of our servicemen and women face, and 
I hope this subcommittee can respond in a way that shows our 
concern and support for their efforts and their unselfish 
service.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the 
newly established FRA Education Foundation oversees the Association's 
scholarship program that presents awards totaling nearly $100,000 to 
deserving students each year.
    The Association is also a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA celebrated 85 years of service in November 2009. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for service members and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
                                overview
    Mr. Chairman, the Fleet Reserve Association salutes you, members of 
the Subcommittee, and your staff for the strong and unwavering support 
of funding essential programs for active duty, Reserve Component, and 
retired members of the uniformed services, their families, and 
survivors. The Subcommittee's work in funding important programs has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
healthcare, and enhanced other personnel, retirement and survivor 
programs. This funding is critical in maintaining readiness and is 
invaluable to our Armed Forces engaged in a long and protracted two 
front war, sustaining other operational commitments and fulfilling 
commitments to those who've served in the past. But more still needs to 
be done. A constant high priority for FRA is full funding of the 
Defense Health Program (DHP) to ensure quality care for active duty, 
retirees, Reservists, and their families.
    FRA's other 2010 priorities include annual active duty pay 
increases that are at least a half percent above the Employment Cost 
Index (ECI), to help close the pay gap between active duty and private 
sector pay, full concurrent receipt of military retired pay and VA 
disability compensation, retirement credit for reservists that have 
been mobilized since September 1, 2001, enhanced family readiness via 
improved communications and awareness initiatives related to benefits 
and quality of life programs, and introduction and enactment of 
legislation to eliminate inequities in the Uniformed Service Former 
Spouses Protection Act (USFSPA).
    The Administration's fiscal year 2011 proposed budget for a second 
consecutive year fully funds the DHP budget without shifting additional 
cost burdens to military retirees. FRA appreciates this and strongly 
supports efforts to fully implement electronic health records that will 
follow service members as they transition from DOD to the VA. FRA also 
supports additional improvements in concurrent receipt to expand the 
number of disabled military retirees receiving both their full military 
retired pay and VA disability compensation. The fiscal year 2011 budget 
also calls for a 1.4-percent active duty pay increase that equals the 
Employment Cost Index (ECI). The budget further increases care for 
wounded warriors by 5.8 percent, enhances family support by 3 percent, 
adds $87 million to child development centers, and boosts family 
counseling/relocation assistance by $37 million over the current fiscal 
year 2010 budget.
    As Operation Iraqi Freedom ends and troops depart from Iraq, some 
will be urging reductions in spending, despite the need to bolster 
efforts in Afghanistan and other operational commitments around the 
world. FRA understands the budgetary concerns generated by the current 
economic slowdown and other challenges but advocates that cutting the 
DOD budget during the Global War on Terror would be short sighted and 
that America needs a defense budget that will provide adequate spending 
levels for both ``benefits and bullets.''
                              health care
    Healthcare is especially significant to all FRA Shipmates 
regardless of their status and protecting and/or enhancing this benefit 
is the Association's top legislative priority. A recently released FRA 
survey indicates that nearly 90 percent of all active duty, Reserve, 
retired, and veteran respondents cited healthcare access as a 
critically important quality-of-life benefit associated with their 
military service. From 2006-2008 retirees under age 65 were targeted by 
DOD to pay significantly higher healthcare fees. Many of these retirees 
served before the recent pay and benefit enhancements were enacted and 
receive significantly less retired pay than those serving and retiring 
in the same pay grade with the same years of service today. Promises 
were made to them about healthcare for life in return for a career in 
the military with low pay and challenging duty assignments and many 
believe they are entitled to free healthcare for life.
    Efforts to enact a national healthcare reform coupled with 
inaccurate and widespread information on the associated impact on 
retiree healthcare benefits has created unease and a sense of 
uncertainty for our members. FRA opposes any effort to integrate 
TRICARE and VA healthcare into any national healthcare program. The 
Association is concerned about proposed Medicare spending cuts 
associated with reform legislation and scheduled cuts for physician 
reimbursement rates for Medicare and TRICARE beneficiaries that could 
negatively impact availability of care, and quality of services. It's 
also important to note that healthcare costs both in the military and 
throughout society have continued to increase faster than the Consumer 
Price Index (CPI) making this a prime target for those wanting to cut 
the DOD budget.
    FRA strongly supports fully funding the TRICARE program and ``The 
Military Retirees' Health Care Protection Act'' (H.R. 816) sponsored by 
Representatives Chet Edwards (TX) and Walter Jones (NC). The 
legislation would prohibit DOD from increasing TRICARE fees, specifying 
that the authority to increase TRICARE fees exists only in Congress.
    DOD must continue to investigate and implement other TRICARE cost-
saving options as an alternative to shifting costs to retiree 
beneficiaries. FRA notes progress in this area in expanding use of the 
mail order pharmacy program, Federal pricing for prescription drugs, a 
pilot program of preventative care for TRICARE beneficiaries under age 
65, and elimination of co-pays for certain preventative services. The 
Association believes these efforts will prove beneficial in slowing 
military healthcare spending in the coming years.
                           concurrent receipt
    The Association appreciates President Obama's support for 
authorizing Chapter 61 retirees to receive their full military retired 
pay and veteran's disability compensation and continues to seek timely 
and comprehensive implementation of legislation that authorizes the 
full concurrent receipt for all disabled retirees. As with last year's 
budget, the proposed fiscal year 2011 budget does not provide funding 
or identify spending offsets for these improvements and does not comply 
with House budgeting rules. The above referenced FRA survey indicates 
that more than 70 percent of military retirees cite concurrent receipt 
among their top priorities. The Association strongly supports the 
fiscal year 2011 budget request of $408 million to cover the first 
phase of the 5-year cost for concurrent receipt for Chapter 61 
beneficiaries that are 90 percent or more disabled and supports the 
provisions in the so-called ``tax-extenders'' bill (H.R. 4213) that 
expands the concurrent receipt of military retired pay and VA 
disability compensation. The measure would authorize service members 
who are medically retired with less than 20 years of service (Chapter 
61 retirees) and have a disability rating of 90 to 100 percent to 
receive both payments, without offset, starting on January 1, 2011. The 
following year concurrent receipt would be expanded to those with 70- 
to 80-percent disability ratings.
                            wounded warriors
    FRA appreciates the substantial Wounded Warriors provisions in the 
fiscal year 2008 National Defense Authorization Act (NDAA). Despite 
jurisdictional challenges, considerable progress has been made in this 
area. However, the enactment of authorizing legislation is only the 
first step in helping wounded warriors. Sustained funding is also 
critical for successful implementation. Jurisdictional challenges 
notwithstanding adequate funding for an effective delivery system 
between DOD and VA to guarantee seamless transition and quality 
services for wounded personnel, particularly those suffering from Post 
Traumatic Stress Disorder (PTSD) and Traumatic Brain Injuries (TBI) is 
very important to our membership. Family support is also critical for 
success, and should include full funding for compensation, training, 
and certification, and respite care for family members functioning as 
full-time caregivers for wounded warriors. FRA supported the recently 
enacted ``Caregivers and Veterans Omnibus Health Services Act'' (S. 
1963), and parallel legislation included in the Senate's version of the 
fiscal year 2011 Defense Authorization bill (S. 3454) to improve 
compensation, training and assistance for caregivers of several 
disabled active-duty service members.
                    adequate personnel end strength
    Funding for adequate service end strengths is essential to success 
in Iraq and Afghanistan and to sustaining other operations vital to our 
national security. FRA notes the Marine Corps' success in attaining its 
current end strength level and strongly supports the proposed Navy end 
strength increase in 2011. A recent Navy Times story entitled ``Sailor 
shortage,'' cites too much work to do in the Navy and not enough people 
to do it--and lists the associated effects which include little time 
for rest, fewer people to maintain and repair shipboard equipment, crew 
members with valuable skills being pulled for other jobs and not 
replaced and lower material ship readiness.
    The strain of repeated deployments continues and is also related to 
the adequacy of end strengths--and FRA is tracking disturbing 
indicators of the effects which include increased prescription drug and 
alcohol use, increasing mental healthcare appointments, alarming 
suicide rates plus more military divorces. Stress on service members 
and their families was addressed during a recent Senate Personnel 
Subcommittee hearing along with serious and continuing concerns about 
associated effects which can include morale, readiness and retention 
challenges. FRA urges this distinguished Subcommittee to ensure funding 
for adequate end strengths and people programs consistent with the 
Association's DOD funding goal of at least 5 percent of the GDP.
                      active duty pay improvements
    Our Nation is at war and there is no more critical morale issue for 
active duty warriors than adequate pay. This is reflected in the more 
than 96 percent of active duty respondents to FRA's recent survey 
indicating that pay is ``very important.'' The Employment Cost Index 
for fiscal year 2011 is 1.4 percent and based on statistics from 15 
months before the effective date of the proposed active duty pay 
increase. The Association appreciates the strong support from this 
distinguished Subcommittee in funding pay increases that have reduced 
the 13.5 percent pay gap (1999) to the current level of 2.4 percent. In 
addition, FRA notes that even with a fiscal year 2011 pay increase that 
is 0.5 percent above the ECI, the result will be the smallest pay hike 
since 1958. FRA urges the Subcommittee to continue the fund pay 
increases at least 0.5 percent above the ECI until the remaining 2.4 
percent pay gap is eliminated.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
mobilized to augment active duty components. As a result, the Reserve 
component is no longer a strategic Reserve, but is an operational 
Reserve that is an integral part of the total force. And because of 
these increasing demands, including missions abroad over longer periods 
of time, it is essential to improve compensation and benefits to retain 
currently serving personnel and attract quality recruits.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since 9/11/2001 (H.R. 208/S. 831/
S.644). The fiscal year 2008 Defense Authorization Act (H.R. 4986) 
reduces the Reserve retirement age (age 60) by 3 months for each 
cumulative 90-days ordered to active duty after the effective date 
(January 28, 2008) leaving out more than 600,000 Reservists mobilized 
since 9/11 for duty in Afghanistan and Iraq.
    Family Support.--FRA supports resources to allow increased outreach 
to connect Reserve families with support programs. This includes 
increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
                               conclusion
    FRA is grateful for the opportunity to present these funding 
recommendations to this distinguished Subcommittee. The Association 
reiterates its profound gratitude for the extraordinary progress this 
Subcommittee has made in funding a wide range of military personnel and 
retiree benefits and quality-of-life programs for all uniformed 
services personnel and their families and survivors. Thank you again 
for the opportunity to present the FRA's views on these critically 
important topics.

    Chairman Inouye. I would like to thank the first panel, and 
may I now call upon the second panel made up of Mr. Terry C. 
Wicks, Ms. Karen Mason, Ms. Katie Savant, and Dr. Dan Putka.
    Welcome, and may I first call upon Mr. Terry Wicks.
STATEMENT OF TERRY C. WICKS, CERTIFIED REGISTERED NURSE 
            ANESTHETIST, MHS, AMERICAN ASSOCIATION OF 
            NURSE ANESTHETISTS
    Mr. Wicks. Chairman Inouye, Vice Chairman Cochran, good 
morning. My name is Terry Wicks.
    Chairman Inouye. Will you put on the mike, please?
    Mr. Wicks. My name is Terry Wicks. I am past president of 
the 40,000 member American Association of Nurse Anesthetists, 
and while on Active Duty in the military, I also served as 
president of the Hawaii Association of Nurse Anesthetists.
    The quality of healthcare America provides our servicemen 
and servicewomen and their dependents has long been this 
subcommittee's high priority. Today, I report to you the 
contributions that certified registered nurse anesthetists, or 
CRNAs, make toward our services' mission, and I will also 
provide you our recommendations to further improve military 
healthcare for these challenging times.
    I also ask unanimous consent that our written statement be 
entered in the record.
    Chairman Inouye. Without objection.
    Mr. Wicks. America's CRNAs provide some 32 million 
anesthetics annually in every healthcare setting requiring 
anesthesia care, and we provide that care safely. The Institute 
of Medicine reported in 2000 that anesthesia is 50 times safer 
than it was in the early 1980s.
    For the United States armed forces, CRNAs are particularly 
critical. In 2009, over 500 Active Duty and more than 750 
reservist CRNAs provided anesthesia care indispensable to our 
armed forces' current mission.
    Not long ago, one CRNA, Major General Gale Pollock, served 
as acting Surgeon General of the United States Army. Today, 
CRNAs serve in major military hospitals, at educational 
institutions, aboard ships, and in isolated bases abroad and at 
home. And as members of forward surgical teams, they serve as 
close to the tip of the spear as they can be.
    In most of these environments, CRNAs provide anesthesia 
services alone--without anesthesiologists--enabling surgeons 
and other clinicians to safely deliver lifesaving care. But in 
recent years, the number of CRNAs in the armed forces has 
fallen below the number needed. The private market for CRNA 
services is very, very strong, and the military has struggled 
to compete.
    The services, this subcommittee, and the authorizing 
committees have responded with increased benefits to CRNAs, 
incentive specialty pay, and the Health Professions Loan 
Repayment Program, focusing on incentives for multi-year 
agreements.
    The profession of nurse anesthesia has likewise responded. 
The Counsel on Certification of Nurse Anesthetists reported 
that in 2009, our schools produced 2,228 graduates, double the 
number since 2000. And 2,386 nurse anesthetists were certified. 
That growth is expected to continue.
    The Counsel on Accreditation of Nurse Anesthesia 
Educational Programs projects that CRNA schools will produce 
over 2,400 graduates in 2010. These combined actions have 
helped strengthen the services' readiness and the quality of 
healthcare available to our servicemen and servicewomen.
    So our first recommendation to you is to extend and 
strengthen the successful ISP program for CRNAs. The 
authorizing committee has extended the ISP program. We would 
encourage this subcommittee to continue funding ISP levels 
sufficient for the services to recruit and retain the CRNAs 
needed for the mission.
    Our second recommendation is for the subcommittee to 
encourage all services to adopt a joint scope of practice. 
Standard practices across the services enhance patient safety 
and the quality of healthcare for our servicemen and women. The 
Navy, in particular, has made a great deal of progress toward 
adopting a joint scope of independent practitioners. We 
encourage its adoption in all services.
    Like our military CRNAs that serve each and every day, the 
American Association of Nurse Anesthetists stands ready to work 
with Congress to ensure that all of our military men and women 
get the care that they need and deserve.
    Thank you, and I would be happy to take any questions.
    Chairman Inouye. Thank you very much.
    I can assure that this subcommittee is well aware of the 
shortage of nurse anesthetists. We are also aware that if it 
weren't for nurse anesthetists, we won't have any anesthesia in 
rural America because 85 percent of that is administered by 
nurse anesthetists.
    Mr. Wicks. Yes, sir.
    Chairman Inouye. So we are going to do our very best.
    Mr. Wicks. Thank you.
    Chairman Inouye. Do you have any questions?
    I thank you very much, sir.
    [The statement follows:]
                  Prepared Statement of Terry C. Wicks
    Chairman Inouye, Ranking Member Cochran, and Members of the 
Subcommittee: The American Association of Nurse Anesthetists (AANA) is 
the professional association that represents over 40,000 Certified 
Registered Nurse Anesthetists (CRNAs) across the United States, 
including more than 500 active duty and over 750 reservists in the 
military reported in 2009. The AANA appreciates the opportunity to 
provide testimony regarding CRNAs in the military. We would also like 
to thank this committee for the help it has given us in assisting the 
Department of Defense (DOD) and each of the services to recruit and 
retain CRNAs.
           crnas and the armed forces: a tradition of service
    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the Armed Forces of the United States.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs administer some 30 
million anesthetics given to patients each year in the United States. 
Nurse anesthetists are also the sole anesthesia providers in the vast 
majority of rural hospitals, assuring access to surgical, obstetrical 
and other healthcare services for millions of rural Americans.
    Our tradition of service to the military and our Veterans is 
buttressed by our personal, professional commitment to patient safety, 
made evident through research into our practice. In our professional 
association, we state emphatically ``our members' only business is 
patient safety.'' Safety is assured through education, high standards 
of professional practice, and commitment to continuing education. 
Having first practiced as registered nurses, CRNAs are educated to the 
master's degree level, and some to the doctoral level, and meet the 
most stringent continuing education and recertification standards in 
the field. Thanks to this tradition of advanced education and clinical 
practice excellence, we are humbled and honored to note that anesthesia 
is 50 times safer now than in the early 1980s (National Academy of 
Sciences, 2000). Research further demonstrates that the care delivered 
by CRNAs, physician anesthesiologists, or by both working together 
yields similar patient safety outcomes. In addition to studies 
performed by the National Academy of Sciences in 1977, Forrest in 1980, 
Bechtoldt in 1981, the Minnesota Department of Health in 1994, and 
others, Dr. Michael Pine, MD, MBA, recently concluded once again that 
among CRNAs and physician anesthesiologists, ``the type of anesthesia 
provider does not affect inpatient surgical mortality'' (Pine, 2003). 
Thus, the practice of anesthesia is a recognized specialty in nursing 
and medicine. Most recently, a study published in Nursing Research 
confirmed obstetrical anesthesia services are extremely safe, and that 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists (Simonson et al, 
2007). Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most complex, 
either as single providers or together.
                   nurse anesthetists in the military
    Since the mid-19th century, our profession of nurse anesthesia has 
been proud and honored to provide anesthesia care for our past and 
present military personnel and their families. From the Civil War to 
the present day, nurse anesthetists have been the principal anesthesia 
providers in combat areas of every war in which the United States has 
been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthetists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm.
    Military CRNAs also provide critical anesthesia support to 
humanitarian missions around the globe in such places as Bosnia and 
Somalia. In May 2003, approximately 364 nurse anesthetists had been 
deployed to the Middle East for the military mission for ``Operation 
Iraqi Freedom'' and ``Operation Enduring Freedom.'' When President 
George W. Bush initiated ``Operation Enduring Freedom,'' CRNAs were 
immediately deployed. With the new special operations environment new 
training was needed to prepare our CRNAs to ensure military medical 
mobilization and readiness. Brigadier General Barbara C. Brannon, 
Assistant Surgeon General, Air Force Nursing Services, testified before 
this Senate Committee on May 8, 2002, to provide an account of CRNAs on 
the job overseas. She stated, ``Lt. Col. Beisser, a certified 
registered nurse anesthetist (CRNA) leading a Mobile Forward Surgical 
Team (MFST), recently commended the seamless interoperability he 
witnessed during treatment of trauma victims in Special Forces mass 
casualty incident.''
    Data gathered from the U.S. Armed Forces anesthesia communities 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harms way.
    In the current mission, CRNAs are deployed all over the world, on 
land and at sea. This committee must ensure that we retain and recruit 
CRNAs for now and in the future to serve in these military deployments 
overseas. This committee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas deployments 
and humanitarian efforts, and to ensure the maximum readiness of 
America's armed services.
nurse anesthesia provider supply and demand: solutions for recruitment 
                             and retention
    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty fell short of the number authorized by the 
Department of Defense (DOD). This is further complicated by strong 
demand for CRNAs in both the public and private sectors.
    It is essential to understand that while there is strong demand for 
CRNA services in the public and private healthcare sectors, the 
profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, the demand for anesthesia 
professionals can be met if appropriate actions are taken. As of 
January 2010, there are 108 accredited nurse anesthesia schools to 
support the profession, and the number of qualified registered nurses 
applying to these schools continues to climb. The growth in the number 
of schools, number of applicants, and production capacity has yielded 
significant growth in the number of student nurse anesthetists 
graduating and being certified into the profession. The Council on 
Certification of Nurse Anesthetists reports that in 2009 our schools 
produced 2,228 graduates, a 66 percent increase since 2003, and 2,386 
nurse anesthetists became certified. This growth is expected to 
continue. The Council on Accreditation of Nurse Anesthesia Educational 
Programs (COA) projects that the 108 CRNA schools will produce 2,430 
graduates in 2010.
    This Committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.
                    incentive special pay for nurses
    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by DOD, a large pay gap 
existed between annual civilian and military pay in 1992. This study 
concluded, ``this earnings gap is a major reason why the military has 
difficulty retaining CRNAs.'' In order to address this pay gap, in the 
fiscal year 1995 Defense Authorization bill Congress authorized the 
implementation of an increase in the annual Incentive Special Pay (ISP) 
for nurse anesthetists from $6,000 to $15,000 for those CRNAs no longer 
under service obligation to pay back their anesthesia education. Those 
CRNAs who remained obligated receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. The AANA is requesting that 
this committee fund the ISP at $50,000 for all the branches of the 
armed services to retain and recruit CRNAs now and into the future. Per 
the testimony provided in 2006 from the three services' Nurse Corps 
leaders, the AANA is aware that there is an active effort with the 
Surgeons General to closely evaluate and adjust ISP rates and policies 
needed to support the recruitment and retention of CRNAs. In 2006, 
Major General Gale Pollock, MBA, MHA, MS, CRNA, FACHE, Deputy Surgeon 
General, Army Nurse Corps of the U.S. Army stated in testimony before 
this Subcommittee, ``I am particularly concerned about the retention of 
our certified registered nurse anesthetists (CRNAs). Our inventory of 
CRNAs is currently at 73 percent. The restructuring of the incentive 
special pay program for CRNAs last year, as well as the 180 (day)-
deployment rotation policy were good first steps in stemming the loss 
of these highly trained providers. We are working closely with the 
Surgeon General's staff to closely evaluate and adjust rates and 
policies where needed.''
    There have been positive results from the Nurse Corps and Surgeons 
General initiatives to increase incentive special pays for CRNAs. In 
testimony before the House Armed Services Committee in 2007, Gen. 
Pollock stated, ``We have . . . increased the Incentive Special Pay 
(ISP) Certified Registered Nurse Anesthetist, and expanded use of the 
Health Professions Loan Repayment Program (HPLRP). The . . . Nurse 
Anesthetist bonuses have been very successful in retaining these 
providers who are critically important to our mission on the 
battlefield.'' She also stated in that same statement, ``In 2004, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.''
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes widening the gap in pay for CRNAs 
in the civilian sector compared to the military. However, the ISP and 
other incentives the services are providing CRNAs has helped close that 
gap the past 3 years, according to the most recent AANA membership 
survey data. In civilian practice, all additional skills, experience, 
duties and responsibilities, and hours of work are compensated for 
monetarily. Additionally, training (tuition and continuing education), 
healthcare, retirement, recruitment and retention bonuses, and other 
benefits often equal or exceed those offered in the military. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be supported to ensure retention of CRNAs in the military.
    AANA thanks this Committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation in the 
annual funding for ISP at $50,000 or more for fiscal year 2011, which 
recognizes the special skills and advanced education that CRNAs bring 
to the DOD healthcare system, and supports the mission of our U.S. 
Armed Forces.
                   board certification pay for nurses
    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain clinicians who are not physicians, including advanced 
practice nurses.
    AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, some remain 
ineligible. Since certification to practice as a CRNA does not require 
a specific master's degree, many nurse anesthetists have chosen to 
diversify their education by pursuing an advanced degree in other 
related fields. But CRNAs with master's degrees in education, 
administration, or management are not eligible for board certification 
pay since their graduate degree is not in a clinical specialty. Many 
CRNAs who have non-clinical master's degrees either chose or were 
guided by their respective services to pursue a degree other than in a 
clinical specialty. The AANA encourages DOD and the respective services 
to reexamine the issue of restricting board certification pay only to 
CRNAs who have specific clinical master's degrees.
     dod/va resource sharing: u.s. army-va joint program in nurse 
            anesthesia, fort sam houston, san antonio, texas
    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at the U.S. Army Graduate Program in Anesthesia 
Nursing, Fort Sam Houston, in San Antonio, Texas holds the promise of 
making significant improvements in the VA CRNA workforce, as well as 
improving retention of DOD registered nurses in a cost effective 
manner. The current program utilizes existing resources from both the 
Department of Veterans Affairs Employee Incentive Scholarship Program 
(EISP) and VA hospitals to fund tuition, books, and salary 
reimbursement for student registered nurse anesthetists (SRNAs). This 
joint program also serves the interests of the Army.
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. In the future, the program is 
granting degrees through the Northeastern University Bouve College of 
Health Sciences nurse anesthesia educational program in Boston, 
Massachusetts. At a time of increased deployments in medical military 
personnel, this type of VA-DOD partnership is a cost-effective model to 
fill these gaps in the military healthcare system. At Fort Sam Houston, 
the VA faculty director has covered her Army colleagues' didactic 
classes when they are deployed at a moments notice. This benefits both 
the VA and the DOD to ensure the nurse anesthesia students are trained 
and certified in a timely manner to meet their workforce obligation to 
the Federal government as anesthesia providers. We are pleased to note 
that the Department of Veterans' Affairs Acting Deputy Under Secretary 
for Health and the U.S. Army Surgeon General approved funding to start 
this VA nurse anesthesia school in 2004. In addition, the VA director 
has been pleased to work under the direction of the Army program 
director LTC Joseph O'Sullivan, CRNA, Ph.D., to further the continued 
success of this U.S. Army-VA partnership. With modest levels of 
additional funding in the VA EISP, this joint U.S. Army-VA nurse 
anesthesia education initiative can grow and thrive, and serve as a 
model for meeting other VA workforce needs, particularly in nursing.
                               conclusion
    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military.
    The AANA would also like to thank the Surgeons General and Nurse 
Corp leadership for their support in meeting the needs of the 
profession within the military workforce. Last, we commend and thank 
this committee for their continued support for CRNAs in the military.
    Thank you. If you have further questions, please contact the AANA 
Federal Government Affairs Office at 202-484-8400.

    Chairman Inouye. And our next witness is Ms. Karen Mason.
STATEMENT OF KAREN MASON, REGISTERED NURSE, OVARIAN 
            CANCER NATIONAL ALLIANCE
    Ms. Mason. Good morning, Mr. Chairman and Mr. Vice 
Chairman. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of $30 million for 
the Department of Defense Ovarian Cancer Research Program.
    My name is Karen Mason, and I am an intensive care nurse 
from Pitman, New Jersey. I also serve as an integration panel 
member for the Ovarian Cancer Research Program, which I will 
refer to as the OCRP for the remainder of my testimony.
    As a 9 year survivor of late-stage ovarian cancer, I feel a 
strong sense of responsibility to my community and sit before 
you today as the voice of all women with this disease--past, 
present, and future.
    During my 9 years of survivorship, I have befriended many 
women who also had late-stage ovarian cancer. One by one, I 
have watched most of these women die. Today, in the Delaware 
Valley, I know of no other woman diagnosed at a late stage who 
has survived as long as I have.
    I still speak to women newly diagnosed to offer them hope, 
but now I must hold a piece of my heart in reserve. It is my 
hope that today I can beseech you to share this responsibility 
to fund research conducted by the OCRP to find new treatments 
and early detection for women with or at risk of ovarian 
cancer.
    This year, approximately 20,000 women will be diagnosed 
with ovarian cancer, and 15,000 women will die of this disease. 
Ovarian cancer has no test like the mammogram for breast cancer 
or the Pap test for cervical cancer. Because there is no 
reliable early detection test, women must rely on their and 
their doctor's knowledge of ovarian cancer symptoms.
    However, most women and even their physicians do not know 
the symptoms of ovarian cancer, which are often confused with 
less-threatening conditions. Even with symptom awareness, by 
the time a woman has symptoms, she will already have late-stage 
cancer. Two out of three women with ovarian cancer are 
diagnosed when their cancer is late stage as mine was.
    Current treatments are brutal and consist of long debulking 
surgeries, followed by months of chemotherapies. Even when the 
initial treatment response seems positive, around 70 to 95 
percent of women diagnosed at stages III or IV will have a 
recurrence.
    The OCRP has one bold aim--to eliminate ovarian cancer. 
Since 1997, the OCRP has funded out-of-the-box, innovative 
research focused on detection, diagnosis, prevention, and 
control of ovarian cancer. Many of the funded proposals can be 
characterized as high risk and high reward. Although we take 
risk in the research we fund, we believe that investing in 
innovative research will result in a great breakthrough in the 
fight against ovarian cancer.
    I have volunteered my time for the past 3 years to serve as 
an integration panel member for the OCRP. I work alongside 
physicians, scientists, and other patient advocates, and 
together, we select proposals that we think merit funding. This 
spring, we received approximately 350 pre-applications. Sadly, 
we will only be able to fund approximately 30 full proposals. 
We worry that the cure could be heading into the trash can.
    The ovarian cancer community was extremely disappointed 
when we found out that the OCRP funding was reduced from $20 
million in 2009 to $18.75 million in 2010. This cut is shocking 
when you consider our mortality rate has not decreased, and new 
treatments and an early detection test are still so desperately 
needed.
    By increasing the OCRP's funding to $30 million for 2011 so 
that more research can be carried out, you not only help women 
currently battling this deadly beast, but future generations of 
women at risk.
    Thank you for this opportunity, and I am happy to answer 
any questions.
    Chairman Inouye. I thank you very much for your testimony.
    This subcommittee, about 25 years ago, took a step that was 
considered rather courageous. We began the cancer research 
programs for breast cancer. And although women who wear the 
uniform are required to take physicals, and if they do have 
breast cancer, that should be somehow detected before they take 
the oath. We felt that since Defense Department had the money, 
we would begin our research programs.
    It may interest you to know that at this moment, DOD funds 
more research money than the National Institutes of Health. So 
I can assure you that your request is given our highest 
priority.
    Ms. Mason. Thank you.
    Senator Cochran. I was reminded, Mr. Chairman, that you and 
Senator Stevens led the way for this subcommittee in 
recommending these funding levels, and I am sure that we will 
continue to be guided by your good judgment and your serious 
request for continued funding.
    Chairman Inouye. Thank you very much, Ms. Mason.
    [The statement follows:]
                   Prepared Statement of Karen Mason
    Good morning, Mr. Chairman, Ranking Member and Members of the 
Subcommittee. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of a minimum of $30 million 
for the Department of Defense Ovarian Cancer Research Program in fiscal 
year 2011. My name is Karen Mason and I am an intensive care nurse from 
Pitman, New Jersey. I also serve as an Integration Panel member for the 
Ovarian Cancer Research Program, which I will refer to as the OCRP for 
the remainder of my testimony.
    As a 9 year survivor of late stage ovarian cancer, I feel a strong 
sense of responsibility to my community and sit before you today as the 
voice of all women with this disease, past, present and future. It is 
my hope that today I can beseech you to share this responsibility to 
fund research conducted by the OCRP that works to find new treatments 
and an early detection test for ovarian cancer.
    This year, approximately 20,000 women will be diagnosed with 
ovarian cancer and 15,000 women will die of this disease.\1\ Ovarian 
cancer has no test like the mammogram for breast cancer or pap test for 
cervical cancer. Because there is no reliable early detection test, 
women must rely on their--and their doctors'--knowledge of ovarian 
cancer symptoms.
---------------------------------------------------------------------------
    \1\ ``Ovarian Cancer.'' National Cancer Institute. May 4, 2010 
<http://www.cancer.gov/cancertopics/types/ovarian>.
---------------------------------------------------------------------------
    However, most women, and even their doctors, do not know the 
symptoms of ovarian cancer, which are bloating, pelvic or abdominal 
pain, urinary urgency or frequency, and difficulty eating or feeling 
full quickly. These symptoms are often confused with less threatening 
conditions.
    Unfortunately, even with symptom awareness, by the time a woman has 
symptoms, she will already have late stage cancer. Two out of three 
women with ovarian cancer are diagnosed when their cancer is late 
stage, as mine was.\2\ Current treatments are brutal and consist of 
long ``debulking'' surgeries followed by months of chemotherapies. Even 
when the initial treatment response seems positive, around 70-95 
percent of women diagnosed at stages 3 or 4 will have a recurrence.\3\
---------------------------------------------------------------------------
    \2\ M.J. Horner, L.A. G. Ries, M. Krapcho, N. Neyman, R. Aminou, N. 
Howlader, S.F. Altekruse, E.J. Feuer, L. Huang, A. Mariotto, B.A. 
Miller, D.R. Lewis, M.P. Eisner, D.G. Stinchcomb, E.K. Edwards, eds. 
SEER Cancer Statistics Review 1975-2006. National Cancer Institute, 
2009. http://seer.cancer.gov/csr/1975_2006.
    \3\ Armstrong, M.D., Deborah. ``Treatment of Recurrent Disease 
Q&A.'' John Hopkins Pathology. May 9, 2010 <http://
ovariancancer.jhmi.edu/recurrentqa.cfm>.
---------------------------------------------------------------------------
    During my 9 years of survivorship, I have befriended many women who 
also had late-stage ovarian cancer. One by one, I have watched most of 
these women die. Today in the Delaware Valley, I know of no other woman 
diagnosed at a late stage who has survived as long as I have. I still 
speak to woman newly diagnosed to offer them hope, but now I must hold 
a piece of my heart in reserve.
    The OCRP has one bold aim: to eliminate ovarian cancer. Since 1997, 
the OCRP has funded out of the box, innovative research focused on 
detection, diagnosis, prevention and control of ovarian cancer. Many of 
the funded proposals can be characterized as high risk and high reward. 
Although we take risks in the research we fund, we believe that 
investing in innovative research will result in great breakthroughs in 
the fight against ovarian cancer.
    An example of a scientific breakthrough that came out of the OCRP 
was the creation of the OVA1 test for risk stratification. This test 
was recently brought to the market and has received much media 
attention, most notably in the March 9 edition of the Wall Street 
Journal.\4\ In 2003, Dr. Zhen Zhang, an investigator at John Hopkins 
School of Medicine received an Idea Development Award from the OCRP in 
the amount of $563,022. Dr. Zhang's research eventually led to the 
creation of OVA1, which is a blood test that can help physicians 
determine if a woman's pelvic mass is at risk for being malignant. 
While OVA1 is not an early detection test, it is a step in the right 
direction.
---------------------------------------------------------------------------
    \4\ Johannes, Laura. ``Test to Help Determine If Ovarian Masses Are 
Cancer.'' The Wall Street Journal March 9, 2010. <http://
online.wsj.com/article/
SB10001424052748704869304575109703066893506.html>.
---------------------------------------------------------------------------
    The OCRP is also special in that it involves patient advocates at 
all levels. I have volunteered my time for the past 3 years to serve as 
an Integration Panel Member for the OCRP. I work alongside physicians, 
scientists and other patient advocates and together, we select 
proposals that we believe merit funding. Patient advocates hold equal 
weight with scientists and physicians when funding proposals and 
deciding the program's vision for the future.
    Last fall during our vision setting day, I suggested that if the 
OCRP was truly seeking innovative out of the box researchers, perhaps 
the reviewers should be blinded as to who the researchers were and what 
institutions they represent. Imagine my delight when the panel agreed. 
Because researchers and institutions were blinded to us, a relatively 
unknown researcher from a lesser institution could conceivably be 
invited to submit a full proposal based solely on his or her idea.
    However, one of my community's biggest fears is that the relatively 
low incidence of ovarian cancer (lifetime risk of developing invasive 
ovarian cancer is 1 in 71) versus other types of cancers (lifetime risk 
of developing breast cancer is 1 in 8) has resulted in a much smaller 
investment in ovarian cancer research, thus dissuading young scientists 
from studying ovarian cancer and instead choosing to head into other 
organ sites for their careers in order to secure research funding.\5\ 
\6\
---------------------------------------------------------------------------
    \5\ ``What Are the Key Statistics About Ovarian Cancer?'' American 
Cancer Society. May 2, 2010 <http://www.cancer.org/docroot/cri/content/
cri_2_4_1x_what_are_the_key_statistics_for_ovarian_cancer_33.asp>.
    \6\ ``Probability of Breast Cancer in American Women.'' American 
Cancer Society. May 3, 2010 <http://www.cancer.gov/cancertopics/
factsheet/Detection/probability-breast-cancer>.
---------------------------------------------------------------------------
    Additionally, Michael Seiden, M.D, Ph.D, President and CEO of Fox 
Chase Cancer Center and a fellow Integration Panel Member aptly stated 
that:

    ``Reducing the burden of ovarian cancer requires recruiting and, 
more importantly, mentoring a group of scientists and clinicians who 
are committed to building sustained and productive careers in ovarian 
cancer research. Few academic medical or research centers have the 
large ovarian cancer research teams and the number of junior faculty 
focused on developing careers that are supported through peer-reviewed, 
competitively funded ovarian cancer research. Often junior faculty have 
few if any peers at their research center with common interests; thus, 
this group often lacks specific mentoring and networking opportunities 
that would maximize the pace of their career development.''

    The OCRP addressed this concern last year. We voted to award 
funding for the creation of an Ovarian Cancer Academy. The Academy puts 
the African proverb ``it takes a village to raise a child'' into action 
by training the next generation of ovarian cancer researchers. This 
award will develop a unique, interactive virtual academy that will 
provide intensive mentoring, national networking, and a peer group for 
junior faculty. Under the guidance of mentors and a chosen Academy 
Dean, it is hoped that successful, highly productive ovarian cancer 
researchers will emerge.
    But in order to continue supporting innovative research, the OCRP 
needs increased funding. This spring, we received approximately 350 
pre-applications. In the end, we will only be able to fund 
approximately 30 full proposals. The ovarian cancer community worries 
that the cure could be heading to the trash can. Only with increased 
funding can the OCRP grow and continue to contribute to the fight 
against ovarian cancer.
     ovarian cancer community concerned by funding cuts to the ocrp
    The ovarian cancer community was extremely disappointed when we 
found out that OCRP funding was reduced from $20 million in 2009 to 
$18.75 in 2010. It is shocking when you consider our mortality rate has 
not decreased and new treatments and an early detection test are still 
so desperately needed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The OCRP remains a modest program compared to the other cancer 
programs in the Congressionally-Directed Medical Research Programs, and 
yet has made vast strides in the fight against ovarian cancer with 
relatively few resources. With an increase in funding, the program can 
support more research into screening, early diagnosis and treatment of 
ovarian cancer.
    congressional support for fiscal year 2011 appropriation request
    This year, the ovarian cancer community has been proactive in 
securing support for our fiscal year 2011 appropriation request. A 
letter addressed to you in support of the $30 million appropriation for 
the OCRP was signed by Senator Robert Menendez and Senator Olympia 
Snowe, who were joined by Senators Daniel Akaka, Barbara Boxer, Sherrod 
Brown, Roland Burris, Ben Cardin, Bob Casey, Susan Collins, Chris Dodd, 
Richard Durbin, Kirsten Gillibrand, John Kerry, Kay Hagan, Ted Kaufman, 
Herb Kohl, Frank Lautenberg, Joe Lieberman, Blanche Lincoln, Jack Reed, 
Bernard Sanders, Charles Schumer, Debbie Stabenow, Sheldon Whitehouse, 
and Ron Wyden.
    A companion letter in the House supporting the $30 million request 
was sent to Chairman Dicks and Ranking Member Young from Congresswoman 
Rosa DeLauro and Congressman Dan Burton, who were joined by 84 
Representatives from both sides of the aisle: Representatives Andrews, 
Baldwin, Berkley, Berman, Blumenauer, Boswell, Boucher, Corrine Brown, 
Capuano, Carney, Carson, Castor, Cleaver, Cohen, Conyers, Crowley, 
Cummings, Susan Davis, DeGette, Delahunt, Doggett, Donna Edwards, 
Ellison, Farr, Frank, Gerlach, Gene Green, Grijalva, Gutierrez, John 
Hall, Halvorson, Hastings, Hirono, Hodes, Holt, Eddie Bernice Johnson, 
Kildee, Kilroy, Kind, Peter King, Kucinich, Lance, Levin, LoBiondo, 
Loebsack, Lynch, Maloney, Edward Markey, Marshall, McDermott, McGovern, 
Meeks, Michaud, George Miller, Brad Miller, Dennis Moore, Gwen Moore, 
Christopher Murphy, Patrick Murphy, Nadler, Norton, Oberstar, Pascrell, 
Peterson, Rahall, Richardson, Rush, Schakowsky, Bobby Scott, David 
Scott, Sestak, Shea-Porter, Snyder, Mike Thompson, Tierney, Tonko, 
Tsongas, Van Hollen, Velazquez, Walz, Wasserman Schultz, Waxman, Wu and 
Yarmuth.
               appropriation request for fiscal year 2011
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we greatly appreciate your 
leadership and support of Federal programs that seek to reduce and 
prevent suffering from ovarian cancer. Thank you in advance for your 
support of a minimum of $30 million in fiscal year 2011 funding for the 
Department of Defense Ovarian Cancer Research Program.

    Chairman Inouye. Our next witness, Ms. Katie Savant, Deputy 
Director of Government Relations, National Military Family 
Association.
STATEMENT OF KATIE SAVANT, GOVERNMENT RELATIONS DEPUTY 
            DIRECTOR, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Savant. Chairman Inouye, Senator Cochran, the National 
Military Family Association would like to thank you for the 
opportunity to present testimony on the quality of life of 
military families.
    Many families have faced the challenge of deployment for 8 
plus years. It is imperative that programs and services that 
provide a firm foundation for our families are fully funded.
    Programs must continue to adapt to the changing needs of 
service members and their families as they cope with multiple 
deployments, react to separations, balance reintegration, 
adjust to a wounded or ill service member, or grieve the loss 
of a fallen service member. Programs should provide for 
families in all stages of deployment and reach out to them in 
all geographical locations.
    Our association would like to thank the subcommittee for 
showing strong support for military families by funding 
essential programs that support today's dynamic and diverse 
military family, but more needs to be done. In this statement, 
our association will address areas that require additional 
funding or new funding.
    In May 2008, our association commissioned the RAND 
Corporation to conduct a longitudinal study on the deployment 
experiences of 1,500 families. The baseline findings were 
presented to Congress earlier this year. As a result of this 
research, our association believes we need dedicated resources, 
such as additional youth or teen centers, to support the needs 
of our older youth and teens during deployment.
    National Guard and Reserve component families appreciate 
the implementation of the Yellow Ribbon Program. Our 
association asked Congress to fully fund the Yellow Ribbon 
Program so it is consistent across the Nation and accessible to 
all families.
    The National Defense Authorization Act (NDAA) for Fiscal 
Year 2010 established the Office of Community Support for 
military families with special needs. The new office will go a 
long way in identifying and addressing special needs services. 
In order for this office to be successful, it will require 
funding.
    Military families place a high priority on the education of 
our military children. With States facing major budget cuts, 
Impact Aid will be a critical component to help school 
districts. We urge Congress to fully fund Impact Aid to its 
authorized levels.
    Military families are monitoring national healthcare reform 
and its potential impact in our population. We thank Congress 
for legislation that recognizes TRICARE meets minimal essential 
coverage under healthcare reform. However, we request your 
continued vigilance to ensure quality healthcare for military 
families.
    We suggest additional funding and flexibility in hiring 
practices when our military doctors deploy. We also recommend 
additional funding to DOD for possible civilian provider 
shortages due to reduced Medicare reimbursement rates and 
potential decreased provider availability due to healthcare 
reform.
    Our association applauds the recent passage of the 
Caregivers and Veterans Health Services Act. We would like to 
highlight two additional areas that will support our wounded 
service members. In last year's NDAA, it provided compensation 
for service members with assistance in everyday living. 
Unfortunately, this DOD mandate was not funded.
    For a seamless transition from Active Duty to veteran 
status, the service member's compensation amount should match 
the aid and attendance level the wounded service member would 
be eligible for by the Veterans Administration (VA). 
Additionally, current law permits the Secretary of the VA to 
provide a caregiver stipend. Caregivers have been shown to play 
an important role in maintaining the well-being of service 
members, and this provision should be funded.
    Our association has long advocated for enhanced benefits 
for survivors. Over 90 percent of families attended the 
ceremony at Dover to witness the dignified transfer of remains. 
Currently, the services are funding the travel out of pocket. 
We ask that funding be appropriated for travel costs for 
surviving family members to attend.
    Our association recognizes and appreciates the many 
resources and programs that support our military families 
during this time of war. The need will not go away when the war 
ends. We ask for you to help the Nation sustain and support our 
military families.
    Thank you.
    Chairman Inouye. I thank you very much, Ms. Savant.
    We are well aware that in World War II and Korea and 
Vietnam, the words ``military family'' were not used too often 
because when I was a little soldier, in my regiment, 4 percent 
had dependents, 96 percent were single.
    Ms. Savant. Wow.
    Chairman Inouye. Today, in a typical regiment, 70 percent 
have dependents. So we know that this is an important part of 
army life and military life. So I can assure you that if we are 
to maintain this strong military posture, we will have to look 
into military families.
    Ms. Savant. Thank you.
    Senator Cochran. Mr. Chairman, thank you for your 
leadership in providing sensitive and meaningful assistance to 
families. And I know with programs like the Yellow Ribbon 
Program and others, families are doing a great job with self 
help and contributions that are very, very important to the 
morale of our troops, men and women.
    Ms. Savant. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Katie Savant
    The National Military Family Association is the leading nonprofit 
organization committed to improving the lives of military families. Our 
40 years of accomplishments have made us a trusted resource for 
families and the Nation's leaders. We have been at the vanguard of 
promoting an appropriate quality of life for active duty, National 
Guard, Reserve, retired service members, their families and survivors 
from the seven uniformed services: Army, Navy, Air Force, Marine Corps, 
Coast Guard, Public Health Service and the National Oceanic and 
Atmospheric Administration.
    Association Representatives in military communities worldwide 
provide a direct link between military families and the Association 
staff in the Nation's capital. These volunteer Representatives are our 
``eyes and ears,'' bringing shared local concerns to national 
attention.
    The Association does not have or receive Federal grants or 
contracts.
    Our website is: www.MilitaryFamily.org.
    Chairman Inouye, Ranking Member Cochran, and Distinguished Members 
of the Subcommittee, the National Military Family Association would 
like to thank you for the opportunity to present testimony on the 
quality of life of military families--the Nation's families. As the war 
has continued, the quality of life of our service members and their 
families has been severely impacted. Your recognition of the sacrifices 
of these families and your response through legislation to the 
increased need for support have resulted in programs and policies that 
have helped sustain our families through these difficult times.
    In this statement, our Association will expand on several issues of 
importance to military families: Family Readiness, Family Health, and 
Family Transitions.
                            family readiness
    The National Military Family Association believes policies and 
programs should provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. It is imperative full 
funding for these programs be included in the regular budget process 
and not merely added on as part of supplemental funding. We promote 
programs that expand and grow to adapt to the changing needs of service 
members and families as they cope with multiple deployments and react 
to separations, reintegration, and the situation of those returning 
with both visible and invisible wounds. Standardization in delivery, 
accessibility, and funding are essential. Programs should provide for 
families in all stages of deployment and reach out to them in all 
geographic locations. Families should be given the tools to take 
greater responsibility for their own readiness.
    We appreciate provisions in the National Defense Authorization Acts 
and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas, times when a 
new program was initiated before looking to see if an existing program 
could be adapted to answer an evolving need. Service members and their 
families are continuously in the deployment cycle, anticipating the 
next separation, in the throes of deployment, or trying to reintegrate 
when the service member returns. Dwell times seem shorter and shorter 
as training, schools, and relocation impede on time that is spent in 
the family setting.
    ``My husband will have 3 months at home with us between deployment 
and being sent to school in January for 2 months and we will be PCSing 
soon afterwards. . . . This does not leave much time for reintegration 
and reconnection.''
    We feel that now is the time to look at best practices and at those 
programs that are truly meeting the needs of families. In this section 
we will talk about existing programs, highlight best practices and 
identify needs.
Child Care
    At every military family conference we attended last year, child 
care was in the top five issues affecting families--drop-in care being 
the most requested need. Some installations are responding to these 
needs in innovative ways. For instance, in a recent visit to Kodiak, 
Alaska, we noted the gym facility provided watch care for its patrons. 
Mom worked out on the treadmill or elliptical while her child played in 
a safe carpeted and fenced-in area right across from her. Another area 
of the gym, previously an aerobics room, had been transformed into a 
large play area for ``Mom and me'' groups to play in the frequently 
inclement weather. These solutions aren't expensive, but do require 
thinking outside the box.
    Innovative strategies are needed to address the non-availability of 
after-hours child care (before 6 a.m. and after 6 p.m.) and respite 
care. We applaud the partnership between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) that 
provides subsidized child care to families who cannot access 
installation based child development centers. Families often find it 
difficult to obtain affordable, quality care especially during hard-to-
fill hours and on weekends. Both the Navy and the Air Force have 
programs that provide 24/7 care. These innovative programs must be 
expanded to provide care to more families at the same high standard as 
the Services' traditional child development programs. The Army, as part 
of the funding attached to its Army Family Covenant, has rolled out 
more space for respite care for families of deployed soldiers. Respite 
care is needed across the board for the families of the deployed and 
the wounded, ill, and injured. We are pleased the Services have rolled 
out more respite care for special needs families, but are concerned 
when we hear that some installations are already experiencing 
shortfalls of funding for respite care early in the year.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill, and injured, families told us there is a tremendous 
need for access to adequate child care on or near military treatment 
facilities. Families need the availability of child care in order to 
attend medical appointments, especially mental health appointments. Our 
Association encourages the creation of drop-in child care for medical 
appointments on the DOD or VA premises or partnerships with other 
organizations to provide this valuable service.
    We appreciate the requirement in the National Defense Authorization 
Act fiscal year 2010 (NDAA fiscal year 2010) calling for a report on 
financial assistance provided for child care costs across the Services 
and Components to support the families of those service members 
deployed in support of a contingency operation and we look forward to 
the results.
    Our Association urges Congress to ensure resources are available to 
meet the child care needs of military families to include hourly, drop-
in and increased respite care across all Services for families of 
deployed service members and the wounded, ill, and injured, as well as 
those family members with special needs.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Our Association is working to meet this pressing need through our 
Operation Purple (OPC) summer camps. Unique in its ability to reach 
out and gather military children of different age groups, Services, and 
components, our Operation Purple program provides a safe and fun 
environment in which military children feel immediately supported and 
understood. For the second year, with the support of private donors, we 
achieved our goal of sending 10,000 military children to camp in 2009. 
We also provided the camp experience to families of the wounded. This 
year, we expect to maintain those numbers by offering 92 weeks of camp 
in 40 states, Guam and Germany. In 2009, we introduced a new program 
under our Operation Purple umbrella, offering family reintegration 
retreats in the National Parks. They have been well received by our 
families and more apply than can attend. We are offering 10 retreats 
this year.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a pilot study in 2007 aimed at the current 
functioning and wellness of military children attending Operation 
Purple camps and assessing the potential benefits of the OPC program in 
this environment of multiple and extended deployments.
    In May 2008, we embarked on phase two of the project--a 
longitudinal study on the experience of 1,507 families, which is a much 
larger and more diverse sample than included in our pilot study. RAND 
followed these families for 1 year, and interviewed the non-deployed 
caregiver/parent and one child per family between 11 and 17 years of 
age at three time points over a year. Recruitment of participants was 
extremely successful because families were eager to share their 
experiences. The research addressed two key questions:
    How are school-age military children faring?
    What types of issues do military children face related to 
deployment?
    In December, the baseline findings of the research were published 
in the journal Pediatrics. Findings showed:
  --As the months of parental deployment increased so did the child's 
        challenges.
  --The total number of months away mattered more than the number of 
        deployments.
  --Older children experienced more difficulties during deployment.
  --There is a direct correlation between the mental health of the 
        caregiver and the well-being of the child.
  --Girls experienced more difficulty during reintegration, the period 
        of months readjusting after the service member's homecoming.
  --About one-third of the children reported symptoms of anxiety, which 
        is somewhat higher than the percentage reported in other 
        national studies of children.
  --In these initial findings, there were no differences in results 
        between Services or Components.
    What are the implications? Families facing longer deployments need 
targeted support--especially for older teens and girls. Supports need 
to be in place across the entire deployment cycle, including 
reintegration, and some non-deployed parents may need targeted mental 
health support. One way to address these needs would be to create a 
safe, supportive environment for older youth and teens. Dedicated Youth 
Centers with activities for our older youth would go a long way to help 
with this.
    Our Association feels that more dedicated resources, such as youth 
or teen centers, would be beneficial to address the needs of our older 
youth and teens during deployment.
Families Overseas
    Families stationed overseas face increased challenges when their 
service member is deployed into theater. One such challenge we have 
heard from families stationed in European Command (EUCOM) concerns care 
for a family member, usually the spouse, who may be injured or confined 
to bed for an extended illness during deployment. Instead of pulling 
the service member back from theater, why not provide transportation 
for an extended family member or friend to come from the States to care 
for the injured or ill family member? This has been a recommendation 
from the EUCOM Quality of Life conference for several years.
National Guard and Reserve
    The National Military Family Association has long recognized the 
unique challenges our Reserve Component families face and their need 
for additional support. National Guard and Reserve families are often 
geographically dispersed, live in rural areas, and do not have the same 
family support programs as their active duty counterparts. The final 
report from the Commission on the National Guard and Reserve confirmed 
what we have always asserted: ``Reserve Component families face special 
challenges because they are often at a considerable distance from 
military facilities and lack the on-base infrastructure and assistance 
available to active duty families.''
    This is especially true when it comes to accessing the same level 
of counseling and behavioral health support as active duty families. 
However, our Association applauds the innovative counseling and 
behavioral health support to National Guard and Reserve families, in 
the form of Military OneSource counseling, the TRICARE Assistance 
Program (TRIAP), and Military Family Life Consultants (MFLC). Combined, 
these valuable resources are helping to address a critical need for our 
Reserve Component families.
    In the past several years, great strides have been made by both 
Congress and the Services to help strengthen our National Guard and 
Reserve families. Our Association wishes to thank Congress for 
authorizing these important provisions. We urge you to fully fund these 
vital quality of life programs critical to our Reserve Component 
families, who have sacrificed greatly in support of our Nation.
    In addition, our Association would like to thank Congress for the 
provisions allowing for the implementation of the Yellow Ribbon 
Program, and for including reporting requirements on the program's 
progress in the NDAA fiscal year 2010. We continue to urge Congress to 
make the funding for this program permanent. In addition, we ask that 
you conduct oversight hearings to ensure that Yellow Ribbon services 
are consistent across the nation. We also ask that the definition of 
family member be expanded to allow non-ID card holders to attend these 
important programs, in order to support their service member and gain 
valuable information.
    Our Association asks Congress to fully fund the Yellow Ribbon 
Program, and provide oversight hearings to ensure that Yellow Ribbon 
services are consistent across the nation, and are accessible to all 
Reserve Component families. We also ask for funding for those persons 
designated by the service member to attend Yellow Ribbon Program 
events.
                             family health
    Family readiness calls for access to quality healthcare and mental 
health services. Families need to know the various elements of their 
military health system are coordinated and working as a synergistic 
system. Our Association is concerned the DOD military healthcare system 
may not have all the resources it needs to meet both the military 
medical readiness mission and provide access to healthcare for all 
beneficiaries. It must be funded sufficiently, so the direct care 
system of military treatment facilities (MTF) and the purchased care 
segment of civilian providers can work in tandem to meet the 
responsibilities given under the TRICARE contracts, meet readiness 
needs, and ensure access for all military beneficiaries.
    Congress must provide timely and accurate funding for healthcare. 
DOD healthcare facilities must be funded to be ``world class,'' 
offering state-of-the-art healthcare services supported by evidence-
based research and design. Funding must also support the renovation of 
existing facilities or complete replacement of out-of-date DOD 
healthcare facilities. As we get closer to the closure of Walter Reed 
Army Medical Center and the opening of the new Fort Belvoir Community 
Hospital and the new Walter Reed National Military Medical Center, as 
part of the National Capitol Region BRAC process, we must be assured 
these projects are properly and fully funded. We encourage Congress to 
provide any additional funding recommended by the Defense Health 
Board's BRAC Subcommittee's report.
Military Health System
            Improving Access to Care
    In the question and answer period during the U.S. Senate Committee 
on Armed Services' Subcommittee on Personnel on June 3, 2009, Senator 
Lindsey Graham (R-SC) asked panel members to ``give a grade to 
TRICARE.'' Panel members rated TRICARE a ``B'' or a ``C minus.'' Our 
Association's Director of Government Relations stated it was a two part 
question and assigned the ``quality of care, B. Access to care, C 
minus.'' The panelist and Subcommittee Members discussion focused on 
access issues in the direct care system--our military hospitals and 
clinics--reinforcing what our Association has observed for years. We 
have consistently heard from families that their greatest healthcare 
challenge has been getting timely care from their local military 
hospital or clinic.
    Our Association continues to examine military families' experiences 
with accessing the Military Health System (MHS). Families' main issues 
are: access to their Primary Care Managers (PCM); getting someone to 
answer the phone at central appointments; having appointments available 
when they finally got through to central appointments; after hours 
care; getting a referral for specialty care; being able to see the same 
provider or PCM; and having appointments available 60, 90, and 120 days 
out in our MTFs. Families familiar with how the MHS referral system 
works seem better able to navigate the system. Those families who are 
unfamiliar report delays in receiving treatment or sometimes decide to 
give up on the referral process and never obtain a specialty 
appointment. Continuity of care is important to maintain quality of 
care. The MTFs are stressed from 9 years of provider deployments, 
directly affecting the quality of care and contributing to increased 
costs. Our Association thanks Congress for requiring, in the NDAA 
fiscal year 2009, a report on access to care and we look forward to the 
findings. This report must distinguish between access issues in the 
MTFs, as opposed to access in the civilian TRICARE networks.
    Our most seriously wounded, ill, and injured service members, 
veterans, and their families are assigned case managers. In fact, there 
are many different case managers: Federal Recovery Coordinators (FRC), 
Recovery Care Coordinators, coordinators from Service branch, Traumatic 
Brain Injury (TBI) care coordinators, Department of Veteran Affairs 
(VA) liaisons, et cetera. The goal is for a seamless transition of care 
between and within the two governmental agencies, DOD and the VA. 
However, with so many coordinators to choose from, families often 
wonder which one is the ``right'' case manager. We often hear from 
families, some whose service member has long been medically retired 
with a 100 percent disability rating or others with less than 1 year 
from date-of-injury, who have not yet been assigned a FRC. We need to 
look at whether the multiple, layered case managers have streamlined 
the process, or have only aggravated it. Our Association still finds 
families trying to navigate alone a variety of complex healthcare 
systems, trying to find the right combination of care. Individual 
Service wounded, ill, and injured program directors and case managers 
are often reluctant to inform families that FRCs exist or that the 
family qualifies for one. Many qualify for and use Medicare, VA, DOD's 
TRICARE direct and purchased care, private health insurance, and state 
agencies. Why can't the process be streamlined?
            Support for Special Needs Families
    Case management for military beneficiaries with special needs is 
not consistent because the coordination of the military family's care 
is being done by a non-synergistic MHS. Beneficiaries try to obtain an 
appointment and then find themselves getting partial healthcare within 
the MTF, while other healthcare is referred out into the purchased care 
network. Thus, military families end up managing their own care. 
Incongruence in the case management process becomes more apparent when 
military family members transfer from one TRICARE region to another and 
is further exacerbated when a special needs family member is involved. 
Families need a seamless transition and a warm handoff between TRICARE 
regions and a universal case management process across the MHS. The 
current case management system is under review by DOD and TRICARE 
Management Activity (TMA). Each TRICARE Managed Care Contractor has 
created different case management processes.
    We applaud Congress and DOD's desire to create robust healthcare, 
educational, and family support services for special needs children. 
But, these robust services do not follow them when they retire. We 
encourage the Services to allow these military families the opportunity 
to have their final duty station be in an area of their choice. We 
suggest the Extended Care Health Option (ECHO) be extended for 1 year 
after retirement for those already enrolled in ECHO prior to 
retirement. If the ECHO program is extended, it must be for all who are 
eligible for the program. We should not create a different benefit 
simply based on diagnosis.
    There has been discussion over the past years by Congress and 
military families regarding the ECHO program. The NDAA fiscal year 2009 
included a provision to increase the cap on certain benefits under the 
ECHO program and the NDAA fiscal year 2010 established the Office of 
Community Support for Military Families with Special Needs. The ECHO 
program was originally designed to allow military families with special 
needs to receive additional services to offset their lack of 
eligibility for state or Federally provided services impacted by 
frequent moves. We suggest that before making any more adjustments to 
the ECHO program, Congress should direct DOD to certify if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population. We need to make 
the right fixes so we can be assured we apply the correct solutions. 
This new office will go a long way in identifying and addressing 
special needs. However, we must remember that our special needs 
families often require medical, educational, and family support 
resources. This new office must address all these various needs in 
order to effectively implement change.
    We ask for funding for the Office of Community Support for Military 
Families with Special Needs so this important new office can begin 
helping our special needs families.
            National Guard and Reserve Member Family Health Care
    National Guard and Reserve families need increased education about 
their healthcare benefits. We also believe that paying a stipend (NDAA 
fiscal year 2008) to a mobilized National Guard or Reserve member for 
their family's coverage under their employer-sponsored insurance plan 
may prove to be more cost-effective for the government than subsidizing 
72 percent of the costs of TRICARE Reserve Select for National Guard or 
Reserve members not on active duty.
            Grey Area Reservist
    Our Association would like to thank Congress for the new TRICARE 
benefit for Grey Area Reservists. We want to make sure this benefit is 
quickly implemented and they have access to a robust network.
            TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. As the 111th Congress takes up Medicare legislation, we 
request consideration of how this legislation will impact military 
families' healthcare, especially access to mental health services.
    National provider shortages in the psychological health field, 
especially in child and adolescent psychology, are exacerbated in many 
cases by low TRICARE reimbursement rates, TRICARE rules, or military-
unique geographic challenges--for example large populations in rural or 
traditionally underserved areas. Many psychological health providers 
are willing to see military beneficiaries on a voluntary status. 
However, these providers often tell us they will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. More must be done to persuade these 
providers to participate in TRICARE and become a resource for the 
entire system, even if that means DOD must raise reimbursement rates. 
If that is the case, DOD may need additional funding for the 
flexibility to increase provider reimbursement rates if shortages 
develop.
            Pharmacy
    We caution DOD about generalizing findings of certain beneficiary 
pharmacy behaviors and automatically applying them to our Nation's 
unique military population. We encourage Congress to require DOD to 
utilize peer-reviewed research involving beneficiaries and prescription 
drug benefit options, along with performing additional research 
involving military beneficiaries, before making any recommendations on 
prescription drug benefit changes, such as co-payment and tier 
structure changes for military service members, retirees, their 
families, and survivors.
    We appreciate the inclusion of Federal pricing for the TRICARE 
retail pharmacies in the NDAA fiscal year 2008. However, we still need 
to examine its effect on the cost of medications for both beneficiaries 
and DOD. Also, we will need to see how this potentially impacts 
Medicare, civilian private insurance, and the National Health Care 
Reform drug pricing negotiations.
    We believe it is imperative that all medications available through 
TRICARE Retail Pharmacy (TRRx) should also be made available through 
TRICARE Mail Order Pharmacy (TMOP). Medications treating chronic 
conditions, such as asthma, diabetes, and hypertension should be made 
available at the lowest level of co-payment regardless of brand or 
generic status. We agree with the recommendations of The Task Force on 
the Future of Military Health Care that over-the-counter (OTC) drugs be 
a covered pharmacy benefit without a co-payment for TMOP Tier 1 
medications.
    The new T3 TRICARE contract will provide TRICARE Managed Care 
Contractors and Express-Scripts, Inc. the ability to link pharmacy data 
with disease management. This will allow for better case management, 
increased compliance, and decreased cost, especially for our 
chronically ill beneficiaries. However, this valuable tool is currently 
unavailable because the T3 contract is partially under protest and has 
not yet been awarded.
            National Health Care
    We thank Congress for legislation that recognizes that TRICARE 
meets minimal essential coverage under National Health Care reform. 
However, we request your continued vigilance to ensure quality 
healthcare for military families. The perfect storm is brewing. TMA 
will institute the new T3 contact at the same time healthcare reform 
changes are implemented. Currently, at least one out of three TRICARE 
Managed Care Contractors could change. This means that the contracts of 
those TRICARE providers would need to be renegotiated. Healthcare 
reform and Medicare reimbursement rate changes are adding to the 
demands and uncertainty of our providers. Our Association is concerned 
that providers will be unwilling to remain in the TRICARE network and 
it will become very difficult to recruit new providers. The unintended 
consequence may be a decrease in access of care due the lack of 
available healthcare providers. DOD will need additional funding to 
increase reimbursement rates if provider shortages develop.
            DOD Must Look for Savings
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:
  --Requiring the Comptroller General to audit MTFs on a random basis 
        until all have been examined for their ability to provide 
        quality healthcare in a cost-effective manner;
  --Creating an oversight committee, similar in nature to the Medicare 
        Payment Advisory Commission, which provides oversight to the 
        Medicare program and makes annual recommendations to Congress. 
        The Task Force on the Future of Military Health Care often 
        stated it was unable to address certain issues not within their 
        charter or the timeframe in which they were commissioned to 
        examine the issues. This Commission would have the time to 
        examine every issue in an unbiased manner.
  --Establishing a Unified ``Joint'' Medical Command structure, which 
        was recommended by the Defense Health Board in 2006.
    Our Association believes optimizing the capabilities of the 
facilities of the direct care system through timely replacement of 
facilities, increased funding allocations, and innovative staffing 
would allow more beneficiaries to be cared for in the MTFs, which DOD 
asserts is the most cost effective. The Task Force made recommendations 
to make the DOD MHS more cost-efficient which we support. They conclude 
the MHS must be appropriately sized, resourced, and stabilized; and 
make changes in its business and healthcare practices.
    We suggest additional funding and flexibility in hiring practices 
to address MTF provider deployments.
    We recommend additional funding to DOD for potential civilian 
provider shortages within the community due to reduced Medicare 
reimbursement rates and potential decreased provider availability due 
to healthcare reform.
    Our Association recommends a 1 year transitional active duty ECHO 
benefit for all eligible family members of service members who retire.
    We believe that Reserve Component families should be given the 
choice of a stipend to continue their employer provided care during 
deployment.
            Behavioral Health Care
    Our Nation must help returning service members and their families 
cope with the aftermath of war. DOD, VA, and State agencies must 
partner in order to address behavioral health issues early in the 
process and provide transitional mental health programs. Partnering 
will also capture the National Guard and Reserve member population, who 
often straddle these agencies' healthcare systems.
            Full Spectrum of Care
    As the war continues, families' need for a full spectrum of 
behavioral health services--from preventative care to stress reduction 
techniques, individual or family counseling, to medical mental health 
services--continues to grow. The military offers a variety of 
psychological health services, both preventative and treatment, across 
many agencies and programs. However, as service members and families 
experience numerous lengthy and dangerous deployments, we believe the 
need for confidential, preventative psychological health services will 
continue to rise. It will remain high, even after military operations 
scale down. Our study found the mental health of the caregiver directly 
affects the overall well-being of the children. Therefore, we need to 
treat the family as a unit rather than as individuals because the 
caregiver's health determines the quality of life for the children.
            Access to Behavioral Health Care
    Our Association is concerned about the overall shortage of 
psychological health providers in TRICARE's direct and purchased care 
network. DOD's Task Force on Mental Health stated timely access to the 
proper psychological health provider remains one of the greatest 
barriers to quality mental health services for service members and 
their families. The Army Family Action Plan (AFAP) identified mental 
health issues as their number three issue for 2010. While families are 
pleased more psychological health providers are available in theater to 
assist their service members, they are disappointed with the resulting 
limited access to providers at home. Families are reporting increased 
difficulty in obtaining appointments with social workers, 
psychologists, and psychiatrists at their MTFs and clinics. The 
military fuels the shortage by deploying some of its child and 
adolescent psychology providers to combat zones. Providers remaining at 
home report they are overwhelmed by treating active duty members and 
are unable to fit family members into their schedules. This can lead to 
compassion fatigue, creating burnout and exacerbating the provider 
shortage problem.
    We have seen an increase in the number of psychological health 
providers joining the purchased care side of the TRICARE network. 
However, the access standard is 7 days. We hear from military families 
after accessing the psychological health provider list on the 
contractor's websites that the provider is full and no longer taking 
patients. The list must be up-to-date in order to handle real time 
demands by families. We need to continue to recruit more psychological 
health providers to join the TRICARE network and we need to make sure 
we specifically add those in specialty behavioral healthcare areas, 
such as child and adolescence psychology and psychiatrists.
    Families must be included in mental health counseling and treatment 
programs for service members. Family members are a key component to a 
service member's psychological well-being. We recommend an extended 
outreach program to service members, veterans, and their families of 
available psychological health resources, such as DOD, VA, and State 
agencies.
    Frequent and lengthy deployments create a sharp need in 
psychological health services by family members and service members as 
they get ready to deploy and after their return. There is also an 
increase in demand in the wake of natural disasters, such as hurricanes 
and fires. We need to maintain a flexible pool of psychological health 
providers who can increase or decrease rapidly in numbers depending on 
demand by the MHS. Currently, Military Family Life Consultants and 
Military OneSource counseling are providing this type of service for 
military families on the family support side. The recently introduced 
web-based TRICARE Assistance Program (TRIAP) offers another vehicle for 
non-medical counseling, especially for those who live far from 
counselors. We need to make the Services, along with military family 
members, more aware of resources along the continuum. We need the 
flexibility of support in both the MHS and family support arenas. We 
must educate civilian network providers about our military culture. 
Communities along with nongovernment organizations (NGO) are beginning 
to fulfill this role, but more needs to be done.
            Availability of Treatment
    Do DOD, VA and State agencies have adequate psychological health 
providers, programs, outreach, and funding? Better yet, where will the 
veteran's spouse and children go for help? Many will be left alone to 
care for their loved one's invisible wounds resulting from frequent and 
long combat deployments. Who will care for them when they are no longer 
part of the DOD healthcare system?
    The Army's Mental Health Advisory Team (MHAT) IV report links 
reducing family issues to reducing stress on deployed service members. 
The team found the top non-combat stressors were deployment length and 
family separation. They noted soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment and 
the level of combat was the major contribution for their psychological 
health status upon return. Our study, along with other research, on the 
impact of deployment on caregivers and children found it was the 
cumulative time deployed that caused increased stress. These reports 
demonstrate the amount of stress being placed on our troops and their 
families.
    Our Association is especially concerned with the scarcity of 
services available to the families as they leave the military following 
the end of their activation or enlistment. Due to the service member's 
separation, the families find themselves ineligible for TRICARE, 
Military OneSource, and are very rarely eligible for healthcare through 
the VA. Many will choose to locate in rural areas lacking available 
psychological health providers. We need to address the distance issues 
families face in finding psychological health resources and obtaining 
appropriate care. Isolated service members, veterans, and their 
families do not have the benefit of the safety net of services and 
programs provided by MTFs, VA facilities, Community-Based Outpatient 
Centers and Vet Centers. We recommend:
  --using and funding alternative treatment methods, such as telemental 
        health;
  --modifying licensing requirements in order to remove geographic 
        practice barriers that prevent psychological health providers 
        from participating in telemental health services outside of a 
        VA facility;
  --educating civilian network psychological health providers about our 
        military culture as the VA incorporates Project Hero; and
  --encouraging DOD and VA to work together to provide a seamless 
        ``warm hand-off'' for families, as well as service members 
        transitioning from active duty to veteran status and funding 
        additional transitional support programs if necessary.
            National Guard and Reserve Members
    The National Military Family Association is especially concerned 
about fewer mental healthcare services available for the families of 
returning National Guard and Reserve members as well as service members 
who leave the military following the end of their enlistment. They are 
eligible for TRICARE Reserve Select, but as we know, National Guard and 
Reserve members are often located in rural areas where there may be no 
mental health providers available. Policy makers need to address the 
distance issues that families face in linking with military mental 
health resources and obtaining appropriate care. Isolated National 
Guard and Reserve families do not have the benefit of the safety net of 
services provided by MTFs and installation family support programs. 
Families want to be able to access care with a provider who understands 
or is sympathetic to the issues they face. We recommend the use of 
alternative treatment methods, such as telemental health; increasing 
mental health reimbursement rates for rural areas; modifying licensing 
requirements in order to remove geographic practice barriers that 
prevent mental health providers from participating in telemental health 
services; and educating civilian network mental health providers about 
our military culture. We hear the National Guard Bureau's Psychological 
Health Services (PHS) is not working as designed to address their 
mental health issues. This program needs to be re-evaluated to 
determine its effectiveness.
            Children
    Our Association is concerned about the impact deployment and/or the 
injury of the service member is having on our most vulnerable 
population, children of our military and veterans. Our study on the 
impact of the war on caregivers and children found deployments are 
creating layers of stressors, which families are experiencing at 
different stages. Teens especially carry a burden of care they are 
reluctant to share with the non-deployed parent in order to not ``rock 
the boat.'' They are often encumbered by the feeling of trying to keep 
the family going, along with anger over changes in their schedules, 
increased responsibility, and fear for their deployed parent. Children 
of the National Guard and Reserve members face unique challenges since 
there are no military installations for them to utilize. They find 
themselves ``suddenly military'' without resources to support them. 
School systems are generally unaware of this change in focus within 
these family units and are ill prepared to lookout for potential 
problems caused by these deployments or when an injury occurs. Also 
vulnerable, are children who have disabilities that are further 
complicated by deployment and subsequent injury of the service members. 
Their families find stress can be overwhelming, but are afraid to reach 
out for assistance for fear of retribution to the service member's 
career. They often choose not to seek care for themselves or their 
families. We appreciate the inclusion of a study on the mental health 
needs of our children in the NDAA fiscal year 2010 and hope the 
research we commissioned will provide useful information as the study 
is designed.
    The impact of the wounded, ill, and injured on children is often 
overlooked and underestimated. Military children experience a 
metaphorical death of the parent they once knew and must make many 
adjustments as their parent recovers. Many families relocate to be near 
the treating MTF or the VA Polytrauma Center in order to make the 
rehabilitation process more successful. As the spouse focuses on the 
rehabilitation and recovery, older children take on new roles. They may 
become the caregivers for other siblings, as well as for the wounded 
parent. Many spouses send their children to stay with neighbors or 
extended family members, as they tend to their wounded, ill, and 
injured spouse. Children get shuffled from place to place until they 
can be reunited with their parents. Once reunited, they must adapt to 
the parent's new injury and living with the ``new normal.'' We 
appreciate the inclusion of a study to assess the impact on children of 
the severely wounded in the NDAA fiscal year 2010.
    We encourage partnerships between government agencies, DOD, VA and 
State agencies and recommend they reach out to those private and NGOs 
who are experts on children and adolescents. They could identify and 
incorporate best practices in the prevention and treatment of mental 
health issues affecting our military children. We must remember to 
focus on preventative care upstream, while still in the active duty 
phase, in order to have a solid family unit as they head into the 
veteran phase of their lives. School systems must become more involved 
in establishing and providing supportive services for our nation's 
children.
            Caregiver Burnout
    In the ninth year of war, care for the caregivers must become a 
priority. There are several levels of caregivers. Our Association hears 
from the senior officer and enlisted spouses who are so often called 
upon to be the strength for others. We hear from the healthcare 
providers, educators, chaplains, and counselors who are working long 
hours to assist service members and their families. They tell us they 
are overburdened, burnt out, and need time to recharge so they can 
continue to serve these families. These caregivers must be afforded 
respite care, given emotional support through their command structure, 
and be provided effective family programs.
            Education
    The DOD, VA, and State agencies must educate their healthcare and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
service member's condition. They must be able to deal with polytrauma--
Post-Traumatic Stress Disorder (PTSD) in combination with multiple 
physical injuries. We need more education for civilian healthcare 
providers on how to identify signs and symptoms of mild TBI and PTSD.
    The families of service members and veterans must be educated about 
the effects of mTBI and PTSD in order to help accurately diagnose and 
treat the service member/veteran's condition. These families are on the 
``sharp end of the spear'' and are more likely to pick up on changes 
attributed to either condition and relay this information to their 
healthcare providers. Programs are being developed by each Service. 
However, they are narrow in focus targeting line leaders and healthcare 
providers, but not broad enough to capture our military family members 
and the communities they live in.
            Reintegration Programs
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information; education 
on identifying mental health, substance abuse, suicide, and TBI; and 
encouraging them to seek assistance when having financial, 
relationship, legal, and occupational difficulties. We appreciate the 
inclusion in the NDAA fiscal year 2010 for education programs targeting 
pain management and substance abuse for our families. As Services roll 
out suicide prevention programs, we need to include our families, 
communities, and support personnel.
    Successful return and reunion programs will require attention and 
funding over the long term, as well as a strong partnership at all 
levels between the various mental health arms of DOD, VA, and State 
agencies. DOD and VA need to provide family and individual counseling 
to address these unique issues. Opportunities for the entire family and 
for the couple to reconnect and bond must also be provided. Our 
Association has recognized this need and successfully piloted family 
retreats in the National Parks promoting family reintegration following 
deployment.
    We recommend an extended outreach program to service members, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey; perform a pre and post-deployment 
mental health screening on family members (similar to the PDHA and 
PDHRA currently being done for service members).
    We recommend the use and funding of alternative treatment methods, 
such as telemental health; increasing mental health reimbursement rates 
for rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    Caregivers must be afforded respite care; given emotional support 
through their command structure; and be provided effective family 
programs.
            Wounded Service Members Have Wounded Families
    Our Association asserts that behind every wounded service member 
and veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured service member must also consider the 
needs of the spouse, children, parents of single service members and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
service member is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 2 years, we have piloted our Operation Purple 
Healing Adventures camp to help wounded service members and their 
families learn to play again as a family. We hear from the families who 
participate in this camp, as well as others dealing with the recovery 
of their wounded service members that, even with Congressional 
intervention and implementation of the Services' programs, many issues 
still create difficulties for them well into the recovery period. 
Families find themselves having to redefine their roles following the 
injury of the service member. They must learn how to parent and become 
a spouse/lover with an injury. Each member needs to understand the 
unique aspects the injury brings to the family unit. Parenting from a 
wheelchair brings a whole new challenge, especially when dealing with 
teenagers. Parents need opportunities to get together with other 
parents who are in similar situations and share their experiences and 
successful coping methods. Our Association believes we need to focus on 
treating the whole family with DOD and VA programs offering skill based 
training for coping, intervention, resiliency, and overcoming 
adversities. Injury interrupts the normal cycle of deployment and the 
reintegration process. We must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    Brooke Army Medical Center (BAMC) has recognized a need to support 
these families by expanding in terms of guesthouses co-located within 
the hospital grounds and a family reintegration program for their 
Warrior Transition Unit. The on-base school system is also sensitive to 
issues surrounding these children. A warm, welcoming family support 
center located in guest housing serves as a sanctuary for family 
members. The DOD and VA could benefit from looking at successful 
programs like BAMC's which has found a way to embrace the family unit 
during this difficult time.
    The Vet Centers are an available resource for veterans' families 
providing adjustment, vocational, and family and marriage counseling. 
The VA healthcare facilities and the community-based outpatient clinics 
(CBOCs) have a ready supply of mental health providers. We recommend 
DOD partner with the VA to allow military families access to mental 
health services. We also believe Congress should require the VA, 
through its Vet Centers and healthcare facilities to develop a holistic 
approach to care by including families when providing mental health 
counseling and programs to the wounded, ill, and injured service member 
or veteran.
    The Defense Health Board has recommended DOD include military 
families in its mental health studies. We agree. We encourage Congress 
to direct DOD to include families in its Psychological Health Support 
survey and perform a pre and post-deployment mental health screening on 
family members (similar to the PDHA and PDHRA currently being done for 
service members). This recommendation will require additional funding. 
We appreciate the NDAA fiscal year 2010 report on the impact of the war 
on families and the DOD's Millennium Cohort Study including families. 
Both will help us gain a better understanding of the long-term effects 
of war on our military families.
            Transitioning for the Wounded and Their Families
    Transitions can be especially problematic for wounded, ill, and 
injured service members, veterans, and their families. The DOD and the 
VA healthcare systems, along with State agency involvement, should 
alleviate, not heighten these concerns. They should provide for 
coordination of care, starting when the family is notified that the 
service member has been wounded and ending with the DOD, VA, and State 
agencies working together, creating a seamless transition, as the 
wounded service member transfers between the two agencies' healthcare 
systems and, eventually, from active duty status to veteran status.
    Transition of healthcare coverage for our wounded, ill, and injured 
and their family members is a concern of our Association. These service 
members and families desperately need a healthcare bridge as they deal 
with the after effects of the injury and possible reduction in their 
family income. We have created two proposals. Service members who are 
medically retired and their families should be treated as active duty 
for TRICARE fee and eligibility purposes for 3 years following medical 
retirement. This proposal will allow the family not to pay premiums and 
be eligible for certain programs offered to active duty, such as ECHO 
for 3 years. Following that period, they would pay TRICARE premiums at 
the rate for retirees. Service members medically discharged from 
service and their family members should be allowed to continue for 1 
year as active duty for TRICARE and then start the Continued Health 
Care Benefit Program (CHCBP) if needed.
            Caregivers
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded service members and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA healthcare providers 
because they tend to the needs of the service members and the veterans 
on a regular basis. And, their daily involvement saves DOD, VA, and 
State agency healthcare dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured service members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services and these services must be 
funded.
    The VA has made a strong effort in supporting veterans' caregivers. 
The DOD should follow suit and expand their definition. We appreciate 
the inclusion in NDAA fiscal year 2010 of compensation for service 
members with assistance in everyday living. This provision will need 
funding.
    Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security for our Coast Guard. Caregivers must be 
recognized for their sacrifices and the important role they play in 
maintaining the quality of life of our wounded, ill, and injured 
service members and veterans. Current law allows the Secretary of the 
VA to provide a caregiver stipend, however it is an unfunded mandate. 
Our Association strongly believes this stipend needs to be fully 
funded.
    Consideration should also be given to creating innovative ways to 
meet the healthcare and insurance needs of the caregiver, with an 
option to include their family. Current law does not include a 
``family'' option.
    There must be a provision for transition benefits for the caregiver 
if the caregiver's services are no longer needed, chooses to no longer 
participate, or is asked by the veteran to no longer provide services. 
The caregiver, once qualified, should still be able to maintain 
healthcare coverage for 1 year. Compensation would discontinue 
following the end of services/care provided by the caregiver. Our 
Association looks forward to discussing details of implementing such a 
plan with Members of this Subcommittee.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve healthcare education and provide needed training and 
resources for caregivers who assist disabled and aging veterans in 
their homes. Caregivers' responsibilities start while the service 
member is still on active duty. DOD should evaluate these pilot 
programs to determine whether to adopt them for themselves. If adopted, 
DOD will need funding for these programs.
            Relocation Allowance and Housing
    Active Duty service members and their spouses qualify through the 
DOD for military orders to move their household goods when they leave 
the military service. Medically retired service members are given a 
final PCS move. Medically retired married service members are allowed 
to move their family, however, medically retired single service members 
only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single service members the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single service member's PCS move. This should be allowed for the 
qualified caregiver of the wounded, ill, and injured service member and 
the caregiver's family (if warranted), such as a sibling who is married 
with children or mom and dad. This would allow for the entire 
caregiver's family to move, not just the caregiver. The reason for the 
move is to allow the medically retired single service member the 
opportunity to relocate with their caregiver to an area offering the 
best medical care, rather than the current option that only allows for 
the medically retired single service member to move their belongings to 
where the caregiver currently resides. The current option may not be 
ideal because the area in which the caregiver lives may not be able to 
provide all the healthcare services required for treating and caring 
for the medically retired service member. Instead of trying to create 
the services in the area, a better solution may be to allow the 
medically retired service member, their caregiver, and the caregiver's 
family to relocate to an area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the Federal Recovery Coordinator (case manager), the service 
member's medical physician, the service member, and the caregiver. All 
aspects of care for the medically retired service member and their 
caregiver shall be considered. These include a holistic examination of 
the medically retired service member, the caregiver, and the 
caregiver's family for, but not limited to, their needs and 
opportunities for healthcare, employment, transportation, and 
education. The priority for the relocation should be where the best 
quality of services is readily available for the medically retired 
service member and his/her caregiver. This relocation provision will 
require DOD funding.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    Provide transitioning wounded, ill, and injured service members and 
their families a bridge of extended active duty TRICARE eligibility for 
3 years, comparable to the benefit for surviving spouses.
    Service members medically discharged from service and their family 
members shall be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Caregivers of the wounded, ill and injured must be provided with 
opportunities for training, compensation and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the service member.
    The National Military Family Association is requesting the ability 
for medically retired single service members to be allowed the 
opportunity to have their caregiver's household goods moved as a part 
of the medically retired single service member's PCS move.
            Senior Oversight Committee
    Our Association is appreciative of the provision in the NDAA fiscal 
year 2010 establishing a DOD Task Force on the Care, Management, and 
Transition of Recovery, Wounded, Ill, and Injured Members of the Armed 
Forces to access policies and programs. This Task Force will be 
independent and in a position to monitor DOD and VA's partnership 
initiatives for our wounded, ill, and injured service members and their 
families.
    The National Military Family Association encourages the all 
committees with jurisdiction over military personnel and veterans 
matters to talk on these important issues. We can no longer continue to 
create policies in a vacuum and be content on focusing on each agency 
separately because this population moves too frequently between the two 
agencies, especially our wounded, ill, and injured service members and 
their families.
                           family transitions
Survivors
    In the past year, the Services have been focusing on outreach to 
surviving families. In particular, the Army's SOS (Survivor Outreach 
Services) program makes an effort to remind these families that they 
are not forgotten. DOD and the VA must work together to ensure 
surviving spouses and their children can receive the mental health 
services they need, through all of VA's venues. New legislative 
language governing the TRICARE behavioral health benefit may also be 
needed to allow TRICARE coverage of bereavement or grief counseling. 
The goal is the right care at the right time for optimum treatment 
effect. DOD and the VA need to better coordinate their mental health 
services for survivors and their children.
    We thank Congress for extending the TRICARE Dental benefit to 
surviving children. We ask that eligibility be expanded to those active 
duty family members who had not been enrolled in the active duty 
TRICARE Dental benefit prior to the service member's death.
    Our Association recommends that eligibility be expanded to active 
duty survivors who had not been enrolled in the TRICARE Dental Program 
prior to the service member's death. We also recommend that grief 
counseling be more readily available to survivors.
    In 2009, the policy concerning the attendance of the media at the 
dignified transfer of remains at Dover AFB was changed. Primary next-
of-kin (PNOK) of the service member who dies in theater is asked to 
make a decision shortly after they are notified of the loss as to 
whether or not the media may film the dignified transfer of remains of 
their loved one during this ceremony. Family members are also given the 
option of flying to Dover themselves to witness this ceremony. In 
previous years, only about 3 percent of family members attended this 
ceremony. Since the policy change, over 90 percent of families send 
some family members to Dover to attend. The travel of up to 3 family 
members and the casualty assistance officer on a commercial carrier are 
provided for. In the NDAA fiscal year 2010, eligible family member 
travel to memorial services for a service member who dies in theater 
was authorized. This is in addition to travel to the funeral of the 
service member. None of the costs associated with this travel has been 
funded for the Services. We would ask that funds be appropriated to 
cover the costs of this extraordinary expense.
    We ask that funding be appropriated for the travel costs for 
surviving family members to attend the dignified transfer of remains in 
Dover and for eligible surviving family members to attend memorial 
services for service members who die in theater.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the service member's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are pleased that the requirement for a 
report to assess the adequacy of DIC payments was included in the NDAA 
fiscal year 2009. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, ensure that DIC eligibles under the old system 
receive an equivalent increase.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse. We 
also request that SBP benefits be allowed to be paid to a Special Needs 
Trust in cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
Education of Military Children
    The National Military Family Association would like to thank 
Congress for including a ``Sense of Congress'' in regards to the 
Interstate Compact on Educational Opportunity for Military Children in 
last year's National Defense Authorization Act. The Compact has now 
been adopted in 30 states and covers over 84 percent of our military 
children. The Interstate Commission, the governing body of the Compact, 
is working to educate military families, educators, and states on the 
appropriate usage of the Compact. The adoption of the Compact is a 
tremendous victory for military families who place a high value on 
education.
    However, military families define the quality of that education 
differently than most states or districts that look only at issues 
within their boundaries. For military families, it is not enough for 
children to be doing well in their current schools, they must also be 
prepared for the next location. The same is true for children in 
underperforming school systems. Families are concerned that they will 
lag behind students in the next location. With many states cutting 
educational programs due to the economic downturn, this concern is 
growing. A prime example is Hawaii, which opted to furlough teachers on 
Fridays, cutting 17 days from the school calendar. With elementary 
schools already on a shortened schedule for Wednesday, these students 
are only getting approximately 3\1/2\ days of instruction every other 
week. In addition, the recent cuts have made it increasing hard for 
schools to meet IEP requirements for special needs students. 
Furthermore, Hawaii is requiring parents to pay more for busing, and 
the cost of school meals have gone up 76 percent. Our Association 
believes that Hawaii's cuts are just the ``tip of the iceberg'' as we 
are beginning to see other states make tough choices as well. Although 
Hawaii's educational system has long been a concern for military 
families, many of whom opt for expensive private education, Hawaii is 
not the only place where parents have concerns. The National Military 
Family Association believes that our military children deserve to have 
a good quality education wherever they may live. However, our 
Association recognizes that how that quality education is provided may 
differ in each location.
    We urge Congress to encourage solutions for the current educational 
situation across the nation and recognize that service members' lack of 
confidence that their children may receive a quality education in an 
assignment location can affect the readiness of the force in that 
location.
    While our Association remains appreciative for the additional 
funding Congress provides to civilian school districts educating 
military children, Impact Aid continues to be under-funded. We urge 
Congress to provide appropriate and timely funding of Impact Aid 
through the Department of Education. In addition, we urge Congress to 
increase DOD Impact Aid funding for schools educating large numbers of 
military children to $60 million for fiscal year 2011. We also ask 
Congress to include an additional $5 million in funding for special 
needs children. The DOD supplement to Impact Aid is critically 
important to ensure school districts provide quality education for our 
military children.
    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
further and further away from the installation. Thus, military children 
may be attending school in districts whose familiarity with the 
military lifestyle may be limited. Educating large numbers of military 
children will put an added burden on schools already hard-pressed to 
meet the needs of their current populations. We urge Congress to 
authorize an increase in this level of funding until BRAC and Global 
Rebasing moves are completed.
    Once again, we thank Congress for passing the Higher Education 
Opportunity Act of 2008, which contained many new provisions affecting 
military families. Chief among them was a provision to expand in-state 
tuition eligibility for military service members and their families, 
and provide continuity of in-state rates if the service member receives 
Permanent Change of Station (PCS) orders out of state. However, family 
members have to be currently enrolled in order to be eligible for 
continuity of in-state tuition. Our Association is concerned that this 
would preclude a senior in high school from receiving in-state tuition 
rates if his or her family PCS's prior to matriculation. We urge 
Congress to amend this provision.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million to help districts better meet the additional demands caused by 
large numbers of military children, deployment-related issues, and the 
effects of military programs and policies. We also ask Congress to 
include an additional $5 million for school districts with Special 
Needs children.
Spouse Education & Employment
    Our Association wishes to thank Congress for recent enhancement to 
spouse education opportunities. In-state tuition, Post 9/11 G.I. bill 
transferability to spouses and children, and other initiatives have 
provided spouses with more educational opportunities than previous 
years.
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program, with the 
generosity of donors who wish to help military families. Our 2010 
application period closed on January 31, 2010. We saw a 33 percent 
increase in applications from previous years with more than 8,000 
military spouses applying to our program. Military spouses remain 
committed to their education and need assistance from Congress to 
fulfill their educational pursuits.
    We have heard from many military spouses who are pleased with the 
expansion of the Military Spouse Career Advancement Accounts, now 
called MyCAA. Unfortunately the abrupt halt of the program on February 
16, 2010 created a financial burden and undue stress for military 
spouses. We are pleased DOD has reinstated the program for the 136,583 
spouses enrolled in the program prior to February 16, 2010. We ask 
Congress to push DOD to fully restart this critical program for all 
eligible spouses as soon as possible. We also ask Congress to fully 
fund the MyCAA program, which is providing essential educational and 
career support to military spouses. The MyCAA program is not available 
to all military spouses. We ask Congress to work with the appropriate 
Service Secretary to expand this funding to the spouses of Coast Guard, 
the Commissioned Corps of NOAA and U.S. Public Health Service.
    Our Association thanks you for establishing a pilot program to 
secure internships for military spouses with Federal agencies. Military 
spouses look forward to enhanced career opportunities through the pilot 
program. We hope Congress will monitor the implementation of the 
program to ensure spouses are able to access the program and eligible 
spouses are able to find Federal employment after successful completion 
of the internship program.
    To further spouse employment opportunities, we recommend an 
expansion to the Workforce Opportunity Tax Credit for employers who 
hire spouses of active duty and Reserve component service members, and 
to provide tax credits to military spouses to offset the expense in 
obtaining career licenses and certifications when service members are 
relocated to a new duty station within a different state.
    The Services are experiencing a shortage of medical, mental health 
and child care providers. Many of our spouses are trained in these 
professions or would like to seek training in these professions. We 
think the Services have an opportunity to create portable career 
opportunities for spouses seeking in-demand professions. In addition to 
the MyCAA funding, what can the Services do to encourage spouse 
employment and solve provider shortages? We would like to see the 
Services reach out to military spouses and offer affordable, flexible 
training programs in high demand professions to help alleviate provider 
shortages.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program, and by creating training 
programs and employment opportunities for military spouses in high 
demand professions to help fill our provider shortages.
Families on the Move
    A PCS move to an overseas location can be especially stressful for 
our families. Military families are faced with the prospect of being 
thousands of miles from extended family and living in a foreign 
culture. At many overseas locations, there are insufficient numbers of 
government quarters resulting in the requirement to live on the local 
economy away from the installation. Family members in these situations 
can feel extremely isolated; for some the only connection to anything 
familiar is the local military installation. Unfortunately, current law 
permits the shipment of only one vehicle to an overseas location, 
including Alaska and Hawaii. Since most families today have two 
vehicles, they sell one of the vehicles.
    Upon arriving at the new duty station, the service member requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extracurricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Travel allowances and reimbursement rates have not kept pace with 
the out-of-pocket costs associated with today's moves. Military 
families are authorized 10 days for a housing hunting trip, but the 
cost for trip is the responsibility of the service member. Families 
with two vehicles may ship one vehicle and travel together in the 
second vehicle. The vehicle will be shipped at the service member's 
expense and then the service member will be reimbursed funds not used 
to drive the second vehicle to help offset the cost of shipping it. Or, 
families may drive both vehicles and receive reimbursement provided by 
the Monetary Allowance in Lieu of Transportation (MALT) rate. MALT is 
not intended to reimburse for all costs of operating a car but is 
payment in lieu of transportation on a commercial carrier. Yet, a TDY 
mileage rate considers the fixed and variable costs to operate a 
vehicle. Travel allowances and reimbursement rates should be brought in 
line with the actually out-of-pocket costs borne by military families.
    Our Association requests that Congress authorize the shipment of a 
second vehicle to an overseas location (at least Alaska and Hawaii) on 
accompanied tours, and that Congress address the out-of-pocket expenses 
military families bare for government ordered moves.
Military Families--Our Nation's Families
    We thank you for your support of our service members and their 
families and we urge you to remember their service as you work to 
resolve the many issues facing our country. Military families are our 
Nation's families. They serve with pride, honor, and quiet dedication. 
Since the beginning of the war, government agencies, concerned citizens 
and private organizations have stepped in to help. This increased 
support has made a difference for many service members and families, 
yet, some of these efforts overlap while others are ineffective. In our 
testimony, we believe we have identified improvements and additions 
that can be made to already successful programs while introducing 
policy or legislative changes that address the ever changing needs of 
our military population. Working together, we can improve the quality 
of life for all these families

    Chairman Inouye. Our next witness is Dr. Dan Putka, 
American Psychological Association. Am I correct, Putka?
STATEMENT OF DAN PUTKA, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. Putka. Good morning, Mr. Chairman and Ranking Member 
Cochran.
    I am Dr. Dan Putka from HumRRO, the Human Resources 
Research Organization. I am submitting testimony on behalf of 
the American Psychological Association, or APA, a scientific 
and professional organization of more than 152,000 
psychologists.
    For decades, clinical and research psychologists have used 
their unique and critical expertise to meet the needs of our 
military and its personnel, playing a vital role within the 
Department of Defense. My own military-oriented research and 
consulting focus on the recruitment and retention of committed 
high-performing military personnel.
    This morning, I focus on APA's request that Congress 
reverse disturbing administration cuts to DOD's science and 
technology budget and maintain support for important behavioral 
sciences research through DOD's Minerva Initiative.
    In the President's proposed fiscal year 2011 budget, 
defense S&T would fall from the estimated fiscal year 2010 
level of $14.7 billion to $12.3 billion, a decrease of 16.3 
percent. All military labs would see cuts to their 6.2 and 6.3 
applied research accounts, with some cuts as high as 49 
percent, namely, the Army's 6.3 account.
    Defense supported basic research, the 6.1 account, would 
fare better under the President's budget, and APA supports the 
substantial increase proposed for the Defense-wide basic 
research program. But we are very concerned about the deep cuts 
to near-term research supported by the 6.2 and 6.3 program 
accounts.
    This is not the time to reduce support for research that is 
vital to our Nation's continued security in a global atmosphere 
of uncertainty and asymmetric threats. APA urges the 
subcommittee to reverse this cut to the critical defense 
science program by providing $15 billion for defense S&T in 
fiscal year 2011.
    Within the S&T program, APA encourages the subcommittee to 
follow the recommendations from the National Academies and the 
Defense Science Board to fund priority research in the 
behavioral sciences in support of national security. 
Psychological scientists supported by the military labs address 
a broad range of important issues and problems vital to our 
national defense, with expertise in modeling behavior of 
individuals and groups, understanding and optimizing cognitive 
functioning, perceptual awareness, complex decisionmaking, 
stress resilience, recruitment and retention, military family 
functioning, and human systems interactions.
    Psychological scientists also have critical expertise in 
understanding extremist ideologies, radicalization processes, 
and counterinsurgencies. And we hope you will join the House in 
renewing your strong support for the DOD Minerva Initiative to 
address these and other compelling challenges.
    As noted in a recent National Research Council report, 
people are the heart of all military efforts. People operate 
the available weaponry and technology, and they constitute a 
complex military system composed of teams and groups at 
multiple levels. Scientific research on human behavior is 
crucial to the military because it provides knowledge about how 
people work together and use weapons and technology to extend 
and amplify their forces.
    Thank you for this opportunity.
    Chairman Inouye. Doctor, as you may be well aware, it 
wasn't too long ago when DOD did not fully recognize the worth 
of psychologists. They were not considered good enough to be in 
the star rank.
    But this subcommittee took the step to give psychologists 
the recognition they deserve. And as a result, we have much 
psychological research and psychologists on our staffs. So you 
can be assured that we won't take a back seat to anything.
    Senator Cochran. Mr. Chairman, I think it is interesting to 
observe that the Minerva Initiative was established by 
Secretary Gates I think with the realization that a better 
understanding of extremist ideologies in the world today need 
the attention of the Department of Defense.
    So we have hopes that through funding programs like that, 
making sure there is enough money there to achieve our goals, 
we can improve the safety factor of service and of citizenship 
in our great country.
    Chairman Inouye. I thank you very much, and I thank the 
panel.
    [The statement follows:]
                   Prepared Statement of Dan J. Putka
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 152,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to counter-terrorism. More than ever before, psychologists today 
bring unique and critical expertise to meeting the needs of our 
military and its personnel. APA's testimony will focus on reversing 
Administration cuts to the overall DOD Science and Technology (S&T) 
budget and maintaining support for important behavioral sciences 
research within DOD.
                              dod research
    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''------Human 
Behavior in Military Contexts Report of the National Research Council, 
2008
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad 
(and their families), psychological scientists within DOD conduct 
cutting-edge, mission-specific research critical to national defense.
      behavioral research within the military service labs and dod
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense (OSD) and the Defense Advanced Research Projects Agency 
(DARPA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
National Academies Report Calls for Doubling Behavioral Research
    The 2008 National Academies report on Human Behavior in Military 
Contexts recommended doubling the current budgets for basic and applied 
behavioral and social science research ``across the U.S. military 
research agencies.'' It specifically called for enhanced research in 
six areas: intercultural competence; teams in complex environments; 
technology-based training; nonverbal behavior; emotion; and behavioral 
neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:
    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense.''
    In its report on 21st Century Strategic Technology Vectors, the DSB 
identified a set of four operational capabilities and the ''enabling 
technologies'' needed to accomplish major future military missions 
(analogous to winning the Cold War in previous decades). In identifying 
these capabilities, DSB specifically noted that ``the report defined 
technology broadly, to include tools enabled by the social sciences as 
well as the physical and life sciences.'' Of the four priority 
capabilities and corresponding areas of research identified by the DSB 
for priority funding from DOD, the first was defined as ``mapping the 
human terrain''--understanding the human side of warfare and national 
security.
         fiscal year 2011 dod budget for science and technology
DOD
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2011 again represents a dramatic step backward for defense 
research. Defense S&T would fall from the estimated fiscal year 2010 
level of $14.7 billion to $12.3 billion (a decrease of 16.3 percent). 
All military labs would see cuts to their 6.2 and 6.3 research 
accounts, with some cuts as high as 49 percent (the Army's 6.3 
account). Defense-supported basic research (6.1 level accounts) would 
fare better under the President's budget, and APA supports the 
substantial increase proposed for the OSD's Defense-wide basic research 
program, but we are very concerned about the deep cuts to near-term 
research supported by the 6.2 and 6.3 program accounts.
DARPA
    DARPA's overall funding would increase only slightly in the 
President's fiscal year 2011 budget, from $3 billion to $3.1 billion. 
The agency's home for basic research, the Defense Research Sciences 
Account, however, would be strengthened significantly. APA supports 
DARPA's transformative sciences priorities for this account, which 
include research that taps ``converging technological forces and 
transformational trends in the areas of computing and the computing-
reliant subareas of social sciences, life sciences, manufacturing and 
commerce.''
                       focus for minerva research
    APA was pleased to see the House Armed Services Committee note (in 
the fiscal year 2011 National Defense Authorization Act) its support 
for ``the use of social science to support key DOD missions such as 
irregular warfare, counterinsurgency, and stability and reconstruction 
operations'' through research funded by the DOD Minerva initiative 
established by Secretary Gates. APA agrees with the House that DOD 
``has not provided enough focus for the Minerva initiative to develop a 
deep enough expertise in any of its seven topic areas,'' especially in 
``understanding the extremist ideologies that help fuel recruitment of 
terrorists.'' APA supports the fiscal year 2011 NDAA authorization of 
$96.2 million, $5 million above the President's budget request, for DOD 
to conduct Minerva initiative research to improve our understanding of 
extremist ideologies.
                                summary
    The President's budget request for basic and applied research at 
DOD in fiscal year 2011 is $12.3 billion, which represents a dramatic 
cut of $2.4 billion or 16 percent from the enacted fiscal year 2010 
level of $14.7 billion. APA urges the Subcommittee to reverse this cut 
to the critical defense science program by providing a total of $15 
billion for Defense S&T in fiscal year 2011.
    APA supports the substantial increases to DOD's and DARPA's basic 
research portfolios, but joins the Coalition for National Security 
Research in urging Congress to provide sufficient overall funding to 
reach the Pentagon's goal of investing 3 percent of DOD's total budget 
in Defense S&T.
    Within the S&T program, APA encourages the Subcommittee to follow 
recommendations from the National Academies and the Defense Science 
Board to fund priority research in the behavioral sciences in support 
of national security. Clearly, psychological scientists address a broad 
range of important issues and problems vital to our national defense, 
with expertise in modeling behavior of individuals and groups, 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, recruitment and 
retention, and human-systems interactions. We urge you to support the 
men and women on the front lines by reversing another round of cuts to 
the overall defense S&T account and the human-oriented research 
projects within the military laboratories.
    As our nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2011 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories and the 
Minerva initiative:
                         department of defense
              research, development, test, and evaluation
    The Minerva Initiative and Behavioral Research in the Military 
Service Laboratories.--The Committee notes the increased demands on our 
military personnel, including high operational tempo, leadership and 
training challenges, new and ever-changing stresses on decision-making 
and cognitive readiness, and complex human-technology interactions. To 
help address these issues vital to our national security, the Committee 
has provided increased funding to reverse cuts to psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research. The Committee also notes the critical contributions of 
behavioral science to combating counter-insurgencies and understanding 
extremist ideologies, and renews its strong support for the DOD Minerva 
initiative.

    Chairman Inouye. And now I would like to proceed to the 
third panel, consisting of Dr. John C. Elkas, Mr. Richard 
``Rick'' A. Jones, Ms. Elizabeth Cochran, and Dr. Jonathan 
Berman.
    May I recognize Dr. John C. Elkas.
STATEMENT OF JOHN C. ELKAS, M.D., J.D., ON BEHALF OF 
            THE SOCIETY OF GYNECOLOGIC ONCOLOGISTS
    Dr. Elkas. Mr. Chairman and Vice Chairman, thank you for 
inviting me to testify at today's hearing.
    My name is Dr. John Elkas, and I am here on behalf of the 
Society of Gynecologic Oncologists. The SGO is a national 
medical specialty organization of physicians who are trained in 
the comprehensive care and management of women with gynecologic 
malignancies.
    I also practice medicine in the D.C. metropolitan area and 
am a commander in the United States Naval Reserve and an 
adjunct associate professor of obstetrics and gynecology for 
the Uniformed Services University of the Health Sciences.
    I spent 14 years in Active Duty service caring for women 
within the Department of Defense family with ovarian cancer, 
and I can speak personally to the impact that the OCRP is 
having on the care of military women with ovarian cancer.
    I am honored to be here and pleased that this subcommittee 
is focusing its attention on the OCRP. Since its inception now 
13 years ago, this DOD program has delivered benefits to 
ovarian cancer research that far exceed the annual level of 
Federal funding.
    As this subcommittee knows, ovarian cancer causes more 
deaths than any other gynecologic malignancy and is the fourth 
highest cause of cancer death among American women. One of our 
biggest challenges lie in the fact that only 20 percent of 
ovarian cancer is detected at an early stage, while most of our 
patients are diagnosed at an advanced stage, where we heard the 
5 year survival is markedly lower.
    We, the members of the SGO, along with our patients who are 
battling this disease every day, depend on the OCRP research 
funding. It is through this type of research funding that a 
screening and early detection method for ovarian cancer can be 
identified, which will allow us to save as many as 15,000 lives 
each year in the United States.
    Since its inception in fiscal year 1997, the OCRP has 
funded 209 grants, totaling more than $140 million. Much of 
this has been accomplished with the resources that we are 
talking about today.
    In Senator Mikulski's home State of Maryland, where many of 
my patients also live, the OCRP has funded research on 
important questions such as defining bio-markers that could be 
fundamental to development of a blood test for early-stage 
disease and developing and evaluating alpha target based 
approach for also treating advanced disease.
    In Senator Murray's home State of Washington, where five 
OCRP-funded grants reside, questions such as the development of 
blood tests for new small molecules in the blood that might be 
used for detection and the examination of all women--of all of 
a woman's DNA to find new genes or groups of genes that may 
cause ovarian cancer in families.
    In Senator Feinstein's home State of California, 24 grants 
have been funded by the OCRP since the program was created in 
1997, looking at questions such as inhibiting--strategies for 
targeting and inhibiting tumor growth, identification of cancer 
stem cells.
    So, as you can see, these are just a few examples of the 
209 grants that have served as a catalyst for attracting 
outstanding researchers to the field of ovarian cancer 
research. Investigators funded by the OCRP have succeeded with 
several crucial breakthroughs in bringing us closer in both the 
prevention and early detection of ovarian cancer. Were it not 
for this, many researchers might have abandoned their hopes of 
a career in basic and translational research in ovarian cancer.
    Therefore, the Society of Gynecologic Oncologists joins 
with the Ovarian Cancer National Alliance and the American 
Congress of Obstetricians and Gynecologists to urge this 
subcommittee to increase Federal funding to a minimum of $30 
million in fiscal year 2011 for the OCRP.
    Thank you, gentlemen.
    Chairman Inouye. I thank you very much, Doctor.
    On a personal note, 4 years ago, I lost my wife of 57 years 
to cancer of the liver. So this matter is a matter of personal 
interest. So I can assure you this subcommittee supports it.
    Senator Cochran. Thank you very much.
    I notice that the request is that we fund the program at 
$30 million. What is the current level of funding, do you 
recall?
    Dr. Elkas. $18.7 million, sir.
    Senator Cochran. Okay. Thank you.
    Chairman Inouye. Thank you very much, Doctor.
    [The statement follows:]
                  Prepared Statement of John C. Elkas
    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for inviting me to testify at today's hearing. My name is Dr. John 
C. Elkas, and I am Vice Chairman of the Bylaws Committee and a former 
member of the Government Relations Committee of the Society of 
Gynecologic Oncologists (SGO). I practice medicine in the D.C.-
metropolitan area, where I am an associate clinical professor in the 
department of obstetrics and gynecology at the George Washington 
University Medical Center and in private practice in Annandale, 
Virginia. I am also a Commander in the U.S. Naval Reserve and an 
adjunct associate professor of obstetrics and gynecology for the 
Uniformed Services University of the Health Sciences in Bethesda, 
Maryland.
    I am honored to be here and pleased that this subcommittee is 
focusing attention on the Department of Defense (DOD) Congressionally 
Directed Medical Research Program in Ovarian Cancer (OCRP). Since its 
inception now 13 years ago, this DOD program has delivered benefits to 
ovarian cancer research that far exceed the annual level of Federal 
funding.
    This morning, I will try to outline some of the important 
contributions this DOD program has made to ovarian cancer research and 
the well-being of our patients. In fact, it is quite easy to 
demonstrate that this investment by the Federal government has resulted 
in substantial benefits and value to medicine, to science and most 
importantly improved patient care.
    As this subcommittee may know, ovarian cancer usually arises from 
the cells on the surface of the ovary and can be extremely difficult to 
detect. According to the American Cancer Society, in 2009, more than 
21,500 women were diagnosed with ovarian cancer and approximately 
15,000 lost their lives to this terrible disease. Ovarian cancer causes 
more deaths than all the other cancers of the female reproductive tract 
combined, and is the fourth highest cause of cancer deaths among 
American women. One of our biggest challenges lies in the fact that 
only 19 percent of all ovarian cancers are detected at a localized 
stage, when the 5-year relative survival rate approaches 93 percent. 
Unfortunately, most ovarian cancer is diagnosed at late or advanced 
stage, when the 5-year survival rate is only 31 percent.
    Nationally, biomedical research funding has grown over the last 
decade through increased funding to the National Institutes of Health, 
in no small part to the amazing efforts of members of this 
Subcommittee. Yet funding for gynecologic cancer research, especially 
for the deadliest cancer that we treat, ovarian cancer, has been 
relatively flat. Since fiscal year 2003, the funding levels for 
gynecologic cancer research and training programs at the NIH, NCI, and 
CDC have not kept pace with inflation, with the funding for ovarian 
cancer programs and research training for gynecologic oncologists 
actually suffering specific cuts in funding due to the loss of an 
ovarian cancer Specialized Project of Research Excellence (SPORE) in 
2007 that had been awarded to a partnership of DUKE and the University 
of Alabama-Birmingham. Were it not for the DOD OCRP, many researchers 
might have abandoned their hopes of a career in basic and translation 
research in ovarian cancer and our patients and the women of America 
would be waiting even longer for reliable screening tests and more 
effective therapeutic approaches.
    As a leader in the Society of Gynecologic Oncologists (SGO) and as 
a gynecologic oncologist who has provided care to women affiliated with 
the United States Navy, I believe that I bring a comprehensive 
perspective to our request for increased support. The SGO is a national 
medical specialty organization of physicians who are trained in the 
comprehensive management of women with malignancies of the reproductive 
tract. Our purpose is to improve the care of women with gynecologic 
cancer by encouraging research, disseminating knowledge which will 
raise the standards of practice in the prevention and treatment of 
gynecologic malignancies and cooperating with other organizations 
interested in women's healthcare, oncology and related fields. The 
Society's membership, totaling more than 1,300, is comprised of 
gynecologic oncologists, as well as other related women's cancer 
healthcare specialists including medical oncologists, radiation 
oncologists, nurses, social workers and pathologists. SGO members 
provide multidisciplinary cancer treatment including surgery, 
chemotherapy, radiation therapy, and supportive care. More information 
on the SGO can be found at www.sgo.org.
    We, the members of the SGO, along with our patients who are 
battling ovarian cancer every day, depend on the DOD OCRP research 
funding. It is through this type of research funding that a screening 
and early detection method for ovarian cancer can be identified which 
will allow us to save many of the 15,000 lives that are lost to this 
disease each year. Therefore, the SGO respectfully recommends that this 
Subcommittee provide the DOD OCRP with a minimum of $30 million in 
Federal funding for fiscal year 2011.
department of defense ovarian cancer research program: building an army 
                     of ovarian cancer researchers
New Investigators Join the Fight
    Since its inception in fiscal year 1997, the DOD OCRP has funded 
209 grants totaling more than $140 million in funding. The common goal 
of these research grants has been to promote innovative, integrated, 
and multidisciplinary research that will lead to prevention, early 
detection, and ultimately control of ovarian cancer. Much has been 
accomplished in the last decade to move us forward in achieving this 
goal.
    In Senator Mikulski's home state of Maryland, where many of my 
patients also live, the DOD OCRP has funded research on important 
questions such as:
  --Defining biomarkers of serous carcinoma, using molecular biologic 
        and immunologic approaches, which are critical as probes for 
        the etiology/pathogenesis of ovarian cancer. Identifying 
        biomarkers is fundamental to the development of a blood test 
        for diagnosis of early stage disease and also ovarian cancer-
        specific vaccines;
  --Developing and evaluating a targeted alpha-particle based approach 
        for treating disseminated ovarian cancer. Alpha-particles are 
        short-range, very potent emissions that kill cells by incurring 
        damage that cannot be repaired; one to three alpha-particles 
        tracking through a cell nucleus can be enough to kill a cell. 
        The tumor killing potential of alpha-particles is not subject 
        to the kind of resistance that is seen in chemotherapy; and
  --Understanding of the molecular genetic pathways involved in ovarian 
        cancer development leading to the identification of the cancer-
        causing genes (``oncogenes'') for ovarian cancer.
    In Senator Murray's home state of Washington, the DOD OCRP has 
funded five grants in the last 5 years to either the University of 
Washington or to the Fred Hutchinson Cancer Center to study research 
questions regarding:
  --The usefulness of two candidate blood-based microRNA markers for 
        ovarian cancer detection, and the identification of microRNAs 
        produced by ovarian cancer at the earliest stages, which may 
        also be the basis for future blood tests for ovarian cancer 
        detection;
  --The first application of complete human genome sequencing to the 
        identification of genes for inherited ovarian cancer. The 
        identification of new ovarian cancer genes will allow 
        prevention strategies to be extended to hundreds of families 
        for which causal ovarian cancer genes are currently unknown; 
        and
  --Proposed novel technology, stored serum samples, and ongoing 
        clinical studies, with the intend of developing a pipeline that 
        can identify biomarkers that have the greatest utility for 
        women; biomarkers that identify cancer early and work well for 
        the women in most need of early detection, that can immediately 
        be evaluated clinically.
    One of the first, and very successful, grant recipients from the 
DOD OCRP hails from the Fred Hutchinson Cancer Research Center in 
Seattle, WA, Dr. Nicole Urban. Dr. Urban has worked extensively in the 
field of ovarian cancer early detection biomarker discovery and 
validation. Her current program in translational ovarian cancer 
research was built on work funded in fiscal year 1997 by the OCRP, 
``Use of Novel Technologies to Identify and Investigate Molecular 
Markers for Ovarian Cancer Screening and Prevention.'' Working with 
Beth Karlan, M.D. at Cedars-Sinai and Leroy Hood, Ph.D., M.D. at the 
University of Washington, she identified novel ovarian cancer 
biomarkers including HE4, Mesothelin (MSLN), and SLPI using comparative 
hybridization methods. This discovery lead to funding in 1999 from the 
National Cancer Institute (NCI) for the Pacific Ovarian Cancer Research 
Consortium (POCRC) Specialized Program of Research Excellence (SPORE) 
in ovarian cancer.
    The DOD and NCI funding allowed her to develop resources for 
translational ovarian cancer research including collection, management, 
and allocation of tissue and blood samples from women with ovarian 
cancer, women with benign ovarian conditions, and women with healthy 
ovaries. The DOD grant provided the foundation for what is now a mature 
specimen repository that has accelerated the progress of scientists at 
many academic institutions and industry.
    In Senator Feinstein's home state of California, 24 grants have 
been funded by the DOD OCRP since the program was created in 1997 to 
study research questions such as:
  --Strategies for targeting and inhibiting a protein called focal 
        adhesion kinase (FAK) that promotes tumor growth-metastasis. 
        With very few viable treatment options for metastatic ovarian 
        cancer, this research could lead to drug development targeting 
        these types of proteins;
  --Developing a tumor-targeting drug delivery system using Nexil 
        nanoparticles that selectively adhere to and are ingested by 
        ovarian carcinoma cells following injection into the peritoneal 
        cavity. The hypothesis for this research is that the 
        selectivity of Nexil can be substantially further improved by 
        attaching peptides that cause the particle to bind to the 
        cancer cells and that this will further increase the 
        effectiveness of intraperitoneal therapy; and
  --Using several avenues of investigation, based on our understanding 
        of the biology of stem cells, to identify and isolate cancer 
        stem cells from epithelial ovarian cancer. This has significant 
        implications for our basic scientific understanding of ovarian 
        cancer and may drastically alter treatment strategies in the 
        near future. Therapies targeted at the cancer stem cells offer 
        the potential for long-term cures that have eluded most 
        patients with ovarian cancer.
    In Senator Hutchinson's home state of Texas, 19 grants have been 
funded since the inception of the DOD OCRP in 1997, to study research 
questions regarding:
  --Understanding the pre-treatment genomic profile of ovarian cancer 
        to then isolate the predictive response of the cancer to anti-
        vasculature treatment, possibly leading to the identification 
        of targets for novel anti-vasculature therapies;
  --Ovarian cancer development directly in the specific patient and her 
        own tumor. While this process has lagged behind in ovarian 
        cancer and improving patient outcomes, it has shown great 
        promise in other solid, tumor cancers; and
  --Identifying the earliest molecular changes associated with BRCA1- 
        and BRCA2-related and sporadic ovarian cancers, leading to 
        biomarker identification for early detection.
    As you can see from these few examples, the 209 grants have served 
as a catalyst for attracting outstanding scientists to the field of 
ovarian cancer research. In the 4 year period of fiscal year 1998-
fiscal year 2001 the OCRP enabled the recruitment of 29 new 
investigators into the area of ovarian cancer research.
Federally Funding is Leveraged Through Partnerships and Collaborations
    In addition to an increase in the number of investigators, the 
dollars appropriated over the last 13 years have been leveraged through 
partnerships and collaborations to yield even greater returns, both 
here and abroad. Past-President of the SGO, Dr. Andrew Berchuck of Duke 
University Medical Center leveraged his OCRP DOD grants to form an 
international Ovarian Cancer Association Consortium (OCAC) that is now 
comprised of over 20 groups from all across the globe. The consortium 
meets biannually and is working together to identify and validate 
single nucleotide polymorphisms (SNPs) that affect disease risk through 
both candidate gene approaches and genome-wide association studies 
(GWAS). OCAC reported last year in Nature Genetics the results of the 
first ovarian cancer GWAS, which identified a SNP in the region of the 
BNC2 gene on chromosome 9 (Nature Genetics 2009, 41:996-1000.)
    Dr. Berchuck and his colleagues in the association envision a 
future in which reduction of ovarian cancer incidence and mortality 
will be accomplished by implementation of screening and prevention 
interventions in women at moderately increased risk. Such a focused 
approach may be more feasible than population-based approaches, given 
the relative rarity of ovarian cancer.
    The DOD OCRP program also serves the purpose of strengthening U.S. 
relationships with our allies, such as Australia, the United Kingdom, 
and Canada. Dr. Peter Bowtell, from the Peter MacCallum Cancer Centre 
in Melbourne, Australia, was awarded a fiscal year 2000 Ovarian Cancer 
Research Program (OCRP) Program Project Award to study the molecular 
epidemiology of ovarian cancer. With funds from this award, he and his 
colleagues formed the Australian Ovarian Cancer Study (AOCS), a 
population-based cohort of over 2,000 women with ovarian cancer, 
including over 1,800 with invasive or borderline cancer. With a bank of 
over 1,100 fresh-frozen tumors, hundreds of formalin-fixed, paraffin-
embedded (FFPE) blocks, and very detailed clinical follow-up, AOCS has 
enabled over 60 projects since its inception, including international 
collaborative studies in the United States, United Kingdom, and Canada. 
AOCS has facilitated approximately 40 publications, most of which have 
been released in the past 2 years.
    One last important example of the value of the DOD OCRP's 
contribution to science is the program's focus on inviting proposals 
from the Historically Black Colleges and Universities and Minority-
Serving Institutions. This important effort to reach beyond established 
clinical research partnerships expands the core research infrastructure 
for these institutions which helps them to attract new investigators, 
leveraging complementary initiatives, and supporting collaborative 
ventures.
    Over the decade that the OCRP has been in existence, the 209 
grantees have used their DOD funding to establish an ovarian cancer 
research enterprise that is much greater in value than the annually 
appropriated Federal funding.
Opportunities are Lost Because of Current Level of Federal Funding
    These examples of achievement are obscured to a great degree by 
opportunities that have been missed. At this current level of funding, 
this is only a very small portion of what the DOD OCRP program could do 
as we envision a day where through prevention, early detection, and 
better treatments, ovarian cancer is a manageable and frequently 
curable disease. Consistently, the OCRP receives over 500 letters of 
intent for the annual funding cycle. Of this group, about 50 percent 
are invited to submit full proposals. Prior to fiscal year 2009, the 
OCRP was only able to fund approximately 16 grants per year, a pay line 
of less than 7 percent. With an increase in funding to $20 million in 
fiscal year 2009, the OCRP was able to fund 22 awards. However, for 
fiscal year 2010 the program was cut by $1.25 million and so the 
possibility of the OCRP being able to fund even 20 grantees is in 
jeopardy. To provide sufficient and effective funding to enable us to 
do our jobs and create an environment where our scientific research can 
succeed, we need a minimum investment of $30 million in fiscal year 
2011.
   department of defense ovarian cancer research program: exemplary 
                   execution with real world results
Integration Panel Leads to Continuous Evaluation and Greater Focus
    By using the mechanism of an Integration Panel to provide the two-
tier review process, the OCRP is able to reset the areas of research 
focus on an annual basis, thereby actively managing and evaluating the 
OCRP current grant portfolio. Gaps in ongoing research can be filled to 
complement initiatives sponsored by other agencies, and most 
importantly to fund high risk/high reward studies that take advantage 
of the newest scientific breakthroughs that can then be attributed to 
prevention, early detection and better treatments for ovarian cancer. 
An example of this happened in Senator Mikulski's and my home state of 
Maryland regarding the development of the OVA1 test, a blood test that 
can help physicians determine if a woman's pelvic mass is at risk for 
being malignant. The investigator, Zhen Zhang, Ph.D. at Johns Hopkins 
School of Medicine, received funding from an Idea Development Award in 
fiscal year 2003. Dr. Zhang discovered and validated five serum 
biomarkers for the early detection of ovarian cancer. This bench 
research was then translated and moved through clinical trials. The OVA 
test was approved by the FDA and is now available to clinicians for use 
in patient care.
More Than a Decade of Scientific Success
    The program's successes have been documented in numerous ways, 
including 469 publications in professional medical journals and books; 
576 abstracts and presentations given at professional meetings; and 24 
patents, applications and licenses granted to awardees of the program. 
Investigators funded by the OCRP have succeeded with several crucial 
breakthroughs in bringing us closer to an algorithm for use in 
prevention and early detection of ovarian cancer.
    The Society of Gynecologic Oncologists joins with the Ovarian 
Cancer National Alliance and the American Congress of Obstetricians and 
Gynecologists to urge this Subcommittee to increase Federal funding at 
a minimum to $30 million in fiscal year 2011 for the OCRP. This will 
allow for the discoveries and research breakthroughs in the first 
decade of this program to be further developed and expanded upon, 
hopefully bringing us by the end of the second decade of this program 
to our ultimate goal of prevention, early detection and finally 
elimination of ovarian cancer. I thank you for your leadership and the 
leadership of the Subcommittee on this issue.

    Chairman Inouye. Now may I recognize Mr. Richard A. Jones.
STATEMENT OF RICHARD A. JONES, LEGISLATIVE DIRECTOR, 
            NATIONAL ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Vice Chairman Cochran, thank 
you for the opportunity to give our views on key issues under 
your consideration.
    The National Association for Uniformed Services is pleased 
with certain aspects of the President's budget, specifically 
those that laser-focus on winning the wars in Iraq and 
Afghanistan. Choosing to win these wars, however, should not 
mean we must depend on aging fleets of aircraft, ships, and 
vehicles across the services. We must continue toward 
modernization.
    One of the main messages our members want you to hear is 
really simple and direct. Anyone who goes into harm's way under 
the flag of the United States needs to be deployed with the 
best our Nation can provide, and we must never cut off or 
unnecessarily delay critical funding for our troops in the 
field.
    Regarding TRICARE, the provision of quality, timely 
healthcare is considered one of the most important earned 
benefits afforded to those who serve a career in the military. 
The TRICARE benefit reflects the commitment of a nation, and it 
deserves your wholehearted support. For those who give their 
career in uniformed service now asks you to provide full 
funding to secure their earned benefit.
    The administration recommends a 1.4 percent across-the-
board pay raise. My association asks you to seek an increase of 
0.5 percent above the administration's request, to 1.9 percent. 
We should clearly recognize the risks our men and women in 
uniform face, and we should make every effort to appropriately 
compensate them for the job they do.
    My association urges you also to provide adequate funding 
for military construction and family housing accounts. These 
funds for base allowance and housing should ensure that those 
serving in our military are able to afford to live in quality 
housing whether on or off the base.
    The long war fought by an overstretched force gives us a 
clear warning. There are simply too many missions and too few 
troops. In addition to increasing troop strength, priority must 
be given to funding for accounts to reset, recapitalize, and 
renew the force. The National Guard, for example, has virtually 
depleted its equipment inventory, causing rising concern about 
its capacity to respond to disasters at home or train for the 
missions abroad.
    Regarding Walter Reed--that is a matter of great interest 
to our members as we plan to realign our health facilities in 
the Nation's capital--we need to keep Walter Reed open as long 
as it is necessary to care for those who are at Walter Reed. We 
must not close Walter Reed prematurely.
    My association encourages the subcommittee to ensure that 
funding for Defense Department's prosthetic research is 
adequate to support the full range of programs needed to meet 
current and future health challenges facing wounded veterans.
    Traumatic brain injury is the signature injury of the Iraq 
war. We call on the subcommittee to fund a full spectrum of TBI 
care and to recognize that care is also needed for patients 
suffering from mild to moderate brain injuries. The approach to 
this problem requires resources for hiring caseworkers, 
doctors, nurses, clinicians, and general caregivers if we are 
to meet the needs of those who are wounded and their families.
    Post traumatic stress disorder (PTSD) is a very serious 
psychiatric disorder. Pre-deployment and post-deployment 
checkups are very important. Early recognition of the symptoms 
can serve a great deal toward recovery. We encourage the 
members of the subcommittee, Mr. Chairman, to provide these 
funds, to closely monitor their expenditure to ensure they are 
not directed to areas of other defense spending.
    The Armed Forces Retirement Homes are important to those 
who have served in the military at Washington, DC, and 
Gulfport, Mississippi. We look forward to the reopening of the 
Gulfport home in October, and we ask that you continue care for 
those programs.
    Mr. Chairman, Vice Chairman, thank you very much for the 
opportunity to present testimony today.
    Chairman Inouye. I thank you very much.
    This subcommittee, as some may be aware, has appropriated 
nearly $1 trillion in the last 10 years to support our efforts 
in Afghanistan and Iraq. And we have done so without hesitation 
because we want our men to return home in as good a condition 
as they were when they went in there.
    But this has been a costly activity, but we will keep on 
paying. So I can assure you that your recommendations will be 
seriously considered.
    Mr. Jones. We thank you for the supplemental speed--
supplemental bill and the speed that you handled that, sir. We 
hope that the House follows your suit.
    Senator Cochran. Mr. Chairman, I can report that the Armed 
Forces Retirement Home in Gulfport, Mississippi, is nearing 
completion of the reconstruction that has been going on, and 
they are expecting to open that home in October 2010.
    Mr. Jones. Excellent. Thank you, sir.
    Chairman Inouye. We will go to the opening.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Ranking Member Cochran, and members of the 
Subcommittee: It is a pleasure to appear before you today to present 
the views of The National Association for Uniformed Services on the 
fiscal year 2011 Defense Appropriations Bill.
    My name is Rick Jones, Legislative Director of The National 
Association for Uniformed Services (NAUS). And for the record, NAUS has 
not received any Federal grant or contract during the current fiscal 
year or during the previous 2 fiscal years in relation to any of the 
subjects discussed today.
    As you know, the National Association for Uniformed Services, 
founded in 1968, represents all ranks, branches and components of 
uniformed services personnel, their spouses and survivors. The 
Association includes personnel of the active, retired, Reserve and 
National Guard, disabled veterans, veterans community and their 
families. We love our country and our flag, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    Presently, we have under consideration the President's fiscal year 
2011 defense budget request of $708 billion for its discretionary and 
war funding. According to the Defense Department, this represents an 
increase of 3.4 percent from the previous year. In fact, however, 
that's about 1.8 percent real growth after inflation.
    Last year, we heard Defense Secretary Gates order the Defense 
Department to come up with $60 billion in cuts over the next 5 years. 
In fact, certain Members of Congress are calling for cuts in defense 
spending. In certain quarters of Congress, congressional leaders have 
recommended a 25 percent cut in the defense budget.
    The National Association for Uniformed Services is pleased with 
certain aspects of the President's recommendation, specifically those 
that laser focus on winning the wars in Iraq and Afghanistan. Choosing 
to win these wars, however, should not mean our country must assume 
greater risk in conventional national defense challenges or neglect to 
consider the very real emerging threats of the future.
    We simply must have a strong investment in the size and capability 
of our air, land and naval forces. And we must invest in fielding new 
weapons systems today to meet the challenges of tomorrow.
    We cannot depend on aging fleets of aircraft, ships and vehicles 
across the services. We must continue to drive towards modernization 
and make available the resources we will need to meet and defeat the 
next threats to our security.
    Our nation is protected by the finest military the world has ever 
seen. The message our members want you to hear is simple and direct: 
Any one who goes into harm's way under the flag of the United States 
needs to be deployed with the best our nation can provide. We need to 
give our brave men and women everything they need to succeed. And we 
must never cut off or unnecessarily delay critical funding for our 
troops in the field.
    The National Association for Uniformed Services is very proud of 
the job this generation of Americans is doing to defend America. Every 
day they risk their lives, half a world away from loved ones. Their 
daily sacrifice is done in today's voluntary force. What they do is 
vital to our security. And the debt we owe them is enormous.
    Our Association also carries concerns about a number of related 
matters. Among these is the provision of a proper healthcare for the 
military community and recognition of the funding requirements for 
TRICARE for retired military. Also, we will ask for adequate funding to 
improve the pay for members of our armed forces and to address a number 
of other challenges including TRICARE Reserve Select and the Survivor 
Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
TRICARE and Military Quality of Life: Health Care
    Quality healthcare is a strong incentive to make military service a 
career. The provision of quality, timely care is considered one of the 
most important benefits afforded the career military. The TRICARE 
benefit, earned through a career of service in the uniformed services, 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    It should also be recognized that discussions have once again begun 
on increasing the retiree-paid costs of TRICARE earned by military 
retirees and their families. We remember the outrageous statement of 
Dr. Gail Wilensky, a co-chair of the Task Force on the Future of 
Military, calling congressional passage of TRICARE for Life ``a big 
mistake.''
    And more recently, we heard Admiral Mike Mullen, the current 
Chairman of Joint Chiefs of Staff, call for increases in TRICARE fees. 
Mullen said, ``It's a given as far as I'm concerned.''
    Fortunately, President Obama has taken fee increases off the table 
this year in the Administration budget recommendation. However, with 
comments like these from those in leadership positions, there is little 
wonder that retirees and active duty personnel are concerned.
    Seldom has NAUS seen such a lowing in confidence about the 
direction of those who manage the program. Faith in our leadership 
continues, but it is a weakening faith. And unless something changes, 
it is bound to affect recruiting and retention, even in a down economy.
Criminal Activity Costs Medicare and TRICARE Billions of Dollars
    Recent testimony and studies from the Government Accountability 
Office (GAO), the investigative arm of the United States Congress, show 
us that at least $80 billion worth of Medicare money is being ripped 
off every year. Frankly, it demonstrates that criminal activity costs 
Medicare and TRICARE billions of dollars.
    Here are a couple of examples. GAO reports that one company billed 
Medicare for $170 million for HIV drugs. In truth, the company 
dispensed less than $1 million. In addition, the company billed $142 
million for nonexistent delivery of supplies and parts and medical 
equipment.
    In another example, fake Medicare providers billed Medicare for 
prosthetic arms on people who already have two arms. The fraud amounted 
to $1.4 billion of bills for people who do not need prosthetics.
    TRICARE is closely tied to Medicare and its operations are not 
immune. According to officials at the TRICARE Program Integrity Office, 
approximately 10 percent of all healthcare expenditures are fraudulent. 
With a military health system annual cost of $51 billion, fraudulent 
purchase of care in the military health system would amount to more 
than $5 billion.
    We need action to corral fraud and bring it to an end. What we've 
seen, however, is delay and second-hand attention with insufficient 
resources dedicated to TRICARE fraud conviction and recovery of money 
paid to medical care thieves. If one goes to the TRICARE Program 
Integrity Office web site, one sees a reflection of this inactivity. 
The most recent Fraud Report is dated 2008 and under ``News,'' there 
are two items for 2010 and no items for 2009. The question we hear 
continually is whether anything is going on except talk about raising 
fees and copays.
    As an example, NAUS is informed that the Department of Defense 
Inspector General reported fraud problems in the Philippines as long 
ago as 1998. Yet fraudulent payments continued for 7 years, untended, 
merely observed, until finally, more than a year ago, action was taken 
to curb the problem and order a Philippine corporation to pay back more 
than $100 million in fraudulent payments.
    Our members tire of hearing they should pay more when they hear 
stories about or see little evidence of our government doing anything 
but sitting on its hands, often taking little to no action for years on 
this type of criminal activity.
    NAUS urges the Subcommittee to challenge DOD and TRICARE 
authorities to put some guts behind efforts to drive fraud down and out 
of the system. If left unchecked, fraud will increasingly strip away 
resources from government programs like TRICARE. And unless Congress 
directs the Administration to take action, we all know who will be left 
holding the bag--the law-abiding retiree and family.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the nation's 
military uniform. Root out the corruption, fraud and waste. And confirm 
America's solemn, moral obligation to support our troops, our military 
retirees, and their families. They have kept their promise to our 
Nation, now it's time for us to keep our promise to them.
Military Quality of Life: Pay
    For fiscal year 2011, the Administration recommends a 1.4 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on Members of 
Congress to put our troops and their families first. Our forces are 
stretched thin, at war, yet getting the job done. We ask you to express 
the nation's gratitude for their critical service, increase basic pay 
and drill pay one-half percent above the administration's request to 
1.9 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 3 percent with the January 2010 pay 
increase.
    The National Association for Uniformed Services applauds you, Mr. 
Chairman, for the strides you have made, and we encourage you to 
continue your efforts to ensure DOD manpower policy maintains a 
compensation package that is reasonable and competitive.
    We also encourage your review of providing bonus incentives to 
entice individuals with certain needed skills into special jobs that 
help supply our manpower for critical assets. These packages can also 
attract ``old hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Family Housing Accounts
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
Sept. 11, 2001, our Guardsmen and reservists have witnessed an upward 
spiral in the rate of deployment and mobilization. The mission has 
clearly changed, and we must recognize that Reserve Component Forces 
account for an increasing role in our national defense and homeland 
security responsibilities. The challenge to help them keep pace is an 
obligation we owe for their vital service.
Increase Force Readiness Funds
    The readiness of our forces is in decline. The long war fought by 
an overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, hurricane or, God forbid, a large-scale 
terrorist attack, our National Guard is not going to have the basic 
level of resources to do the job right.
Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, MD, and the closing of the existing 
Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from last year's news reports of deteriorating conditions at 
Walter Reed Army Medical Center, the National Association for Uniformed 
Services believes that Congress must continue to provide adequate 
resources for WRAMC to maintain its base operations' support and 
medical services that are required for uninterrupted care of our 
catastrophically wounded soldiers and marines as they move through this 
premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services is pleased to 
receive the support of President Obama and the forward movement of 
Secretaries Gates and Shinseki toward this long-supported goal of 
providing a comprehensive e-health record.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to continue the push for DOD and VA to follow 
through on establishing a bi-directional, interoperable electronic 
medical record. Since 1982, these two departments have been working on 
sharing critical medical records, yet to date neither has effectively 
come together in coordination with the other.
    Taking care of soldiers, sailors, airmen and marines is a national 
obligation, and doing it right sends a strong signal to those currently 
in military service as well as to those thinking about joining the 
military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
the system used at the Department of Veterans Affairs. It makes 
absolute sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our nation is to ensure that all troops receive timely, 
quality healthcare and other benefits earned in military service.
    To improve the DOD/VA exchange, the transfer should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very effective weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.
Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of Sept. 11, 2001. The mission 
has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.
Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over 100 years under an assortment of different 
names. For example more than 60 years ago, Army psychiatrists reported, 
``That each moment of combat imposes a strain so great that . . . 
psychiatric casualties are as inevitable as gunshot and shrapnel wounds 
in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however, we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide these 
funds, to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
Armed Forces Retirement Home
    The National Association for Uniformed Services is pleased to note 
the Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). We urge the Subcommittee to meet the 
challenge in providing adequate funding for the facility in Washington, 
DC, and Gulfport, Mississippi.
    And we thank the Subcommittee for the provision of funding that has 
led to the reconstruction of the Armed Forces Retirement Home in 
Gulfport, destroyed in 2005 as a result of Hurricane Katrina. And we 
look forward to the opening of the home scheduled for October 2010. 
NAUS is informed that when completed (the construction is 96 percent 
done, May 2010), the facility will provide independent living, assisted 
living and long-term care to more than 500 residents.
    The National Association for Uniformed Services also applauds the 
recognition of the Washington AFRH as a historic national treasure. And 
we look forward to working with the Subcommittee to continue providing 
a residence for and quality-of-life enhancements to these deserving 
veterans. We ask that continued care and attention be given to the 
mixed-use development to the property's southern end, as approved.
    The AFRH home is a historic national treasure, and we thank 
Congress for its oversight of this gentle program and its work to 
provide for a world-class care for military retirees.
Improved Medicine with Less Cost at Military Treatment Facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing these patients out of military 
facilities and into the private sector where the cost per patient is at 
least twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.
Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve.
    NAUS supports the fullest possible accounting of our missing 
servicemen. It is a duty we owe the families, to ensure that those who 
wear our country's uniform are never abandoned. We request that 
appropriate funds be provided to support the JPAC mission for fiscal 
year 2011.
Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Chairman Inouye. Next witness, Ms. Elizabeth Cochran. Ms. 
Cochran.
STATEMENT OF ELIZABETH COCHRAN, SECRETARY, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Ms. Cochran. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Vice Chairman of the subcommittee, the 
Associations for America's Defense is very grateful to testify 
today. We would like to thank the subcommittee for its 
stewardship on defense issues and setting an example of your 
nonpartisan leadership.
    The Associations for America's Defense is concerned that 
U.S. defense policy is sacrificing future security for near-
term readiness. Most concerning is the vigorous pursuit to cut 
existing programs.
    Admiral Mike Mullen stated during his testimony before the 
House Armed Services Committee in February that as fiscal 
pressures increase, our ability to build future weapons systems 
will be impacted by decreasing modernization budgets, as well 
as mergers and acquisitions.
    A4AD is in agreement, and we are alarmed about the fiscal 
year 2011 unfunded program list submitted by the services, 
which continues on fiscal year 2010's list, which was 87 
percent lower than 2009's. We are more concerned that unfunded 
requests continue to be driven by budgetary factors more than 
risk assessment, which will impact national security.
    Additionally, the result of such budgetary policy could 
again lead to a hollow force whose readiness and effectiveness 
has been subsequently degraded, and lessened efficiency may not 
be immediately evident. We support increasing defense spending 
to 5 percent of the Gross Domestic Product during times of war 
to cover procurement and prevent unnecessary personnel end 
strength cuts.
    According to the Office of Management and Budget, base 
defense spending will stay relatively flat for the next 5 
years. We disagree with placing such constraints on defense 
because it could lead to readiness and effectiveness being 
degraded.
    As always, our military will do everything possible to 
accomplish its missions, but response time is measured by 
equipment readiness. Last year, due to DOD's tactical aircraft 
acquisition programs being blunted by cost and schedule 
overruns, the Air Force offered to retire 250 fighter jets, 
which the Secretary of Defense accepted.
    Until new systems are acquired in sufficient quantities to 
replace legacy fleets, these legacy systems must be sustained. 
As the military continues to become more expeditionary, more 
airlift C-17 and C-130Js will be required. Yet DOD has decided 
to shut down production of C-17s.
    Procurement needs to be accelerated, modernized, and 
mobility requirements need to be reported upon. The need for 
air refueling is utilized worldwide in DOD operations, but 
significant numbers of tankers are old and plagued with 
structural problems. The Air Force would like to retire as many 
as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade. These aircraft must be replaced.
    We also thank this subcommittee to continue to provide its 
appropriations for the National Guard and Reserve equipment 
requirements. The National Guard's goal is to make at least 
one-half the Army and Air's assets available to Governors and 
adjunct generals at any given time. Appropriating funds for the 
Guard and Reserve equipment provides Reserve chiefs and Guard 
directors with flexibility of prioritizing funding.
    Earlier this month, a sustainable defense task force 
released the report ``Debt, Deficits, and Defense: A Way 
Forward.'' We are distressed that it recommends cutting up to 
$443 billion for conventional forces, canceling several 
programs including the MV-22 Osprey, the expeditionary fighting 
vehicle, Air Force and Marine Corps F-35, reducing the size of 
the Navy to 230 ships, 8 air wings, and cutting up to 200,000 
military personnel.
    Another very worrisome aspect is the recommendation to 
revert the Reserve components back to a strategic reserve 
strictly. National security demands both an operational and a 
strategic reserve. When at war, there is an outstanding threat, 
and it is not time for a peace dividend.
    A4AD members are very concerned about planned cuts as 
proposed by DOD and this task force. We generally appreciate 
the support of the subcommittee, particularly at a time when 
there is growing pressure from other members to cut further 
programs.
    Once again, we thank you for your ongoing support of the 
Nation, the armed forces, and our fine men and women serving 
this Nation. Please contact us with any questions.
    Thank you.
    Chairman Inouye. I thank you very much, Ms. Cochran.
    An association of this nature, we would expect that a four-
star general testify. But you have done a good job.
    Thank you.
    Senator Cochran. Thank you very much for looking carefully 
at all aspects of the budget requests submitted by the 
administration. I think your testimony will be very helpful to 
the subcommittee as we continue our deliberations.
    [The statement follows:]
                Prepared Statement of Elizabeth Cochran
                   associations for america's defense
    Founded in January of 2002, the Association for America's Defense 
(A4AD) is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC) and the National Military Veterans 
Alliance (NMVA), but participants are members from each. Members have 
developed expertise in the various branches of the Armed Forces and 
provide input on force policy and structure. Among the issues that are 
addressed are equipment, end strength, force structure, and defense 
policy. A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.
    Participating Associations: Air Force Association; Army and Navy 
Union; Association of the U.S. Navy; Enlisted Assoc. of the National 
Guard of the U.S.; Marine Corps Reserve Association; Military Order of 
World Wars; National Assoc. for Uniformed Services; Naval Enlisted 
Reserve Association; Reserve Enlisted Association; Reserve Officers 
Association; The Flag and General Officers' Network; and The Retired 
Enlisted Association.
                              introduction
    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) is again very grateful for 
the invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of twelve 
military and veteran associations that have concerns about national 
security issues. Collectively, we represent armed forces members and 
their families, who are serving our nation, or who have done so in the 
past.
              current versus future: issues facing defense
    The Associations for America's Defense would like to thank this 
subcommittee for the ongoing stewardship that it has demonstrated on 
issues of defense. While in a time of war, this subcommittee's pro-
defense and non-partisan leadership continues to set an example.
Force Structure: Erosion in Capability
    The Obama Administration's 2010 Quadrennial Defense Review (QDR) 
advances two objectives: further rebalance the Armed Force's 
capabilities to prevail in today's wars while building needed 
capabilities to deal with future threats; and second, reform the 
Department of Defense's (DOD) institutions and processes to better 
support warfighters' urgent needs; purchase weapons that are usable, 
affordable, and needed; and ensure that taxpayer dollars are spent 
wisely and responsibly. The new QDR calls for DOD to continually evolve 
and adapt in response to the changing security environment.
    During his testimony before the House Armed Services Committee 
(HASC) in February, Admiral Mike Mullen stated, ``. . . I am growing 
concerned about our defense industrial base, particularly in ship 
building and space. As fiscal pressures increase, our ability to build 
future weapon systems will be impacted by decreasing modernization 
budgets as well as mergers and acquisitions.''
    In 2009 Secretary of Defense Robert Gates testified before the 
Senate Armed Services Committee (SASC) that the United States should 
focus on the wars that we are fighting today, not on future wars that 
may never occur. He also asserts that U.S. conventional capabilities 
will remain superior for another 15 years. Anthony Cordesman, a 
national security expert for the Center for Strategic and International 
Studies, says that Gates' plan should be viewed as a set of short-term 
fixes aimed at helping ``a serious cost containment problem,'' not a 
new national security policy.
    War planners are often accused of planning for the last war. 
Secretary Gates speaks to enhancing the capabilities of fighting 
today's wars. A concern arises on whether DOD's focus should be on 
irregular or conventional warfare, and whether it should be preparing 
for a full scale ``peer'' war.
Hollow Force
    A4AD could not disagree more by placing such budgetary constraints 
on defense. Member associations question the spending priorities of the 
current administration. ``Fiscal restraint for defense and fiscal 
largesse for everything else,'' commented then ranking member John 
McHugh at a HASC hearing on the defense budget in May 2009.
    The result of such a budgetary policy could again lead to a hollow 
force whose readiness and effectiveness has been subtly degraded and 
lessened efficiency will not be immediately evident. This process which 
echoes of the past, raises no red flags and sounds no alarms, and the 
damage can go unnoticed and unremedied until a crisis arises 
highlighting how much readiness decayed.
Emergent Risks
    Members of this group are concerned that U.S. defense policy is 
sacrificing future security for near term readiness. Our efforts are so 
focused to provide security and stabilization in Afghanistan and 
withdrawing from Iraq, that risk is being accepted as an element of 
future force planning. Force planning is being driven by current 
overseas contingency operations, and increasingly on budget 
limitations. Careful study is needed to make the right choice. A4AD is 
pleased that Congress and this subcommittee continue oversight in these 
decisions.
    What seems to be overlooked is that the United States is involved 
in a Cold War as well as a Hot War with two theaters as well as varying 
issues in the Middle East, North Korea, China, Russia, and Iran which 
are growing areas of risk.
Korean Peninsula
    Provocatively, North Korea successfully tested a nuclear weapon at 
full yield, unilaterally withdrew from that 1953 armistice. The 
Republic of Korea lost a navy ship sunk to a torpedo. South Korean and 
U.S. troops have been put on the highest alert level in years.
    North Korea has 1.2 million troops, with 655,000 South Korean 
soldiers and 28,500 U.S. troops stationed to the South. While not an 
immediate danger to the United States, North Korea is viewed as an 
increased threat to its neighbors, and is potentially a destabilizing 
factor in Asia. North Korea may be posturing, but it is still a failed 
state, where misinterpretation clouded by hubris could start a war. The 
North has prepositioned and could fire up to 250,000 rounds of heavy 
artillery in the first 48 hours of a war along the border and into 
Seoul.
China
    China's armed forces are the largest in the world and have 
undergone double-digit increases in military spending since the early 
90s. DOD has reported that China's actual spending on its military is 
up to 250 percent higher than figures reported by the Chinese 
government, and their cost of materials and labor is much lower. In 
2009, China's defense budget increased by almost 15 percent and further 
increased about 7.5 percent for 2010. DOD's 2009 report to Congress on 
China's military strength estimated in 2008 that its spending ranged 
from $105 and $150 billion, the second highest in the world after the 
United States. It should be noted that these dollars go further within 
the Chinese economy as well.
    China's build-up of sea and air military power appears aimed at the 
United States, according to Admiral Michael Mullen, the chairman of the 
Joint Chiefs of Staff. Furthermore China is reluctant to support 
international efforts in reproaching North Korea, which recently as 
evidenced by the sunk South Korean naval vessel.
    The U.S. military strategy cannot be held hostage by international 
debts. While China is the biggest foreign holder of U.S. Treasuries 
with $895.2 billion at the end of March, we cannot be lulled into a 
sense of complacency.
Russia
    While the Obama Administration has been working on a ``reset'' 
policy towards Russia, including a new START treaty, there are areas of 
concern. A distressing issue is their relationship with Iran which the 
United States and even the United Nations have brought sanctions 
against. Additionally Russia sells arms to countries like Syria and 
Venezuela that also have ties to Iran.
    Prime Minister Vladimir Putin stated recently that, ``Despite the 
difficult environment in which we are today, we still found a way to 
not only maintain but also increase the total amount of state defense 
order.'' Russia's defense budget rose by 34 percent in 2009, as 
reported by the International Institute of Strategic Study in an annual 
report.
Iran
    While Iran lobs petulant rhetoric towards the United States, the 
real international tension is between Israel and Iran. Israel views 
Tehran's atomic work as a threat, and would consider military action 
against Iran as it has threatened to ``eliminate Israel.'' Israeli 
leadership has warned Iran that any attack on Israel would result in 
the ``destruction of the Iranian nation.'' Israel is believed to have 
between 75 to 200 nuclear warheads with a megaton capacity.
Funding for the Future
    Since Secretary Gates initiated the practice of reviewing all the 
services' unfunded requirements lists prior to testifying before 
Congress the result has been in fiscal restraint. The unfunded lists 
have shown a dramatic reduction from $33.3 billion for fiscal year 2008 
and $31 billion for fiscal year 2009 to $3.8 billion for fiscal year 
2010 and $2.6 billion for fiscal year 2011. Most notable is that the 
Air Force in prior years represented about 50 percent of the total 
unfunded requirements list and is now proportionate to the other 
services.
    In 2009 Secretary Gates told SASC, ``It is simply not reasonable to 
expect the defense budget to continue increasing at the same rate it 
has over the last number of years.'' He went further saying, ``We 
should be able to secure our nation with a base budget of more than 
half a trillion dollars.'' Following through on these statements the 
Secretary has instituted a plan to save $100 billion over 5 years. Two-
thirds of the savings are supposed to come from decreasing overhead and 
one-third from cuts in weapons systems and force structure, meaning 
less people. For the 2012 budget, the military services and defense 
agencies have been asked to find $7 billion in savings.
    These impending cuts are in addition to weapon systems cuts from 
last year which amounted to about $300 billion. Despite the great need 
to manage budgets in light of the financial situation that the United 
States faces, we are still conducting two theaters in a war, and should 
be prepared to fight if another threat challenges U.S. National 
Security.
Defense as a Factor of GDP
    Secretary Gates has warned that each defense budget decision is 
``zero sum,'' providing money for one program will take money away from 
another. A4AD encourages the appropriations subcommittee on defense to 
scrutinize the recommended spending amount for defense. Each member 
association supports increasing defense spending to 5 percent of Gross 
Domestic Product during times of war to cover procurement and prevent 
unnecessary personnel end strength cuts.
A Changing Manpower Structure
    The 2010 QDR recommends incremental reductions in force structure 
shrinking the fleet to about 250 to 260 ships, reducing the number of 
active Army brigade combat teams to 45 and Air Force tactical fighter 
wings to 17, while maintaining the 202,100 Marine Corps active manpower 
level. The Heritage Foundation projects there will be a 5 percent 
decrease in manpower over the next 5 years.
    A4AD supports a moratorium on further cuts including the National 
Guard and other military Reserve. We further suggest that a Zero Based 
Review (ZBR) be performed to evaluate the current manning requirements. 
Additionally, as the active force is cut, these manpower and equipment 
assets should remain in the Reserve Components.
Maintaining a Surge Capability
    The Armed Forces need to provide critical surge capacity for 
homeland security, domestic and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-demand 
operation. This requires funding for training, equipping and 
maintenance of a mission-ready strategic reserve composed of active and 
reserve units. An additional requirement is excess infrastructure which 
would permit the housing of additional forces that are called-up beyond 
the normal operational force.
Dependence on Foreign Partnership
    Part of the U.S. military strategy is to rely on long-term 
alliances to augment U.S. forces. As stated in a DOD progress report. 
``Our strategy emphasizes the capacities of a broad spectrum of 
partners . . . We must also seek to strengthen the resiliency of the 
international system . . . helping others to police themselves and 
their regions.'' The fiscal year 2011 budget request included an 
increase from $350 to $500 million for the Global Train and Equip 
authority that helps build capabilities of key partners.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because the United 
States does not necessarily control our foreign partners as their 
national objectives can differ from our own. Alliances should be viewed 
as a tool and a force multiplier, but not the foundation of National 
Security.
                         unfunded requirements
    The fiscal year 2011 Unfunded Program Lists submitted by the 
military services to Congress continued in fiscal year 2010's steps, 
which was 87 percent less than was requested for fiscal year 2009. A4AD 
has concerns that the unfunded requests continue to be driven more by 
budgetary factors than risk assessment which will impact national 
security. The following are lists submitted by A4AD including 
additional non-funded recommendations.
Tactical Aircraft
    DOD's efforts to recapitalize and modernize its tactical air forces 
have been blunted by cost and schedule overruns in its new tactical 
aircraft acquisition programs. For fiscal year 2010 the Air Force 
offered a plan to retire 250 fighter jets in one year alone, which 
Secretary Gates accepted.
    Yet the HASC observed after approving Navy and Marine Corps 
procurement, and research and development programs in May, that it's 
concerned about the unacceptable deficit of approximately 250 tactical 
aircraft by 2017, warning future budget requests must address this.
    Until new systems are acquired in sufficient quantities to replace 
legacy fleets, legacy systems must be sustained and kept operationally 
relevant. The risk of the older aircraft and their crews and support 
personnel being eliminated before the new aircraft are on line could 
result in a significant security shortfall.
Airlift
    Hundreds of thousands of hours have been flown, and millions of 
passengers and tons of cargo have been airlifted. Their contributions 
in moving cargo and passengers are absolutely indispensable to American 
warfighters in overseas contingencies. Both Air Force and Naval 
airframes and air crew are being stressed by these lift missions. As 
the military continues to become more expeditionary it will require 
more airlift. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    While DOD has decided to shut down production of C-17s, existing C-
17s are being worn out at a higher rate than anticipated. Congress 
should independently examine actual airlift needs, and plan for C-17 
modernization, a possible follow-on procurement. Given the C-5's 
advanced age, it makes more sense to retire the oldest and most worn of 
these planes and use the upgrade funds to buy more C-5s and modernize 
current C-5 aircraft. DOD should also continue with a joint multi-year 
procurement of C-130Js.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft; only nine C-40s have been ordered since 1997 to replace 29 C-
9Bs. The Navy requires Navy Unique Fleet Essential Airlift. The C-40A, 
a derivative of the 737-700C a Federal Aviation Administration (FAA) 
certified, while the aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields.
    The Air Force-Navy-Marine Corps fighter inventory will decline 
steadily from 3,264 airframes in fiscal year 2011 to 2,883 in fiscal 
year 2018, at which point the air fleet is supposed to have a slow 
increase.
Tankers
    The need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    DOD and Congress must work together to replace of these aircraft. A 
contract needs to be offered. A4AD thanks this committee for its 
ongoing support to resolve this issue.
NGREA
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least half of Army and Air assets 
(personnel and equipment) available to the Governors and Adjutants 
General at any given time. To appropriate funds to Guard and Reserve 
equipment provides Reserve Chiefs with a flexibility of prioritizing 
funding.

                     UNFUNDED EQUIPMENT REQUIREMENTS
           [The services and lists are not in priority order.]
------------------------------------------------------------------------
                                                              Amounts in
                                                               millions
------------------------------------------------------------------------
Air Force:
    C-130 Aircraft Armor (79)..............................        $15.8
    C-130 NVIS Windows (64)................................          1
    C-130 Crash Resistant Loadmaster Seat Modifications             19
     (76)..................................................
    C-17 Armor Refurbishment and Replacement (17)..........          2
Air Force Submitted Requirements:
    Weapons System Sustainment: Programmed Depot                   337.2
     Maintenance (PDMs), High Velocity Maintenance (HVM),
     Service Life Extension Program (SLEP)/Scheduled
     Structural Inspections (SSI), and engine overhauls
     [ANG & AFR included]..................................
    Theater Posture: contract maintenance of Base                   70
     Expeditionary Airfield Resources (BEAR)/War Readiness
     Material assets; procure Fuels Operational Readiness
     Capability equipment (FORCE) sets, fuel bladders/
     liners................................................
    DCGS Integrated C3 PED System..........................         55
    Battlefield Airmen Equipment/JTAC Modeling & Simulation         28.7
    Vehicle & Support Equipment Procurement................         57.1
Air Force Reserve (USAFR):
    LITENING Targeting pod (19)............................         24
    C-130 Secure Line of Sight/Beynold Line of Sight (SLOS/         22.1
     BLOS) (63)............................................
    AFRC ATP Procurement & Spiral Upgrade (54).............         54
    C-130 Aircraft Armor (79)..............................         15.8
    C-130 Crash Resistant Loadmaster Seats (76)............         19
    F-16 All WX A-G Precision Self-Targeting Capability            120
     (54)..................................................
    A-10 On Board Oxygen Generating System (OBOGS) (54)....         11.1
Air National Guard (USANG):
    F-15 Digital Video Recorder (DVR) (upgrades to ANG F-15          7
     aircraft).............................................
    C-37B (Gulf Stream) aircraft (4).......................        256
    USANG requires at Andrews AFB to replace the aging C-        1,000
     38A fleet C-17 (5 minimum)............................
    Requirement identified by NGAUS, EANGUS, AGAUS, and
     ROA:
        Security Forces Tactical Vehicles:
            HMMWVs (1,700).................................        170
            LTMVs (500)....................................        100
        Upgraded Personal Protective Equipment:
            IOTVs (4,600)..................................          3.1
            ESAPI Plates (9,200)...........................          7.5
            Concealable Body Armor (8,800).................          4.4
    Air Refueling Tanker replacements......................    ( \1\ )
Army Submitted Requirements:
    Line of Communication Bridge (LOCB)....................         15
    Light Weight Counter-Mortar Radar (LCMR)...............         47.1
    NAVSTAR GPS: Defense Advanced GPS Receiver (DAGR)......         51.2
    Civil Affairs/Psychological Operations (CA/Psy Ops)....         55
    Advanced Field Artillery Tactical Data System (AFATDS)          16.2
     Forward Entry Devices.................................
    Patriot................................................        133.6
    Test 7 Evaluation Instrumentation......................         17.7
    Army Test Range Infrastructure.........................         22.9
Army Reserve (USAR):
    Helicopter, Attack AH-64D (3)..........................         75.5
    MTV 5 Ton Cargo Truck, M108s (448).....................         57.4
    LMTV 2.5 Ton Cargo Truck, M1079 (23)...................          3.7
    HMMWVs (humvees), ARMT Carrier, M1025 (1,037)..........         78
    Night Vision Goggles, AN/PVX-7B (7,740)................         28
    Weapons:
        Machine Gun, 7.62MM, M240B (3,445).................         20.6
        Carbine Rifle, 5.56MM, M4 (6,441)..................          3.7
    Next Generation of Loudspeaker System (NGLS) Manpak,            86.7
     NGLS Vehicle (1,344)..................................
Army National Guard (USARNG):
    ATLAS (All Terrain Lifter-Army System and II), Truck             4.3
     Lift..................................................
    Chemical Decontamination (JSTDS-SS, CBPS)..............         11
    Radios, COTS Tactical Radios...........................         10
    FMTV (Truck tractor: MTV W/E, Truck Van: Expansible MTV        507
     W/E)..................................................
    Joint Assault Bridge (Carrier Bridge Launching: Joint           35
     Assault XM1074).......................................
Navy Submitted Requirements:
    Aviation Spares: T/M/S, Fleet aircraft.................        423
    Ship Depot Maintenance: deferred surface ship non-              35
     docking availabilities................................
    Aviation Depot Maintenance: deferred airframes/engines.         74
Navy Reserve (USNR):
    C-40A Combo cargo/passenger airlift aircraft (5).......         75
    EA-18G, Growler (2) Additional 3 Growlers will be              142.8
     needed in fiscal year 2012............................
    Navy Expeditionary Combat Command......................         20
    MPF Utility Boat (3)...................................          3
Marine Corps Submitted Requirements:
    CH-53 Reliability Improvements.........................         34
    Warfighter Equipment: KC-130J, UC-35ER, UC-12W.........        168
    Readiness: M88A2 Improved Recovery Vehicle, Mine Roller        131
     System, Assault Breacher Vehicle, Family of Field
     Medical Equipment.....................................
    Modernization of Child Development Center..............         18
Marine Forces Reserves (MFR):
    KC-130J Super Hercules Aircraft tankers (4)............        200
    Light Armored Vehicles (LAV)...........................          1.5
    Training Allowance (T/A) Shortfalls (To provide most up        145
     to date Individual Combat & Protective Equipment: M4
     rifles, Rifle Combat Optic (RCO) scopes, Light weight
     helmets, Small Arms Protective Insert (SAPI) plates,
     Modular Tactical Vests, Flame Resistant)..............
    Logistics Vehicle Replacement System Cargo.............    ( \1\ )
------------------------------------------------------------------------
\1\ Unkown.

Note: A4AD recommends further investment in the DDG 1000 or a similar
  concept. This vessel was designed to allow expansion for future
  systems and technology. Any new construction should permit maximized
  modernization. Restarting procurement of the DDG 51 (Arleigh Burke)
  class Aegis destroyers limit the Navy with a 35 year old hull design,
  which requires 350 people to crew. While higher costs are cited,
  Congress should find ways to reduce shipbuilding, maintenance and
  manpower cost, rather than constrain technology.

Reserve Components (RCs)
    The National Guard Bureau has stated that the aggregate equipment 
shortage for the RCs is about $45 billion. Common challenges for the 
RCs are ensuring that equipment is available for pre-mobilization 
training, transparency of equipment procurement and distribution, and 
maintenance.
    One of USANG's top issues is modernizing legacy aircraft and other 
weapon systems for dual missions and combat deployments.
    USARNG equipment challenges include, but aren't limited to 
modernizing both the helicopter and Tactical Wheeled Vehicle (TWV) 
fleets, and interoperability with the active component. Additionally 
while the ARNG's total equipment on hand (EOH) is 77 percent, there's 
only 62 percent of the authorized equipment in the continental United 
States (CONUS) available to governors. The Army expects ARNG's total 
EOH will fall to 74 percent during 2010.
    The USAFR's primary obstacles are defensive systems funding 
shortfalls, and modernization of data link and secure communications.
    The USAR has concerns about the modernization of equipment and 
maintenance infrastructure to support ARFORGEN, sustainment of 
equipment to support deploying units and ARFOGEN, and increases in 
procurement funding. Additionally Lieutenant General Jack Stultz, chief 
of the Army Reserve, stated in testimony before the HASC Readiness 
subcommittee this spring that the USAR is challenged by ``still being 
budgeted as a strategic reserve.''
    USNR top equipping challenges are aircraft procurement specifically 
for C-40A, E/A-18G, P-8, and KC-130J; and equipment for civil 
engineering, material handling, and communications for OCO-related 
units.
    The USMFR is concerned about ensuring deploying members continue to 
receive up to date individual combat clothing and protective equipment 
in theater as well as maintaining the right amount of equipment on hand 
at RC units to train prior to deployment.
Active Components
    In DOD's new 30-year aircraft investment blueprint it calls for the 
Air Force to pause for at least 10 years in production of new strategic 
airlifters and long-range bombers. The plan also slows the process to 
purchase F-35s causing it to not meet its force level requirements 
until 2035.
    The Marine Expeditionary Fighting Vehicle (EFV) will be delayed for 
another year.
    The Marine Corps (USMC) face a primary challenge of having been a 
land force for the last decade. The USMC's naval character has taken a 
back seat to fighting a virulent resistance in an extended land 
campaign, and some core competencies are waning.
Family
    A consistent complaint from military families across the board is 
the lack of spaces and/or prolonged waiting lists for child care 
centers. While the military has built up child care systems, it is 
still an urgent need by many, especially those with special needs.
Retiree
    The fiscal year 2008 early retirement benefit for RC members was 
passed, but it excluded approximately 600,000 members. This law should 
be fixed so that RC members' service counts from post-September 11, 
2001 rather than from the bill enactment date in 2008.
Health Care
    As the operational tempo for our service members continues to be 
high and they persist to endure repeated deployments, it becomes ever 
more essential to provide efficient and timely health screenings for 
pre- and post-deployments.
    Achieving and maintaining individual medical readiness standards 
throughout a service member's continuum of service is necessary for the 
military services and components to meet mission requirements as an 
operational force.
Military Voting
    Congress legislatively mandated DOD to develop an Internet voting 
system for military voters, but HASC cut $25 million from DOD's Federal 
Voting Assistance Program (FVAP).
    The House stated it was concerned with the immaturity of the 
Internet voting system standards being developed by the Elections 
Assistance Commission, supported by FVAP. Denying DOD the funding could 
ensure those standards remain immature, and may compel the States to 
proceed with their own Internet voting systems without Federal voting 
standards or guidelines in place.
    As the SASC reported bill supports, the Senate Appropriations 
Committee should fully fund these important programs. Without these 
vital funds, military voters will be condemned to continued 
disenfranchisement, lost voting opportunities, and reliance on State-
run systems unsupported by Federal standards or evaluation.
                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense. This testimony is an overview, and expanded data on 
information within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Our next witness is Dr. Jonathan Berman, 
secretary-treasurer, American Society of Tropical Medicine and 
Hygiene.
STATEMENT OF JONATHAN BERMAN, M.D., Ph.D. COLONEL 
            (RETIRED), UNITED STATES ARMY MEDICAL 
            CORPS, ON BEHALF OF THE AMERICAN SOCIETY OF 
            TROPICAL MEDICINE AND HYGIENE
    Dr. Berman. Thank you, Mr. Chairman.
    I appreciate this opportunity to testify on behalf of the 
American Society of Tropical Medicine. I am Dr. Berman, 
Colonel, Medical Corps, retired from the United States Army.
    The American Society of Tropical Medicine and Hygiene is 
the principal professional membership organization in the 
United States, and actually in the world, for tropical medicine 
and global health. ASTMH represents physicians, researchers, 
epidemiologists, other health professionals dedicated to the 
prevention and control of tropical diseases.
    Because the military operates in many tropical regions, 
reducing the risk that tropical diseases present to servicemen 
and women is often critical to mission success and service 
personnel morale. Malaria and other insect-transmitted 
diseases, such as leishmaniasis and dengue, are particular 
examples.
    Antimalarial drugs have saved countless lives throughout 
the world, including U.S. troops during World War II, Korea, 
and Vietnam. The U.S. military has long taken a primary role in 
the development of antimalarial drugs and vaccines, and nearly 
all of the most used antimalarials today were developed at 
least in part by U.S. military researchers.
    Over 350 million people are at risk for leishmaniasis in 88 
countries, 12 million infected currently, 2 million new 
infections each year. Leishmaniasis was a particular problem 
for Operation Iraqi Freedom, as a result of which 700 American 
service personnel became infected. As it happens, the 
Washington Post yesterday had a large article on leishmaniasis 
built around statements from military personnel here in the 
Washington area.
    Because of leishmaniasis's prevalence in Iraq and Southwest 
Asia in general, DOD has spent large resources on this disease, 
and DOD personnel are the leaders worldwide in development of 
new anti-leishmanial drugs.
    Dengue is the leading cause of illness and death in the 
tropics and subtropics, as many as 100 million people are 
infected yearly. Although dengue rarely occurs in the United 
States, it is endemic in Puerto Rico, and periodic outbreaks 
occur in Samoa and Guam.
    The intersection of militarily important diseases and 
tropical medicine is the reason that 15 percent of ASTMH 
members are also members of the military. For this reason, we 
respectfully request that the subcommittee expand funding for 
DOD's longstanding and successful efforts to develop new drugs, 
vaccines, and diagnostics to protect service personnel from 
malaria and tropical diseases.
    Specifically, we request that in fiscal year 2011, the 
subcommittee ensure $70 million to DOD to support its ID 
research efforts through USAMRIID, WRAIR, and NMRC. Presently, 
DOD funding for this research is about $47 million. To keep up 
with biomedical inflation, fiscal year 2011 funding needs to be 
$60 million, and as said, to fill the gaps that have been 
created by underfunding, ASTMH urges Congress to fund DOD ID 
research at $70 million--70--in fiscal year 2011.
    Thank you very much, Mr. Chairman and vice chairman.
    Chairman Inouye. I thank you very much, Doctor.
    I can assure you that this subcommittee is giving this 
matter our highest priority.
    Senator Cochran. Mr. Chairman?
    Chairman Inouye. Our last panel, and I want to thank the 
panel very much.
    Senator Cochran. Mr. Chairman, could I put in a word for--
--
    Chairman Inouye. Yes.
    Senator Cochran [continuing]. The last witness? I notice in 
my notes here that the University of Mississippi has this 
Center for Natural Products Research and is doing some work in 
collaboration with Walter Reed Army Institute finding safe 
drugs to use against the parasites that cause malaria, which 
was one of the topics that you touched on.
    Is progress being made in this program? Are you familiar 
with that?
    Dr. Berman. Yes, sir, I am. There is work on 8-
aminoquinolines as replacement for our present drugs. It is an 
excellent center and really leads in this total effort.
    Senator Cochran. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Jonathan Berman
    The American Society of Tropical Medicine and Hygiene (ASTMH) is 
the principal professional membership organization in the United 
States, and in the world, for Tropical Medicine and Global Health. 
ASTMH represents physicians, researchers, epidemiologists, and other 
health professionals dedicated to the prevention and control of 
tropical diseases. We appreciate the opportunity to submit testimony to 
the Senate Defense Appropriations Subcommittee and I request that our 
full testimony be submitted for the record.
    Because the military operates in many tropical regions, reducing 
the risk that tropical diseases present to servicemen and women is 
often critical to mission success.
    Malaria and other insect-transmitted diseases such as leishmaniasis 
and dengue are particular examples.
    Antimalarial drugs have saved countless lives throughout the world, 
including troops serving in tropical regions during WWII, the Korean 
War, and the Vietnam War. The U.S. military has long taken a primary 
role in the development of anti-malarial drugs, and nearly all of the 
most used anti-malarials were developed in part by U.S. military 
researchers.
    Over 350 million people are at risk of leishmaniasis in 88 
countries around the world. 12 million people are currently infected 
and 2 million new infections occur annually. Leishmaniasis was a 
particular problem for Operation Iraqi Freedom, as a result of which 
700 American service personnel became infected [Weina 2004]. Because of 
leishmaniasis' prevalence in Iraq and in Southwest Asia in general, the 
DOD has spent significant time and resources on this disease and DOD 
personnel are the leaders in development of new antileishmanial drugs.
    Dengue is a leading cause of illness and death in the tropics and 
subtropics. As many as 100 million people are infected yearly. Although 
dengue rarely occurs in the continental United States, it is endemic in 
Puerto Rico, and in many popular tourist destinations in Latin America 
and Southeast Asia; periodic outbreaks occur in Samoa and Guam. The DOD 
has seen about 28 cases of dengue in soldiers per year.
    The intersection of militarily-important diseases and Tropical 
medicine is the reason that 15 percent of ASTMH members are members of 
the military.
    For this reason, we respectfully request that the Subcommittee 
expand funding for the Department of Defense's longstanding and 
successful efforts to develop new drugs, vaccines, and diagnostics 
designed to protect servicemen and women from malaria and tropical 
diseases. Specifically, we request that in fiscal year 2011, the 
Subcommittee ensure $70 million to the Department of Defense (DOD) to 
support its infectious disease research efforts through the Army 
Medical Research Institute for Infectious Diseases, the Walter Reed 
Army Institute of Research, and the U.S. Naval Medical Research Center. 
Presently, DOD funding for this important research is at about $47 
million. To keep up with biomedical inflation since 2000, fiscal year 
2011 funding must be about $60 million. In order to fill the gaps that 
have been created by underfunding, ASTMH urges Congress to fund DOD 
infectious disease research at $70 million in fiscal year 2011.
    We very much appreciate the Subcommittee's consideration of our 
views, and we stand ready to work with Subcommittee members and staff 
on these and other important tropical disease matters.

    Chairman Inouye. And our final panel consists of Dr. George 
Zitnay, Major General David Bockel, Ms. Joy Simha, and Dr. John 
Boslego.
    Welcome to the subcommittee, and may I recognize Dr. George 
Zitnay.
STATEMENT OF GEORGE A. ZITNAY, Ph.D., CO-FOUNDER, 
            DEFENSE AND VETERANS BRAIN INJURY CENTER
    Dr. Zitnay. Good morning, Chairman Inouye and Vice Chairman 
Cochran. It is good to be here.
    My name is George Zitnay. I am the co-founder of the 
Defense and Brain Injury Center. And before I retired last 
year, I have spent over 40 years in the field of brain injury. 
And I have been involved, obviously, in the work of the 
Department of Defense since the Vietnam war.
    I have worked very hard on behalf of the military and for 
wounded warriors and their families, and I come before you this 
morning to urge funding for the Defense and Veterans Brain 
Injury Center at the $40 million level for 2011 and for the new 
National Intrepid Center of Excellence, $45 million.
    I am requesting specific line-item status for these 
agencies, as each is responsible for brain injury care, 
research, treatment, and training. NICoE, or the National 
Intrepid Center of Excellence, is having its ribbon-cutting 
ceremony tomorrow, and I hope that both of you will be able to 
attend that wonderful ceremony at Bethesda tomorrow.
    As you well know, the NICoE is a volunteer effort on behalf 
of Mr. Fisher and many individuals. And we are hopeful that the 
NICoE will be able to treat some 500 service members each year, 
and their families, for whom standard treatment for TBI has not 
worked. And I am hopeful that the NICoE will push the envelope 
to develop cutting-edge research and rehabilitation for 
individuals with traumatic brain injury from the mild level of 
TBI all the way through to coma.
    TBI continues to be the signature injury in the wars in 
Iraq and Afghanistan, affecting over 10 percent of all deployed 
service personnel. Blast-related injuries and extended 
deployments are contributing to an unprecedented number of 
warriors suffering from TBI, psychological conditions such as 
anxiety, depression, PTSD, and suicide. The long-term effects 
of blast injury are yet unknown, and more research is 
necessary.
    Also, we need to really make sure that standard pre-
deployment baseline measurement and assessments are being done 
consistently across the services. In addition, there needs to 
be a much greater emphasis on connecting injured warriors when 
they return home to community resources and to provide support 
and education for family members because they are the first 
people to recognize the symptoms, particularly of mild TBI and 
PTSD.
    Last year when I came before this subcommittee, I talked 
about those individuals in the vegetative state and the 
minimally conscious. I am very unhappy to report that we still 
have not provided the level of care necessary for these young 
men and women between the ages of 18 and 25.
    You know that the private sector has really moved ahead in 
this area. Bob Woodruff is a good example. Look at what ABC was 
able to do by providing him with the best care possible. There 
is new technology and new opportunities to wake these 
individuals up with deep brain stimulation and other types of 
progress. However, that has not been done. We have still not 
developed a partnership with universities and those major 
centers.
    And I want you to know that the VA has renamed the nursing 
homes that they operate for these individuals from nursing 
homes to community living centers. What a nice opportunity, 
isn't it?
    While we know many with severe TBI will not go back to 
work, I can assure you that they deserve the best. And last 
year, the late Congressman Jack Murtha brought together in 
Johnstown a large group of experts in this area and really 
wanted to have this as one of the things that he was quite 
interested in. Unfortunately, Mr. Chairman and Vice Chairman 
Cochran, this has not been done.
    And as I know, since I live in Johnstown, Mr. Murtha wanted 
this to be accomplished. He invited all of the people to come 
together, and I can assure you that a consortium composed of 
Harvard, people from MIT, from Cornell Medical Center, from St. 
Joseph's Hospital, from Rockefeller have all come together, and 
they know that what can be done to serve these individuals.
    But even though he brought them together, this has not been 
done, and it has been over a year. So I urge you to consider 
funding at the $40 million level for the Defense and Veterans 
Brain Injury Center and for those individuals who now will be 
served by the new Intrepid Center at Bethesda.
    And in closing, what I would like to suggest is that since 
this continuing war in Afghanistan and Iraq, what we have 
observed is that more and more individuals come home. They seem 
normal. But it is not until their family members really 
recognize that something is going on that they need then to 
have care.
    And quite frankly, we need to do a lot more in our 
communities all across this country, whether it is in 
Mississippi or Hawaii or wherever it is, to connect up our 
servicemen and women with the best that is possible in our 
communities.
    Thank you very much for all that you have done, and I urge 
you to support at the $40 million level for DVBIC and for the 
new NICoE Center of Excellence.
    Chairman Inouye. I can assure that we will do exactly that.
    Dr. Zitnay. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you for the insight that you have 
given us and also for your unselfish service in trying to 
personally make a difference for a lot of servicemen and women 
who have been injured.
    Dr. Zitnay. Well, I am retired now, and I come before you 
as a volunteer because I am still most interested in what 
happens to our young men and women in the military.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of George A. Zitnay
    Dear Chairman Inouye, Ranking Member Cochran and Members of the 
Senate Appropriations Subcommittee on Defense: Thank you for this 
opportunity to submit testimony in support of funding brain injury 
programs and initiatives in the Department of Defense. I am George A. 
Zitnay, Ph.D., a neuropsychologist and co-founder of the Defense and 
Veterans Brain Injury Center (DVBIC).
    I have over 40 years of experience in the fields of brain injury, 
psychology and disability, including serving as the Executive Director 
of the Kennedy Foundation, Assistant Commissioner of Mental Retardation 
in Massachusetts, Commissioner of Mental Health, Mental Retardation and 
Corrections for the State of Maine, and a founder and Chair of the 
International Brain Injury Association and the National Brain Injury 
Research, Treatment and Training Foundation. I have served on the 
Advisory Committees to the Centers for Disease Control and Prevention 
(CDC) and the National Institutes of Health (NIH), was an Expert 
Advisor on Trauma to the Director General of the World Health 
Organization (WHO) and served as Chair of the WHO Neurotrauma 
Committee.
    In 1992, as President of the national Brain Injury Association, I 
worked with Congress and the Administration to establish what was then 
called the Defense and Veterans Head Injury Program (DVHIP) after the 
Gulf War as there was no brain injury program at the time. I have since 
worn many hats, and helped build the civilian partners to DVBIC: 
Virginia NeuroCare, Laurel Highlands, and DVBIC-Johnstown. Last year I 
retired as an advisor to the Department of Defense (DOD) regarding 
policies to improve the care and rehabilitation of wounded warriors 
sustaining brain injury.
    I am pleased that DVBIC continues to be the primary leader in DOD 
for all brain injury issues. DVBIC has come to define optimal care for 
military personnel and veterans with brain injuries. Their motto is 
``to learn as we treat.''
    The DVBIC has been proactive since its inception, and what began as 
a small research program, the DVBIC now has 19 sites,\1\ and serves as 
the key operational component for brain injury of the Defense Centers 
of Excellence for Psychological Health and Traumatic Brain Injury 
(DCoE) under DOD Health Affairs.
---------------------------------------------------------------------------
    \1\ Walter Reed Army Medical Center, Washington, DC; Landstuhl 
Regional Medical Center, Germany; National Naval Medical Center, 
Bethesda, MD; James A. Haley Veterans Hospital, Tampa, FL; Naval 
Medical Center San Diego, San Diego, CA; Camp Pendleton, San Diego, CA; 
Minneapolis Veterans Affairs Medical Center, Minneapolis, MN; Veterans 
Affairs Palo Alto Health Care System, Palo Alto, CA; Fort Bragg, NC; 
Fort Carson, CO; Fort Hood, TX; Camp Lejeune, NC; Fort Campbell, 
Kentucky; Boston VA, Massachusetts; Virginia Neurocare, Inc., 
Charlottesville, VA; Hunter McGuire Veterans Affairs Medical Center, 
Richmond, VA; Wilford Hall Medical Center, Lackland Air Force Base, TX; 
Brooks Army Medical Center, San Antonio, TX; Laurel Highlands, 
Johnstown, PA; DVBIC-Johnstown, PA.
---------------------------------------------------------------------------
    I am here today to ask for your support for $40 million for the 
DVBIC and $45 million for the National Intrepid Center of Excellence 
(NICoE) in the Defense Appropriations bill for fiscal year 2011. This 
level of funding is consistent with the request made by 30 Members of 
the Congressional Brain Injury Task Force to the House Appropriations 
Committee as well as with the President's budget request. The 
Administration requested a total of $920 million: $670 million for 
treatment and $250 million for research. Since DVBIC and NICoE provide 
both treatment and research, line items are requested for these 
individual agencies.
    As you know, traumatic brain injury (TBI) remains the ``signature 
injury'' of the conflicts in Iraq and Afghanistan, affecting over 10 
percent of all deployed service personnel. Blast-related injuries from 
improvised explosive devices and extended deployments are contributing 
to an unprecedented number of TBIs (ranging from mild, as in 
concussion, to severe, as in unresponsive states of consciousness) and 
psychological conditions such as anxiety, depression, post traumatic 
stress disorder (PTSD) and suicide. TBI-related health issues cost 
billions of dollars, not including lost productivity or diminished 
quality of life.
    For a myriad of reasons, it is in everyone's best interest--our 
wounded warriors, their families and loved ones, our national security 
and military readiness and the nation's taxpayers--to assure that 
service members with TBI are given the appropriate treatment and 
rehabilitation as soon as possible. Our country cannot afford to allow 
service members to fall through the cracks and suffer from the 
deleterious effects, sometimes life long, of TBI.
    After sustaining an initial TBI, a service member is at twice the 
risk of sustaining another TBI and compounding the injury. This can be 
particularly devastating in a combat zone especially if not removed 
from action. A 2009 Consensus group of brain injury specialists (50 
civilian and military experts), suggested that troops with mild TBI 
receive cognitive rehabilitation as soon as possible. 
(Neurorehabilitation. 2010 Jan 1; 26 (3): 239-55.
    On June 7, 2010, National Public Radio and Propublica published the 
results of an independent investigation which showed that despite the 
DOD's efforts to detect and treat TBI, a huge number remain 
undiagnosed. NPR reports that ``the nation's most senior medical 
officers are attempting to downplay the seriousness of so-called mild 
TBI. As a result, soldiers haven't been getting treatment.'' (http://
www.propublica.org/feature/brain-injuries-remain-undiagnosed-in-
thousands-of-soldiers). The report states that ``tens of thousands of 
troops with TBI have gone uncounted.''
Consistent Screening is Needed
    Four years ago, DVBIC began a comparative study on the efficacy of 
6 diagnostic screening tools but for various reasons there has been 
delay in publishing the results. Since May 2008, a pre-deployment 
cognitive test is used based on DVBIC's ANAM, but post deployment has 
been inconsistent. It is my understanding that top DOD officials fear 
that greater screening may produce false positives and follow up 
assessments and treatment will be expensive. This is unacceptable. In 
cases of positive screenings or when there is suspicion of TBI, a 
neuropsychological battery should be performed. Pending the results of 
DVBIC's study, DOD should convene a panel of outside experts to reach a 
consensus on the best post deployment screening tool which has 
demonstrated efficacy and use it consistently across the board. 
Amendments have been offered to the DOD Authorization bill currently 
under consideration that would help achieve this. Brigadier General 
Loree Sutton, head of the Defense Centers of Excellence for 
Psychological Health and TBI has repeatedly stated that her goal is to 
have ``consistent standards of excellence across the board.'' This is 
an area that desperately needs consistency.
Long Term Effects of Blast Injury Remain Unknown
    The lnstitute of Medicine's (IOM) Preliminary Assessment on the 
Readjustment Needs of Veterans, Service Members and Their Families 
(March 31, 2010) notes that there is a paucity of information on the 
lifetime needs of persons with TBI in the military and civilian sectors 
and recommends funding for additional research into protocols to manage 
the lifetime effects of TBI.
    This issue is compounded by the fact that blast injuries from IEDs 
are quite different from TBIs sustained in the civilian sector, from 
sports and car crashes. There is even less information on the long term 
effects of blasts.
    The National Defense Authorization Act for Fiscal Year 2008 
specifically directed DVBIC to conduct a 15 year study. Assuring 
funding of some $40 million specifically for DVBIC would further this 
goal.
Comorbid Conditions
    As I testified last year, the distinction between TBI and PTSD 
remains a problem. Some senior DOD medical officers continue to argue 
that symptoms can be treated without regard to the underlying problem. 
This is wrong. Treatments for PTSD are often contraindicated for TBI 
and vice versa. A service member with PTSD may be prescribed a beta 
blocker to address memory of the trauma, but it unknown how these 
treatments may affect recovery from TBI. Similarly, a stimulant may be 
prescribed for TBI to enhance certain brain activity, but stimulants 
may exacerbate certain symptoms of PTSD.
    More research must be done to develop evidence-based guidelines for 
TBI and PTSD, as well as guidelines to address the complexities of 
comorbid conditions.
Education
    The need continues for greater education and training for TBI 
specialists, particularly neurologists, physiatrists, 
neuropsychologists, cognitive rehabilitation specialists and physician 
assistants, occupational therapists, and physical therapists. For the 
past 3 years, DVBIC has held annual training sessions for some 800 
military medics. Continued funding is also needed for multi-media 
initiatives, development and dissemination of educational materials for 
providers, as well as informational tools for injured service members 
and their families and loved ones.
Outreach
    Congress should continue funding the DVBIC to improve outreach to 
service members in remote and underserved areas and follow up. Funding 
is needed to increase the number of case managers as well as expand 
DVBIC's TBI Care Coordination program to monitor the continuum of TBI 
services and connect service members with local and regional TBI-
related resources, clinical services, as well as family and patient 
support services.
    The IOM recommended that DOD and the Veterans Administration 
improve coordination and communication among the multitude of programs 
that have been created to meet the needs of returning service members 
and veterans. DVBIC coordination with civilian, private and public, 
resources and services could help fill the gaps in information and 
referral and service delivery.
    Greater effort needs to be made to create a safety net so that 
undiagnosed or misdiagnosed service members do not fall through the 
cracks. National Guard and Reserves are at particular risk as they 
often return to their civilian lives. In cases where TBI has been 
indicated, there have been reports of resistance from military 
treatment facilities in addressing their needs.
    A total of $40 million is requested for DVBIC to continue its work 
and expand and improve as necessary.
NICoE
    Scheduled to open this month, the National Intrepid Center of 
Excellence is expected to ``use an innovative holistic approach to the 
referral, assessment, diagnosis and treatment of those with complex 
psychological health and TBI disorders'' and serve as ``a global leader 
in generating, improving, and harnessing the latest advances in 
science, therapy, telehealth, education, research and technology while 
also providing compassionate family-centered care for service members 
and their loved ones throughout the recovery and community 
reintegration process.'' (Testimony of Charles L. Rice, MD, Acting 
Assistant Secretary of Defense for Health Affairs before HASC hearing 
April 13, 2010).
    NICoE is to provide neurological and psychological treatment to 
some 500 service members per year, for whom standard treatment is not 
successful. NICoE holds much promise, as clinical research can be done 
like never before. What's needed is to push the envelope and develop 
cutting edge rehabilitation efforts for various levels of TBI and then 
track long term outcomes. As a Center of Excellence, NICoE should lead 
the way in redefining the standard of care.
    It is envisioned that NICoE would develop specific treatment plan 
and then seek out community resources in an injured personnel's own 
community. However, funding is needed not only to encourage innovation 
but to assure that such treatments will be paid for when service 
members return to their communities, as new treatments will not likely 
yet be covered by Tricare.
    In order to provide intensive and innovative rehabilitation, 
research and coordination with consortia of public and private partners 
will be necessary. $30 million is needed for pilot projects to treat 
service members with various levels of TBI, including severe TBI and 
disorders of consciousness.
    A total of $45 million for NICoE is requested to be included in the 
DOD Appropriations bill for fiscal year 2011 for these purposes.
    In conclusion, DOD has made some significant strides in addressing 
the needs of service members with TBI, but more research and innovative 
treatment is needed. Your leadership and continued support for our 
wounded warriors is very much appreciated.
    Thank you for your consideration of this request to help improve 
the lives of our wounded warriors.

    Chairman Inouye. Our next witness is Major General David 
Bockel, executive director of the Reserve Officers Association 
of the United States.
STATEMENT OF MAJOR GENERAL DAVID BOCKEL, UNITED STATES 
            ARMY (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION
    General Bockel. Mr. Chairman, Mr. Vice Chairman, the 
Reserve Officers Association thanks you for the invitation to 
appear and give testimony.
    I am Major General David Bockel. I am the executive 
director of the Reserve Officers Association, and I am also 
authorized to speak on behalf of the Reserve Enlisted 
Association.
    A debate is going on whether the Reserve components are 
becoming too expensive and pricing themselves out of the market 
as an operational component. It is interesting to note that the 
argument about the cost of the Reserve and National Guard 
incentives, benefits, and readiness posture dates back to World 
War II. At that time, just as now, there were those who said 
that the Reserve component training, pay, and benefits would be 
unaffordable and would necessitate long-term costs.
    As both the Congress and the Pentagon are looking at 
reducing defense expenses, ROA finds itself again confronted 
with protecting one of America's greatest assets, the Reserve 
components. There are some who would take cuts from the Reserve 
rather than the Active Duty force. ROA and REA fully understand 
that when citizen warriors are used for an extended period, 
there is a substantial personnel cost. It is a cost of war.
    The statement that, while mobilized, a reservist or 
guardsman costs as much as an active component member isn't in 
dispute. On the other hand, the citizen warrior cost over a 
lifecycle, being mobilized only when needed and placed into a 
trained and ready-to-go posture when not recalled, is far less 
than the cost of an active component warrior.
    Additional cost savings are found when prior service 
training develop civilian proficiencies in badly needed 
military skill sets, are retained by having adequate number of 
Reserve billets across the spectrum of military missions.
    National Guard and Reserve members fully understand their 
duty and are proud to be serving operationally. And not only 
have they contributed to the war effort, but they have made the 
difference in maintaining an all-volunteer military force, and 
in the truest sense, the Reserve components have saved the 
country from a draft.
    Establishing parity in training, equipment, pay, and 
compensation is only fair when the young men and women in the 
Reserve components are taking their place on the front, 
assuming the same risk as the Active Duty force. Over 750,000 
men and women have left their homes, schools, and workplaces 
and have performed magnificently in the overseas operational 
contingencies in Afghanistan and Iraq.
    The condition of the Reserves and Guard today is different 
than it was 9 years ago. In ways, it is better, as almost every 
leader now is a combat-tested veteran. In other ways, however, 
the condition is worse. Equipment has been destroyed, worn out, 
or left in the theater.
    Every defense leader recognizes the need to continue to 
reset the force. ROA's written testimony includes lists of 
unfunded requirements that we hope this subcommittee will fund, 
but we also urge the subcommittee to specifically identify 
funding for both the National Guard and the Reserve components 
exclusively to train and equip the Reserve components.
    We hope, too, that this subcommittee continues to provide 
appropriations for the National Guard and Reserve equipment 
authorization. Appropriating funds to the Guard and Reserve 
equipment provides Reserve chiefs and National Guard directors 
with the flexibility of prioritizing funding. ROA and REA also 
hope that NGREA dollar levels are assessed based on mission 
contribution to make it more proportional.
    Another concern ROA and REA share is legal support for 
veterans and Guard and Reserve members returning from 
deployment to face the ever-increasing challenges of 
reemployment. On June 1, 2009, ROA established the Service 
Members Law Center.
    This is a pro bono service that provides legal advice and 
guidance to Reserve, National Guard, Active, and separated 
veterans, their families, legal counsel, and as well as 
providing information to attorneys, bar associations, 
employers, Members of Congress, and other interested parties. 
It does not provide legal representation.
    In just a year, the law center has received over 2,750 
requests for information on legal issues. Nearly 60 percent 
dealt with employment and reemployment rights. The service may 
be free, but this important service does cost money. Currently, 
with ROA's financial support, it allows the center to be 
virtually a one-man shop.
    Awareness of the service outside of ROA membership is only 
by word of mouth. This does not--there is not any outside 
promotion. With broader awareness, our vision is to grow and 
increase the staff and the services provided to our veterans 
from both Reserve and Active component communities, which will 
make more money--which will take more money. ROA would 
appreciate the opportunity to meet with your staff to discuss 
how this subcommittee can provide monetary support.
    Thank you again for your consideration of our testimony, 
and I am available to answer any questions.
    Chairman Inouye. I thank you very much, sir.
    We have got a workload. I can assure you we will do it.
    Senator Cochran. I was just curious about the law center 
that you mentioned in your testimony, whether or not there is 
pro bono legal activity. I know when I was practicing law in 
Mississippi before I came up here to serve in Congress, we had 
a volunteer legal services program for people who couldn't 
afford lawyers, the poor, and we didn't have as many built-in 
programs that provide legal services back then. But now there 
are quite a few.
    I wonder, are you getting support from local bar 
associations for this center?
    General Bockel. On a case-by-case basis. The gentleman who 
runs this law center, his name is Captain (Retired) Sam Wright, 
Navy Reserve, and he is the source authority on USERRA, Service 
Member Civil Relief Act, and military voting. When he is 
invited to speak to bar associations, if they don't offer an 
honoraria, he asks for it.
    Interestingly enough, one of our members of the Reserve 
Officers Association who is also an attorney is providing an 
amicus brief to the United States Supreme Court on a case that 
is going to be heard in the fall. And it is going to be very 
interesting because it is in I don't know how many years, it is 
the first time that a USERRA case has made it that far.
    Senator Cochran. Thank you.
    Chairman Inouye. Thank you.
    [The statement follows:]
            Prepared Statement of Major General David Bockel
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 65,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.
    President: Rear Admiral Paul Kayye, MC, USNR (Ret.)
    Staff Contacts:
    Executive Director: Major General David R. Bockel, USA (Ret.)
    Legislative Director, Health Care: CAPT Marshall Hanson, USNR 
        (Ret.)
    Air Force Director: Mr. David Small
    Army and Strategic Defense Education Director: Mr. ``Bob'' Feidler
    USNR, USMCR, USCGR, Retirement: CAPT Marshall Hanson, USNR (Ret.)
    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only Joint Reserve 
association representing enlisted reservists--all ranks from all five 
branches of the military.
    Executive Director: CMSgt Lani Burnett, USAF (Ret)
                               priorities
    CY 2010 Legislative Priorities are:
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Support citizen warriors, families and survivors.
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
    Issues to help Fund, Equip, and Train:
  --Advocate for adequate funding to maintain National Defense during 
        overseas contingency operations.
  --Regenerate the Reserve Components (RC) with field compatible 
        equipment.
  --Fence RC dollars for appropriated Reserve equipment.
  --Fully fund Military Pay Appropriation to guarantee a minimum of 48 
        drills and 2 weeks training.
  --Sustain authorization and appropriation to National Guard and 
        Reserve Equipment Account (NGREA) to permit flexibility for 
        Reserve Chiefs in support of mission and readiness needs.
  --Optimize funding for additional training, preparation and 
        operational support.
  --Keep Active and Reserve personnel and Operation and Maintenance 
        funding separate.
  --Equip Reserve Component members with equivalent personnel 
        protection as Active Duty.
    Issues to assist Recruiting and Retention:
  --Support continued incentives for affiliation, reenlistment, 
        retention and continuation in the Reserve Component.
    Pay and Compensation:
  --Provide permanent differential pay for Federal employees.
  --Offer Professional pay for RC medical professionals.
  --Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
        Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, 
        and Hazardous Duty Incentive Pay.
    Education:
  --Continued funding for the GI Bill for the 21st Century.
    Health Care:
  --Provide Medical and Dental Readiness through subsidized preventive 
        healthcare.
  --Extend military coverage for restorative dental care for up to 180 
        days following deployment.
    Spouse Support:
  --Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
             national guard and reserve equipment accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to needs.
    Key Issues facing the Armed Forces concerning equipment:
  --Developing the best equipment for troops fighting in overseas 
        contingency operations.
  --Procuring new equipment for all U.S. Forces.
  --Maintaining or upgrading the equipment already in the inventory.
  --Replacing the equipment deployed from the homeland to the war.
  --Making sure new and renewed equipment gets into the right hands, 
        including the Reserve Component.
    Reserve Component Equipping Sources:
  --Procurement.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
  --Recapitalization and overhaul of legacy (old) equipment.
  --Congressional adds.
  --National Guard and Reserve Appropriations (NGREA).
  --Supplemental appropriation.
                              end strength
    The ROA would like to place a moratorium on reductions to the Guard 
and Reserve manning levels. Manpower numbers need to include not only 
deployable assets, but individuals in the accession pipeline. ROA urges 
this subcommittee to fund to support:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,500.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 71,200.
  --Coast Guard Reserve, 10,000
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. We 
need to pause to permit force planning and strategy to catch-up with 
budget reductions.
               nonfunded army reserve component equipment
    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges continue and if left unattended, may hamper 
the Reserves' preparedness for future overseas and domestic missions. 
In order to provide deployable units, the Army National Guard and the 
Army Reserve have cross-leveled large quantities of personnel and 
equipment to deploying units, an approach that has resulted in growing 
shortages in non-deployed units.
Army Reserve Unfunded Requirements
    Since 9/11, the Army Reserve has mobilized 185,660 soldiers and 
currently has about 29,000 deployed. Shortages of equipment on-hand, 
combined with significant substitute items in the Army Reserve's 
inventory, compromise units' ability to train in support of the modular 
Army and to meet surge requirements. The Army Reserve has about 73 
percent of its required equipment on-hand, but some critical items 
remain at less than 50 percent fill. Without a higher level of funding, 
the Army Reserve is projected to reach 85 percent of its equipment 
requirements by the end of fiscal year 2015.
    The Army Reserve has a fiscal year 2015 equipment requirement of 
$22.05 billion. Under current base budgeting and additional Overseas 
Contingency Operation funding the projected programmed funds are only 
$17.76 billion. This is a shortfall of $4.29 billion for the Army 
Reserve. The minimum NGREA funding to catch-up would be $944 million. 
Unresourced equipment includes:
    Transportation:
    Family of Medium Tactical Vehicles (FMTV)--$1.03 billion
    Heavy Tactical Vehicle (HTV)--$503 million
    Heavy Expanded Mobility Tactical Truck (HEMTT-LET)--$300 million
    Stryker Nuclear Biological and Chemical Recon Vehicle (NBC-RV)--
$547 million
    C-27A Cargo Aircraft--$26 million each
  --The latest addition to the United States Army Reserve Aviation 
        fleet is the C-27J Spartan Joint Cargo Aircraft (JCA). The Army 
        Reserve will be initially receiving 16.
    Tactical Quiet Generators [TQG's] PU-807A 100kW (3,036)--$5.8 
million
  --The Army Reserve requires 8,717 TQG's to perform its wartime 
        mission as well as its HLS/HLD responsibilities, but has only 
        5,681 on-hand. Of particular concern in an unfunded shortfall 
        of 59 100kW power units (PU's) that exists within Combat 
        Support Hospitals.
Army National Guard Unfunded Equipment Requirements
    Army National Guard (ARNG) units deployed overseas have the most 
up-to-date equipment available. However, a significant amount of 
equipment is currently unavailable to the Army National Guard in the 
states due to continuing rotational deployments and emerging 
modernization requirements. Equipment is need to replace broken 
equipment and battle loses, train in pre-mob, support the TPE, and to 
substitute for equipment in transit. To support the mission the ARNG 
has cross-leveled equipment. Current equipment procurement averages $5 
billion per year. Current equipment levels as of April 2010 are 77 
percent of equipment on-hand.
    HMMWVs (humvees) (2,063)--$2.4 billion
  --ARNG is critically short on certain HMMWV configurations that are 
        essential to domestic and Overseas Contingency Operations.
    Transportation--$1.15 billion
  --FMTV/LMTV Cargo Trucks; HMMWV; HTV 88 Heavy Trucks; Tactical 
        Trailers.
    Warfighter Information Network-Tactical (WIN-T)--$1.2 billion
  --Tactical telecommunications system consisting of infrastructure and 
        network components from the maneuver battalion to the theater 
        rear boundary. The WIN-T network provides Command, Control, 
        Communications, Computers, Intelligence, Surveillance, and 
        Reconnaissance (C\4\ISR) capabilities that are mobile, secure, 
        survivable, seamless, and capable of supporting multimedia 
        tactical information systems.
    Stryker combat vehicles, battalion (1)--$1.4 billion
  --Eight-wheeled vehicle that can travel up to 62.5 mph. It comes in 
        10 variants, including an infantry-carrier vehicle, a medical 
        evacuation vehicle and a command vehicle.
    Multi-Temperature Refrigerated Container System (MTRCS)--$7.5 
million
  --The Army National Guard has no refrigerated container systems on-
        hand, creating a combat readiness issue for selected 
        quartermaster units and forcing states to lease commercial 
        systems to transport food and medical supplies during HLS/HLD 
        missions and during training. The MTRCS is the Army's new 
        refrigerated container system.
           air force reserve components equipment priorities
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) mission is to be an integrated member 
of the Total Air Force to support mission requirements of the joint 
warfighter. To achieve interoperability in the future, the Air Force 
Reserve top priorities for unfunded equipment are:
    Infra-Red Counter Measures C-130 (21)--$63 million
  --The AN/AAQ-24 (V) NEMESIS is an infrared countermeasure system 
        designed to protect against man-portable (shoulder-launched) 
        infrared-guided surface-to-air missiles.
    Infra-Red Counter Measures KC-135 (15)--$15 million
  --KC-135 aircraft deployed in support for Operation Iraqi and 
        Enduring Freedom have inadequate protection against the 
        Infrared Missile threat. For the procurement and installation 
        of the Guardian AN/AAQ-24 (V) Large Aircraft Podded Infrared 
        Countermeasures (LAIRCM) system.
    Infra-Red Counter Measures C-5B/C-17s (13)--$90 million
  --For the procurement and installation of the AN/AAQ-24 V NEMESIS, an 
        infrared countermeasure system designed to protect against man-
        portable (shoulder-launched) surface-to-air missiles.
    Helmet Mounted Integrated Targeting [HMIT] (39)--$6 million
  --Upgrade and enhancement to engagement systems.
    C-5 Structural Repair (6)--$66 million
  --Stress corrosion cracking of C-5A skins and box beam fittings 
        requires fleet-wide replacement to avoid grounding and 
        restriction of outsize cargo-capable to sustain strategic 
        mobility assets.
    Security Forces Weapons & Tactical Equipment--$5.5 million
  --Also: The USAFR #1 need is MILCON dollars. Of the total fiscal year 
        2011 USAF MILCON budget, The AF Reserve was only funded with 
        $3.4 million for its top facilities project, but is underfunded 
        by $1 billion.
Air National Guard Unfunded Equipment Requirements
    Shortfalls in equipment will impact the Air National Guard's 
ability to support the National Guard's response to disasters and 
terrorist incidents in the homeland. Improved equipping strengthens 
readiness for both overseas and homeland missions and improves the ANG 
capability to train on mission-essential equipment.
    C-17 Globemaster III transport aircraft (5)--$1.3 billion
  --As highlighted as an ANG airlift requirement.
    Infra-Red Counter Measures--$238 million
  --Procure and install LAIRCM systems on C-5, C-17, C-130, 130, HC-
        130, EC-130, KC-135 a/c
    Air Defensive Systems--$49 million
  --Continue to install ADS systems onto C-5, C-17, and F-15 aircraft.
    Security Force Equipment--$79.4 million
  --Crowd control, Tasers, Protective garments, eyewear, goggles, 
        rifles, weapons accessories, traffic control kits, and night 
        vision devices.
    Helmet Mounted Cueing System (HMCS)--$30 million
  --The addition of a day/night helmet mounted cueing system (HCMS) 
        will significantly increase pilot situational awareness (SA), 
        aircraft survivability, and lethality in every mission area. 
        Needed for F-16 and A-10 aircraft.
                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
component units to achieve unity of command. Navy Reservists are fully 
integrated into their Active component supported commands. Little 
distinction is drawn between Active component and Reserve component 
equipment, but unique missions remain.
    C-40 A Combo cargo/passenger Airlift (2)--$170 million
  --The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
        Aircraft. The C-40A is able to carry 121 passengers or 40,000 
        pounds of cargo, compared with 90 passengers or 30,000 pounds 
        for the C-9.
    Maritime Expeditionary Security Force--$20 million
  --Navy Expeditionary Combat Command has 17,000 Navy Reservists and 
        requires $3.1 billion in Reserve Component (Table of Allowance) 
        TOA equipment.
    KC-130J Super Hercules Aircraft tankers (2)--$168 million
  --These Aircraft are needed to fill the shortfall in Navy Unique 
        Fleet Essential Airlift (NUFEA). Procurement price close to 
        upgrading existing C-130Ts with the benefit of a long life 
        span. Twenty-four replacements required through 2030.
    C-37 B (Gulf Stream) Aircraft (1)--$64 million
  --The Navy Reserve helps maintain executive transport airlift to 
        support the Department of the Navy.
    Civil Engineering Support Equipment--Tactical Vehicles--$4.4 
million
                marine corps reserve unfunded priorities
    More than 54,000 Marine Corps Reservists have executed over 70,000 
mobilizations. Nearly one-third of the authorized 39,600 end strength 
have deployed outside the continental United States. The young men and 
women have become an experienced combat force, but are limited in their 
mission by the availability of equipment.
    KC-130J Super Hercules Aircraft tankers (4)--$200 million
            or advanced procurement--$48 million
  --These Aircraft are needed to fill the shortfall in Marine Corps 
        Essential Airlift. USMCR needs 28 airframes, and procurement 
        price close to upgrading existing C-130Ts with the benefit of a 
        longer life span. Commandant, USMC, has testified that 
        acquisition must be accelerated.
    Light Armored Vehicles--LAV--$1.5 million each
  --A shortfall in a USMCR light armor reconnaissance company, the LAV-
        25 is an all-terrain, all-weather vehicle with night 
        capabilities. It provides strategic mobility to reach and 
        engage the threat, tactical mobility for effective use of fire 
        power.
    Training Allowance (T/A) Shortfalls--$145 million
  --Shortfalls consist of over 300 items needed for individual combat 
        clothing and equipment, including protective vests, poncho, 
        liner, gloves, cold weather clothing, environmental test sets, 
        took kits, tents, camouflage netting, communications systems, 
        engineering equipment, combat and logistics vehicles and weapon 
        systems. USMCR goal is to ensure that the Reserve TA contains 
        the same equipment utilized by the active component.
    Obtain latest generation of Individual Combat and Protective 
Equipment including: M4 rifles; Rifle Combat Optic (RCO) scopes; Light 
weight helmets; Small Arms Protective Insert (SAPI) plates; Modular 
Tactical Vests; and Flame Resistant Organizational Gear.
           national guard and reserve equipment appropriation
    The Reserve components that were once held as a strategic force are 
now also being employed as an operational asset as well as a strategic 
reserve; stressing an ever greater need for procurement flexibility as 
provided by the National Guard and Reserve Equipment Appropriation 
(NGREA). Much-needed items not funded by the respective service budget 
are frequently purchased through NGREA. In some cases it is used to 
bring unit equipment readiness to a needed state for mobilization.
    The Reserve and Guard are faced with ongoing challenges on how to 
replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and, in 
general, replacing that which is gone or aging through the abnormal 
wear and tear of deployment. The Reserve Components benefit greatly 
from a National Military Resource Strategy that includes a National 
Guard and Reserve Equipment Appropriation.
    ROA thanks Congress for approving $750 million for NGREA for fiscal 
year 2010, but even more dollars are needed. ROA urges Congress to 
continue the authorization and appropriate for a modern equipment 
account proportional to the missions being performed, which will enable 
the Reserve Component to meet its readiness requirements.
                       service members law center
    The Reserve Officers Association developed a Service Members Law 
Center, advising Active and Reserve servicemembers who are subject to 
legal problems that occur during deployment.
    In almost a year of operation (June 1, 2009 through May 6, 2010), 
the Service Members Law Center has advised 2,150 individuals, by 
telephone and/or e-mail, and in a few instances in person. Of those 
2,150, approximately 1,720 (80 percent) were Active or Reserve 
Component (overwhelmingly Reserve Component) members of the Armed 
Forces. Of those who have contacted us, the ROA Service Members Law 
Center has referred about 5 percent to attorneys.
    The ROA Service Members Law Center has also heard from and has 
provided information to attorneys, employers, congressional staffers, 
state legislators and staffers, reporters, and veterans who are not 
currently Active or Reserve Component members of the Armed Forces but 
have been in the past.
    The legal center helps encourage new members to join the Active, 
Guard and Reserve components by providing a non-affiliation service to 
educate prior service about the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It helps retention as a 
member of the staff works with Active and Reserve Component members to 
counsel those who are preparing to deploy, deployed or recently 
deployed members facing legal problems.
    The Legal Center refers names of attorneys who work related legal 
issues, encouraging law firms to represent service members, and educate 
and training lawyers, especially active and reserve judge advocates on 
service member protection cases. The center is also a resource to 
Congress.
    The Supreme Court has granted a discretionary review of its first 
Supreme Court case under (USERRA). The Service Members Law Center will 
file an amicus curiae (friend of the court) brief in July.
    ROA sets aside office spaces and has already hired a lawyer to 
answer questions of serving members and veterans. The goal is to hire 
two additional staff with a paralegal and an administrative law clerk 
and provide suitable office equipment and workspace to help man the 
Service Members Law Center to expand counsel individuals and their 
legal representatives.
    Anticipated overall cost fiscal year 2011: $505,000.
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and the Interallied Confederation of Medical Reserve 
Officers (CIOMR) was founded in 1947. These organizations are a 
nonpolitical, independent confederation of national reserve 
associations of the signatory countries of the North Atlantic Treaty 
Organization (NATO). Presently there are 16 member nation delegations 
representing over 800,000 reserve officers. CIOR supports several 
programs to improve professional development and international 
understanding. The Reserve Officers Association of the United States 
represents the United States and is its member to CIOR.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French as specified by NATO Military Agency for Standardization, 
which affords international junior officer members the opportunity to 
become fluent in English as a second language.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. Presently no Service has Executive Agency for CIOR so that 
these programs aren't being funded.
    Military Competition funding needs at $150,000 per fiscal year.
                               conclusion
    The impact of operations in Iraq and Afghanistan is affecting the 
very nature of the Guard and Reserve, not just the execution of Roles 
and Missions. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Chairman Inouye. Our next witness is a member of the board 
of directors of the National Breast Cancer Coalition, Ms. Joy 
Simha.
STATEMENT OF JOY SIMHA, MEMBER, BOARD OF DIRECTORS, 
            NATIONAL BREAST CANCER COALITION AND CO-
            FOUNDER, YOUNG SURVIVAL COALITION
    Ms. Simha. Thank you.
    Thank you, Mr. Chairman and members of the Appropriations 
Defense Subcommittee for the opportunity to testify here today 
about the Department of Defense Breast Cancer Research Program. 
As successful as this competitive peer-reviewed program is, it 
warrants level funding.
    I am Joy Simha. I am a 16-year breast cancer survivor, a 
wife, a mother, and one of the co-founders of the Young 
Survival Coalition and, as you said, a board member of the 
National Breast Cancer Coalition. In addition, I sit on the 
integration panel of the Breast Cancer Research Program with 
three other survivors and about a dozen scientists.
    Chairman Inouye and Ranking Member Cochran, we truly 
appreciate your longstanding support of this innovative, 
successful program, which represents a meaningful, true way for 
women to fight breast cancer. Women and their families across 
the country are depending on this program.
    The program has a unique structure, which brings 
scientists, trained consumers, policymakers, and the Army 
together to collaborate toward ending breast cancer. There is 
no bureaucracy, and the Army is so efficient and effective in 
implementing the program. They should be applauded for using 
less than 10 percent of funds for administrative costs.
    The program is truly transparent and accountable to the 
taxpayer. The Era of Hope, which is a biennial meeting where 
scientists report back on their research results, provides 
opportunity for others to hear about and collaborate on 
innovative research results. In addition, all information about 
who gets funded can be found at the Department of Defense 
Breast Cancer Web site.
    The partnership with educated consumers, scientists, the 
Army, policymakers helps keep the science relevant to women. It 
ensures the program's sense of urgency at fulfilling its 
mission.
    This program pushes science to new levels. The focus is in 
changing the status quo by creating new models of research. The 
collaborators are not afraid to ask the very difficult, complex 
questions and fund unique models of research while maintaining 
the peer review model.
    As a true testimony to our success, the mission, the 
mechanisms, and the structure of the program have been used for 
models in other programs in other research and scientific 
research programs. This program has been applauded by the 
Institute of Medicine and others as an exemplary model of 
funding research.
    The program works. It not only saves women's lives, but it 
changes the status quo about how we do research. The Department 
of Defense Breast Cancer Research Program is a true means to an 
end. People across this country believe in the program and its 
ability to end breast cancer. I come to you as a survivor 
representing those people and the many wonderful women we have 
lost to breast cancer.
    I wish to dedicate my testimony today to two women who were 
once chairs of the integration panel who lost their lives 
recently to breast cancer--Carolina Hinestrosa, who is just 
about a 1-year--we lost her about 1 year ago, and Karin Noss. 
We continue our work to honor women as amazing as these two so 
that we can move forward and try to end breast cancer and save 
lives in the future.
    Thank you for your support and the opportunity to testify.
    Chairman Inouye. I thank you very much for your testimony. 
We will do our best.
    Senator Cochran. I want to congratulate you on the quality 
of your presentation, too. You would be a professional in many, 
many areas, but particularly the convincing way you presented 
your remarks I thought was worthy of praise.
    I noticed that in 2004, there was a report that reviewed 
this program and gave it very high marks and talked about the 
scientific breakthroughs that were occurring because of the 
things that your organization is doing. Congratulations.
    Ms. Simha. Thank you.
    [The statement follows:]
                    Prepared Statement of Joy Simha
                              introduction
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to submit testimony today 
about a program that has made a significant difference in the lives of 
women and their families.
    I am Joy Simha, a 16-year breast cancer survivor, communications 
consultant, a wife and mother, co-founder of The Young Survival 
Coalition, and a member of the board of directors of the National 
Breast Cancer Coalition (NBCC). I am also a member of the Integration 
Panel of the Department of Defense Breast Cancer Research Program. My 
testimony represents the hundreds of member organizations and thousands 
of individual members of the Coalition. NBCC is a grassroots 
organization dedicated to ending breast cancer through action and 
advocacy. The Coalition's main goals are to increase Federal funding 
for breast cancer research and collaborate with the scientific 
community to implement new models of research; improve access to high 
quality healthcare and breast cancer clinical trials for all women; and 
expand the influence of breast cancer advocates wherever breast cancer 
decisions are made.
    Chairman Inouye and Ranking Member Cochran, we appreciate your 
longstanding support for the Department of Defense Peer Reviewed Breast 
Cancer Research Program. As you know, this program was born from a 
powerful grassroots effort led by the National Breast Cancer Coalition, 
and has become a unique partnership among consumers, scientists, 
Members of Congress and the military. You and your Committee have shown 
great determination and leadership in funding the Department of Defense 
(DOD) peer-reviewed Breast Cancer Research Program (BCRP) at a level 
that has brought us closer to eradicating this disease. I am hopeful 
that you and your Committee will continue that determination and 
leadership.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and healthcare 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. To support this unprecedented progress moving forward, we 
ask that you support a separate $150 million appropriation, level 
funding, for fiscal year 2011. In order to continue the success of the 
Program, you must ensure that it maintain its integrity and separate 
identity, in addition to level funding. This is important not just for 
breast cancer, but for all biomedical research that has benefited from 
this incredible government program.
                           vision and mission
    The vision of the Department of Defense Breast Cancer Research 
Program is to ``eradicate breast cancer by funding innovative, high-
impact research through a partnership of scientists and consumers.'' 
The meaningful and unprecedented partnership of scientists and 
consumers has been the foundation of this model program from the very 
beginning. It is important to understand this collaboration: consumers 
and scientists working side by side, asking the difficult questions, 
bringing the vision of the program to life, challenging researchers and 
the public to do what is needed and then overseeing the process every 
step of the way to make certain it works. This unique collaboration is 
successful: every year researchers submit proposals that reach the 
highest level asked of them by the program and every year we make 
progress for women and men everywhere.
    And it owes its success to the dedication of the U.S. Army and 
their belief and support of this mission. And of course, to you. It is 
these integrated efforts that make this program unique.
    The Department of the Army must be applauded for overseeing the DOD 
BCRP which has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative, transparent and accountable approach. This program is 
incredibly streamlined. The flexibility of the program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness. 
Because there is little bureaucracy, the program is able to respond 
quickly to what is currently happening in the research community. 
Because of its specific focus on breast cancer, it is able to rapidly 
support innovative proposals that reflect the most recent discoveries 
in the field. It is responsive, not just to the scientific community, 
but also to the public. The pioneering research performed through the 
program and the unique vision it maintains has the potential to benefit 
not just breast cancer, but all cancers as well as other diseases. 
Biomedical research is literally being transformed by the DOD BCRP's 
success.
                         consumer participation
    Advocates bring a necessary perspective to the table, ensuring that 
the science funded by this program is not only meritorious, but that it 
is also meaningful and will make a difference in people's lives. The 
consumer advocates bring accountability and transparency to the 
process. They are trained in science and advocacy and work with 
scientists willing to challenge the status quo to ensure that science 
funded by the program fill important gaps not already being addressed 
by other funding agencies. Since 1992, more than 600 breast cancer 
survivors have served on the BCRP review panels.
    Last year, Carolina Hinestrosa, a breast cancer survivor and 
trained consumer advocate, chaired the Integration Panel and led the 
charge in challenging BCRP investigators to think outside the box for 
revelations about how to eradicate breast cancer. Despite the fact that 
her own disease was progressing, she remained steadfast in working 
alongside scientists and consumers to move breast cancer research in 
new directions. Unwilling to give up, she fought tirelessly until the 
end of her life for a future free of breast cancer.
    Carolina died last year from soft tissue sarcoma, a late side 
effect of the radiation that was used to treat her breast cancer. She 
once eloquently described the unique structure of the DOD BCRP:
    ``The Breast Cancer Research Program channels powerful synergy from 
the collaboration of the best and brightest in the scientific world 
with the primary stakeholder, the consumer, toward bold research 
efforts aimed at ending breast cancer.''
    No one was bolder than Carolina, who was fierce and determined in 
her work on the DOD BCRP and in all aspects of life she led as a 
dedicated breast cancer advocate, mother to a beautiful daughter, and 
dear friend to so many. Carolina's legacy reminds us that breast cancer 
is not just a struggle for scientists; it is a disease of the people. 
The consumers who sit alongside the scientists at the vision setting, 
peer review and programmatic review stages of the BCRP are there to 
ensure that no one forgets the women who have died from this disease, 
and the daughters they leave behind, and to keep the program focused on 
its vision.
    For many consumers, participation in the program is ``life 
changing'' because of their ability to be involved in the process of 
finding answers to this disease. In the words of one advocate:
    ``Participating in the peer review and programmatic review has been 
an incredible experience. Working side by side with the scientists, 
challenging the status quo and sharing excitement about new research 
ideas . . . it is a breast cancer survivor's opportunity to make a 
meaningful difference. I will be forever grateful to the advocates who 
imagined this novel paradigm for research and continue to develop new 
approaches to eradicate breast cancer in my granddaughters' 
lifetime.''------Marlene McCarthy, two-time breast cancer ``thriver'', 
Rhode Island Breast Cancer Coalition
    Scientists who participate in the Program agree that working with 
the advocates has changed the way they do science. Let me quote Greg 
Hannon, the fiscal year 3010 DOD BCRP Integration Panel Chair:
    ``The most important aspect of being a part of the BCRP, for me, 
has been the interaction with consumer advocates. They have currently 
affected the way that I think about breast cancer, but they have also 
impacted the way that I do science more generally. They are a constant 
reminder that our goal should be to impact people's lives.''------Greg 
Hannon, PhD, Cold Spring Harbor Laboratory
                            unique structure
    The DOD BCRP uses a two-tiered review process for proposal 
evaluation, with both steps including scientists as well as consumers. 
The first tier is scientific peer review in which proposals are weighed 
against established criteria for determining scientific merit. The 
second tier is programmatic review conducted by the Integration Panel 
(composed of scientists and consumers) that compares submissions across 
areas and recommends proposals for funding based on scientific merit, 
portfolio balance and relevance to program goals.
    Scientific reviewers and other professionals participating in both 
the peer review and the programmatic review process are selected for 
their subject matter expertise. Consumer participants are recommended 
by an organization and chosen on the basis of their experience, 
training and recommendations.
    The BCRP has the strictest conflict of interest policy of any 
research funding program or institute. This policy has served it well 
through the years. Its method for choosing peer and programmatic review 
panels has produced a model that has been replicated by funding 
entities around the world.
    It is important to note that the Integration Panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists and consumers know now and the gaps in our knowledge--as 
well as the needs of the public. While this plan is mission driven, and 
helps ensure that the science keeps to that mission of eradicating 
breast cancer in mind, it does not restrict scientific freedom, 
creativity or innovation. The Integration Panel carefully allocates 
these resources, but it does not predetermine the specific research 
areas to be addressed.
                   distinctive funding opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative individuals and ideas, 
impact on translating research from the bench to the bedside, and 
training of breast cancer researchers.
Innovation
    The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. They 
are precisely the type of grants that rarely receive funding through 
more traditional programs such as the National Institutes of Health and 
private research programs. They therefore complement, and do not 
duplicate, other Federal funding programs. This is true of other DOD 
award mechanisms also.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. For example, in fiscal 
year 2008, Dr. Mauro Ferrari of the University of Texas Health Science 
Center at Houston was granted an Innovator Award to develop novel 
vectors for the optimal delivery of individualized breast cancer 
treatments. This is promising based on the astounding variability in 
breast cancer tumors and the challenges presented in determining which 
treatments will be most effective and how to deliver those treatments 
to each individual patient. In fiscal year 2006, Dr. Gertraud 
Maskarinec of the University of Hawaii received a synergistic IDEA 
Award to study effectiveness of the Dual Energy X-Ray Absorptiometry 
(DXA) as a method to evaluate breast cancer risks in women and young 
girls.
    The Era of Hope Scholar Award supports the formation of the next 
generation of leaders in breast cancer research, by identifying the 
best and brightest scientists early in their careers and giving them 
the necessary resources to pursue a highly innovative vision of ending 
breast cancer. Dr. Shiladitya Sengupta from Brigham and Women's 
Hospital, Harvard Medical School, received a fiscal year 2006 Era of 
Hope Scholar Award to explore new strategies in the treatment of breast 
cancer that target both the tumor and the supporting network 
surrounding it. In fiscal year 2007, Dr. Gene Bidwell of the University 
of Mississippi Medical Center received an Era of Hope Postdoctoral 
Award to study thermally targeted delivery of inhibitor peptides, which 
is an underdeveloped strategy for cancer therapy.
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. Researchers found that over-expression 
of HER-2/neu in breast cancer cells results in very aggressive biologic 
behavior. The same researchers demonstrated that an antibody directed 
against HER-2/neu could slow the growth of the cancer cells that over-
expressed the gene. This research, which led to the development of the 
targeted therapy, was made possible in part by a DOD BCRP-funded 
infrastructure grant. Other researchers funded by the DOD BCRP are 
identifying similar targets that are involved in the initiation and 
progression of cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research.
Translational Research
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the process by which the application of well-founded 
laboratory or other pre-clinical insight result in a clinical trial. To 
enhance this critical area of research, several research opportunities 
have been offered. Clinical Translational Research Awards have been 
awarded for investigator-initiated projects that involve a clinical 
trial within the lifetime of the award. The BCRP has expanded its 
emphasis on translational research by also offering five different 
types of awards that support work at the critical juncture between 
laboratory research and bedside applications.
    The Multi Team Award mechanism brings together the world's most 
highly qualified individuals and institutions to address a major 
overarching question in breast cancer research that could make a 
significant contribution toward the eradication of breast cancer. Many 
of these Teams are working on questions that will translate into direct 
clinical applications. These Teams include the expertise of basic, 
epidemiology and clinical researchers, as well as consumer advocates.
Training
    The DOD BCRP is also cognizant of the need to invest in tomorrow's 
breast cancer researchers. Dr. J. Chuck Harrell, Ph.D. at the 
University of Colorado, Denver and the University of North Carolina at 
Chapel Hill, for example, received a Predoctoral Traineeship Award to 
investigate hormonal regulation of lymph node metastasis, the majority 
of which retain estrogen receptors (ER) and/or progesterone receptors. 
Through his research, Dr. Harrell determined that lymph node 
microenvironment alters ER expression and function in the lymph nodes, 
effecting tumor growth. These findings led Dr. Harrell to conduct 
further research in the field of breast metastasis during his 
postdoctoral work. Jim Hongjun of the Battelle Memorial Institute 
received a postdoctoral award for the early detection of breast cancer 
using post-translationally modified biomarkers.
    Dr. John Niederhuber, now the Director of the National Cancer 
Institute (NCI), said the following about the Program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:
    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''
    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2011.
                  outcomes and reviews of the dod bcrp
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
12,241 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
    The success of the DOD peer-reviewed Breast Cancer Research Program 
has been illustrated by several unique assessments of the Program. The 
IOM, which originally recommended the structure for the Program, 
independently re-examined the Program in a report published in 1997. 
They published another report on the Program in 2004. Their findings 
overwhelmingly encouraged the continuation of the Program and offered 
guidance for program implementation improvements.
    The 1997 IOM review of the DOD peer-reviewed Breast Cancer Research 
Program commended the Program, stating, ``the Program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the nation's fight 
against breast cancer.'' The 2004 report spoke to the importance of the 
program and the need for its continuation.
    The DOD peer-reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued.
    Sixteen hundred consumers and researchers met for the fifth Era of 
Hope meeting in June, 2008. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brought together many of the most committed breast cancer 
activists with some of the nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention . . .'' 
He went on to say ``the program . . . has racked up some impressive 
accomplishments in high-risk research projects . . .''
    One of the topics reported on at the meeting was the development of 
more effective breast imaging methods. An example of the important work 
that is coming out of the DOD BCRP includes a new screening method, 
molecular breast imaging, which helps detect breast cancer in women 
with dense breasts--which can be difficult using a mammogram alone. I 
invite you to log on to NBCC's website http://
influence.stopbreastcancer.org/ to learn more about the exciting 
research reported at the 2008 Era of Hope. The next Era of Hope meeting 
is being planned for 2011.
    The DOD peer-reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for finding causes of, cures for, and ways to prevent breast 
cancer. The Coalition and its members are dedicated to working with you 
to ensure the continuation of funding for this Program at a level that 
allows this research to forge ahead. From 1992, with the launch of our 
``300 Million More Campaign'' that formed the basis of this Program, 
until now, NBCC advocates have appreciated your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    Consumer advocates have worked hard over the years to keep this 
program free of political influence. Often, specific institutions or 
disgruntled scientists try to change the program though legislation, 
pushing for funding for their specific research or institution, or try 
to change the program in other ways, because they did not receive 
funding through the process, one that is fair, transparent and 
successful. The DOD BCRP has been successful for so many years because 
of the experience and expertise of consumer involvement, and because of 
the unique peer review and programmatic structure of the program. We 
urge this Committee to protect the integrity of the important model 
this program has become.
    There are 3 million women living with breast cancer in this country 
today. This year, more than 40,000 will die of the disease and more 
than 240,000 will be diagnosed. We still do not know how to prevent 
breast cancer, how to diagnose it in a way to make a real difference or 
how to cure it. It is an incredibly complex disease. We simply cannot 
afford to walk away from this program.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important approach in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer and all 
those who share in the mission to end breast cancer.

    Chairman Inouye. Our final witness represents the Program 
for Appropriate Technology in Health, Dr. John W. Boslego.
STATEMENT OF JOHN W. BOSLEGO, M.D., DIRECTOR, VACCINE 
            DEVELOPMENT GLOBAL PROGRAM, PROGRAM FOR 
            APPROPRIATE TECHNOLOGY IN HEALTH
    Dr. Boslego. Good morning. My name is John Boslego. I am 
the director of the Vaccine Development Global Program at PATH.
    I would like to begin by thanking Chairman Inouye and 
Ranking Member Cochran. I would also like to thank Senators 
Patty Murray and Dick Durbin for their ongoing championship of 
global health, and Senator Brownback for his leadership in 
ensuring access for lifesaving tools for neglected diseases in 
low-income countries.
    PATH is an international nonprofit organization that 
creates sustainable, culturally relevant solutions, enabling 
communities worldwide to break longstanding cycles of poor 
health. By collaborating with diverse public and private sector 
partners, we help provide appropriate health technologies and 
vital strategies that change the way people think and act.
    We wish to take this opportunity to recognize the specific 
and unique areas of expertise that the Department of Defense 
brings to bear in advancing innovation that ensures that people 
in low-resource settings have access to lifesaving 
interventions and technologies.
    The global health research effort of DOD responds to 
diseases many Americans may never see up close, but which 
military personnel stationed in the developing world experience 
alongside local communities. PATH requests that in fiscal year 
2011 the subcommittee provide robust support for DOD research 
and development programs aimed at addressing health challenges, 
particularly for military malaria vaccine research, as well as 
research at the Defense Advanced Research Project Agency, or 
DARPA.
    For malaria vaccine, more than one-third of the world's 
population is at risk of malaria, with approximately 250 
million cases occurring every year. And most of the nearly 1 
million deaths from malaria are among children in Africa under 
the age of 5.
    According to a 2006 IOM report, malaria has affected almost 
all military deployments since the American civil war and 
remains a severe ongoing threat. The same report noted that a 
vaccine would be the best method of averting the threat of 
malaria, given the likely increasing number of deployments to 
high-risk areas.
    Military researchers within the Military Infectious Disease 
Research Program are at the forefront of efforts to develop a 
malaria vaccine. One example of DOD's impact in malaria 
research is the most promising vaccine candidate in existence 
today, RTS,S. Research at the Walter Reed Army Institute of 
Research contributed to the development of the vaccine 
candidate, and early testing of RTS,S--created by 
GlaxoSmithKline--was done in collaboration with the U.S. 
military.
    Today, thanks to an innovative partnership between GSK Bio 
and PATH Malaria Vaccine Initiative--a PATH program that works 
to accelerate development of malaria vaccines and ensure their 
availability and accessibility in the developing world--RTS,S 
is now in a large-scale phase 3 trial, typically the last stage 
of testing prior to licensure. The U.S. Army is assisting in 
this trial by supporting one of the field sites in Kenya.
    Unfortunately, current funding levels are nowhere near what 
is needed to develop urgently needed countermeasures against 
malaria. PATH recommends $31.1 million in malaria R&D funding 
for DOD in fiscal year 2011.
    Another program making great contributions to health 
research and development is DARPA. DARPA has identified as a 
priority the development of health technologies that can help 
both the U.S. military and be of use in DOD-sponsored 
humanitarian and relief operations in regions emerging from 
conflict.
    One of the technologies pioneered by DARPA has led to 
electrochemical generators of chlorine. PATH has partnered with 
Cascade Design, Inc., on a new generation of smart 
electrochlorinators that inactivates bacteria, viruses, and 
some protozoa to create safe drinking water. The generators can 
be powered by solar-charged batteries, making them accessible 
to communities that do not have electricity infrastructure.
    In conclusion, in light of the critical role that DOD plays 
in global health research and development, we respectfully 
request the subcommittee provide the resources to maintain this 
important core capacity, including $31.1 million in malaria R&D 
funding.
    We thank you.
    Chairman Inouye. I thank you very much, Doctor, and you may 
be assured we will seriously consider your request.
    Senator Cochran. Thank you very much.
    I think malaria is one of those diseases that worldwide is 
probably the most aggressive and probably causes more deaths 
and illnesses than any other one malady. Is that right? Is that 
an accurate assessment?
    Dr. Boslego. Certainly, it is among the top killers, 
particularly in Africa.
    Senator Cochran. Well, thank you very much for reminding us 
of this and your assistance to the subcommittee.
    [The statement follows:]
                 Prepared Statement of John W. Boslego
    PATH appreciates the opportunity to submit written testimony 
regarding fiscal year 2011 funding for global health research and 
development to the Senate Defense Appropriations Subcommittee. PATH is 
an international nonprofit organization that creates sustainable, 
culturally relevant solutions, enabling communities worldwide to break 
longstanding cycles of poor health. By collaborating with diverse 
public- and private-sector partners, we help provide appropriate health 
technologies and vital strategies that change the way people think and 
act.
    We wish to take this opportunity to recognize the specific and 
unique areas of expertise that the Department of Defense (DOD) brings 
to bear in advancing innovation that ensures that people in low-
resource settings have access to life-saving interventions and 
technologies. Through DOD, the U.S. Government is able to apply this 
core capacity to improving health throughout the world.
    The global health research efforts of DOD respond to diseases many 
Americans may never see up close, but which military personnel 
stationed in the developing world experience alongside local 
communities. Medicines, vaccines, and diagnostics for health threats 
that disproportionately affect the developing world are critical for 
their protection. Health is also an important factor in global 
stability and security. The heavy burden of disease in the developing 
world hinders economic and social development, which in turn 
perpetuates conditions that breed political instability. DOD health 
research therefore benefits not only the U.S. military but also has the 
potential to reduce this health burden, and by doing so, reduce the 
likelihood of physical conflict.
    PATH requests that in fiscal year 2011, the Subcommittee provide 
robust support for DOD research and development programs aimed at 
addressing these health challenges, particularly two important 
programs. First, we request that the Subcommittee provide increased 
support for military malaria vaccine development efforts. Second, we 
request that the Subcommittee support research at the Defense Advanced 
Research and Projects Agency (DARPA) aimed at delivering healthcare to 
military personnel and civilians in remote, resource-poor, and unstable 
locations. PATH also requests that no funding cuts be made to DOD 
research and development.
Malaria and Vaccines
    Malaria is a parasitic infection transmitted by mosquitoes. More 
than one-third of the world's population is at risk of malaria, with 
approximately 250 million cases occurring every year. Most of the 
nearly 1 million annual deaths from malaria are among children in 
Africa under the age of five. A malaria vaccine is desperately needed 
to help prevent these deaths. While consistent use of effective 
insecticides, insecticide-treated nets, and malaria medicines saves 
lives, eradicating or even significantly reducing the impact of malaria 
will require additional interventions, including vaccines. Immunization 
is one of the most effective health interventions available. Just as it 
was necessary to use vaccines to control polio and measles in the 
United States, vaccines are needed as part of an effective control 
strategy for malaria. Furthermore, vaccines are typically the most 
efficient means of protecting military personnel from disease threats. 
When troops are deployed, and particularly under combat conditions, 
compliance with drug regimens or other disease-protection protocols can 
be difficult, if not impossible. Vaccination, in contrast, can be 
performed prior to deployment, and allows deployed personnel to remain 
focused on mission success, rather than chemoprophylaxis, bed nets, or 
insecticide application.
Malaria and the U.S. Military
    A 2006 Institute of Medicine (IOM) report \1\ found that ``malaria 
has affected almost all military deployments since the American Civil 
War and remains a severe and ongoing threat.'' For this reason, the 
military has historically taken an active and leading role in the 
development of health technologies to protect military personnel from 
malaria, or to treat them if they become infected with the disease. 
This work includes a robust, cutting-edge program aimed at developing a 
highly-efficacious malaria vaccine, suitable for use by military 
personnel. The aforementioned IOM study noted ``the fact that a vaccine 
would be the best method of averting the threat of malaria given the 
likely increasing number of deployments to high-risk areas.'' An 
effective vaccine would provide unparalleled protection to servicemen 
and women serving in malaria-endemic countries and regions, and would 
significantly reduce the impact of noncompliance, drug resistance, and 
other significant obstacles that currently limit the military's ability 
to provide protection from malaria. Military researchers within the 
Military Infectious Disease Research Program, including the U.S. Army 
Medical Research Institute of Infectious Diseases, U.S. Naval Medical 
Research Center, and the Walter Reed Army Institute of Research 
(WRAIR), are at the forefront of efforts to develop a malaria vaccine.
---------------------------------------------------------------------------
    \1\ Battling Malaria--Strengthening the U.S. Military Malaria 
Vaccine Program. National Academy of Sciences Press, Washington, D.C. 
2006.
---------------------------------------------------------------------------
    Research at WRAIR, for example, contributed to the development of 
the most promising vaccine candidate in existence today, RTS,S. Early 
testing of RTS,S--created by GlaxoSmithKline Biologicals (GSK Bio)--was 
done in collaboration with the U.S. military. Today, thanks to an 
innovative partnership between GSK Bio and the PATH Malaria Vaccine 
Initiative (MVI)--a PATH program that works to accelerate the 
development of malaria vaccines and ensure their availability and 
accessibility in the developing world--RTS,S is now in a large-scale 
Phase 3 trial, typically the last stage of testing prior to licensure. 
Although the efficacy of RTS,S is unlikely to prove adequate for 
military purposes--despite its potential benefit to young children in 
Africa--it has shown that developing a vaccine against malaria is 
possible and paved the way for other development efforts that could 
ultimately allow the military to vaccinate men and women against 
malaria before deploying them to endemic regions. Since its 
establishment in 1999, MVI has partnered with the military in a number 
of malaria vaccine development projects, including the preclinical 
development of an adenovirus-vectored malaria vaccine candidate 
developed by GenVec, Inc. that used a modified common cold virus to 
deliver multiple malaria antigens.
    Unfortunately, DOD spending on malaria research has been declining 
for several years from levels that were already comparatively small 
given the historic impact of malaria on overseas deployments. PATH 
requests that the Subcommittee reverse this trend, and provide the 
resources needed to develop the necessary tools--including vaccines--to 
protect soldiers, sailors, airmen, and marines from this deadly and 
debilitating disease threat. This would make possible a continuation of 
the kind of collaboration--characterized by joint funding--that 
currently exists between MVI and the U.S. Military Malaria Vaccine 
Program. In particular, PATH recommends $31.1 million in malaria R&D 
funding for DOD in fiscal year 2011.
DARPA and DTRA
    The Defense Advanced Research Projects Agency (DARPA) is DOD's 
primary research and development component and performs work on the 
cutting edge of multiple scientific disciplines, providing a wide range 
of critical new technologies and products for use by the military. 
DARPA has made and could make additional contributions in one area it 
has identified as a priority: developing health technologies that can 
both help the U.S. military, and be of use in DOD-sponsored 
humanitarian relief operations in regions emerging from conflict. 
Military personnel operating in developing countries face many of the 
same challenges to healthcare delivery as do the residents of those 
countries: electricity and transportation interruptions that can 
threaten the integrity of temperature-sensitive medicines and vaccines; 
lack of access to trained medical personnel and facilities; and an 
absence of infrastructures and technologies that allow for the rapid 
manufacture and delivery of medicines and vaccines for the treatment of 
unexpected infectious disease threats. Increased support for this 
research would help the United States to more effectively assist 
developing countries that need vaccines and other basic health 
technologies, while ensuring that health products are delivered as 
efficiently as possible.
    DARPA's investments in austere healthcare delivery systems--through 
their focus on disaster medicine in projects such as ``Real World,'' 
``Rapid Altitude Climatization,'' and ``SAVE II Ventilators''--
represent a commitment to interventions that could have positive and 
profound health implications for populations in low-resource settings. 
For example, DARPA pioneered technology that has led to electrochemical 
generators of chlorine that may be able to fulfill a community's needs 
for effective disinfectants for water or surfaces by using just salt 
water and a simple battery source, such as a car or motorcycle battery.
    The Smart Electrochlorinator provides a chlorine solution used to 
treat water from a variety of sources, bringing safe water into small-
community households. The devices effectively inactivate bacteria, 
viruses, and some protozoa to create safe drinking water. Since the 
generators can be powered by solar-charged batteries, they are 
accessible to communities that do not have an electricity 
infrastructure. The only resources required are 75 g of table salt and 
0.1 kWh per person per year, both potentially renewable. These costs 
are significantly less than required for the current large-scale 
community systems, resulting in break-even points that are within reach 
of very poor, small communities. PATH has partnered with Cascade 
Designs, Inc. on a new generation of smart electrochlorinator that has 
the potential to expand the project initiated by DARPA to broader 
community reach for both military and civilian benefit.
    The Defense Threat Reduction Agency (DTRA) is also doing 
groundbreaking work as it investigates innovations in vaccine and 
chemical reagent thermo-stabilization and point of care diagnostic 
tests for infectious diseases that has positive implications for global 
health and U.S. military support in low-resource settings. Such 
technologies will enable rapid pathogen identification in the field and 
threat zone to more rapidly enlist targeted interventions. PATH 
requests that the Subcommittee maintain funding for the DARPA and DTRA 
research aimed at developing solutions to these and other health 
challenges.
Conclusion
    In light of the critical role that at DOD plays in global health 
research and development, and the fact that investments in this area 
have been falling, we respectfully request that the Subcommittee 
provide the resources to maintain this important core capacity. We 
thank you for your consideration, and hope that you will consider PATH 
as a resource and partner on this issue.

                    ADDITIONAL SUBMITTED STATEMENTS

    Chairman Inouye. On behalf of the subcommittee, I would 
like to thank all of you, the witnesses, for the testimony 
today.
    The subcommittee has received some additional statements 
which will be inserted into the record at this point.
    [The statements follow:]
      Prepared Statement of the American Museum of Natural History
Overview
    Recognizing its potential to aid the Department of Defense in its 
goal to support research to prepare for and respond to the full range 
of threats, the American Museum of Natural History seeks in $3.5 
million in fiscal year 2011 to contribute its unique resources to the 
advancement of research in areas of science closely aligned with DOD's 
research priorities and to extend the research effort with an 
associated STEM (science, technology, engineering, mathematics) 
education component, to help build a workforce adequate to meet the 
nation's security needs.
About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' The AMNH research staff numbers over 200, 
with tenure track faculty carrying out cutting-edge research in fields 
ranging from molecular biology and genome science to earth and space 
science, anthropology, and astrophysics. Museum scientists publish 
nearly 450 scientific articles each year and enjoy a success rate in 
competitive (peer reviewed) scientific grants that is approximately 
double the national average. The work of its scientists forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
Advancing Research Aligned With National Security Goals
    The Department of Defense (DOD) ensures the nation's security and 
its capacity to understand and respond to threats in this new era of 
complex defense challenges. DOD is committed to the research, tools, 
and technology that will achieve these goals, and to ensuring that the 
nation's 21st century science, technology, engineering, and mathematics 
(STEM) workforce is prepared to meet U.S. preparedness and security 
needs.
    The American Museum of Natural History (AMNH), in turn, is a 
preeminent research and public education institution, home to leading 
research programs in biocomputation, comparative genomics, and the 
life, physical, environmental, and social sciences--programs that are 
positioned to advance the Nation's capacity to prepare for and respond 
to security threats. AMNH is also a recognized leader in STEM 
education--in both out-of-school settings and with formal education 
partners--with local, regional, and national reach, and, with the 
recently launched Richard Gilder Graduate School, became the first 
American museum authorized to grant the Ph.D. degree.
    In fiscal year 2005, AMNH and DOD launched a multi-faceted research 
partnership via DARPA that leverages the Museum's unique expertise and 
capacity. Since that time, AMNH has been carrying out research that 
directly relates to DARPA goals by increasing our capacity to predict 
where disease outbreaks might occur and to effectively monitor disease-
causing agents and their global spread. This research project has been 
centered on the development of a computational system to rapidly 
compare genetic sequences of pathogens, and, utilizing the 
computational system, generating a global map showing the spread of 
disease-causing viruses over time and place.
    Throughout this partnership, DARPA program managers have supported 
AMNH's work, have made the research known to other DOD-supported 
scientists, and have invited AMNH scientists to participate in DARPA 
conferences. With DARPA support to date, the project has: advanced 
understanding of emerging infectious disease through the analysis of 
the origins and genomic evolution of SARS coronavirus; studied re-
assortment and drug resistance among influenza strains; and developed 
methods for mapping the spread of pathogens over time and geography. We 
are now able to track global evolution of pathogenic viruses such as 
avian influenza, and can identify, for any geographic region, the major 
and minor sources of pathogenic viruses. The research has investigated 
progressively more complex systems, moving from viruses to the study of 
bacteria, including ecological data into the realm of biogeographical 
and host-pathogen research.
    In fiscal year 2011, the Museum seeks DARPA support to advance its 
research in this and other high-priority areas for the Agency, and to 
enhance the research program with an associated STEM education 
component, providing diverse urban students with science content, 
research experiences, and mentoring in the project's STEM areas. In so 
doing, AMNH hopes to help meet the need for a well-educated population 
of college-level graduates in STEM fields. With this support, which 
AMNH will leverage with funds from non-Federal and Federal sources, 
AMNH will be able to continue to draw on its unique research, training, 
and education capabilities to advance goals critical to DOD and our 
national preparedness and security.
                                 ______
                                 
             Prepared Statement of Florida State University
    Summary: Florida State University is requesting $5,500,000 from the 
Research, Development, Test and Evaluation, Navy, Force Protection 
Applied Research (PE# 0602123N, Line 5) for the Integration of Electo-
kinetic Weapons into the Next Generation Navy Ships Program; $4,000,000 
from the Defense, Research, Development, Test and Evaluation, Defense-
wide, Government/Industry Co-Sponsorship of University Research (PE# 
0601111D8Z, Line 3) for the Integrated Cryo-cooled High Power Density 
Systems; $3,800,000 from the Research, Development, Test and 
Evaluation, Navy, Defense Research Sciences (PE# 0601153N, Line 3), for 
the Jet Engine Noise: Understanding and Reduction program, and 
$4,500,000 from the Research, Development, Test and Evaluation, Army 
University and Industry Research Centers Program (PE# 0601104A, Line 4) 
for the Nanotubes Optimized for Lightweight Exceptional Strength 
(NOLES)/Composite Material Program.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, let me summarize our primary interest today. The 
first project involves improving our nation's fighting capabilities and 
is called the Integration of Electro-kinetic Weapons into the Next 
Generation Navy Ships Project.
    The U.S. Navy is developing the next-generation integrated power 
system (NGIPS) for future war ships that have an all-electric platform 
of propulsion and weapon loads and electric power systems with rapid 
reconfigurable distribution systems for integrated fight-through power 
(IFTPS). On-demand delivery of the large amounts of energy needed to 
operate these types of nonlinear dynamic loads raises issues that must 
be addressed including the appropriate topology for the ship electric 
distribution system for rapid reconfiguration to battle readiness and 
the energy supply technology for the various nonlinear dynamic load 
systems. The goal of this initiative is to investigate the energy 
delivery technologies for nonlinear dynamic loads, such as electro-
kinetic weapons systems, and investigate the integration and interface 
issues of these loads on the ship NGIPS through system simulations and 
prototype tests using power hardware-in-the loop strategies. To meet 
these research goals, the FSU facilities will be expanded with a 5 MW 
MVDC power converter and upgrade of the large scale real-time 
simulator. The results of this effort will provide the Navy's ship-
builders with vital information to design and de-risk deployable ship 
NGIPS and load power supplies.
    With significant support from the Office of Naval Research (ONR), 
FSU has established the Center for Advanced Power Systems (CAPS), which 
has integrated a real time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities unavailable anywhere in the world. FSU is 
partnering with Florida Atlantic University, Florida International 
University, and General Atomics to combine the best talents for 
modeling and simulation of ship power systems, hardware-in-the-loop 
testing, power supplies for present and future electro-kinetic systems, 
and interfacing of the weapon to a ship power system. General Atomics 
will provide the power requirements for the weapons interface to the 
shipboard power distribution system. The National High Magnetic Field 
Laboratory (NHMFL) will utilize its research expertise and 
infrastructure for the proposed development. NAVSEA will be an advisor 
to the project for weapon system integration. We are requesting 
$5,500,000 for this important program.
    Our second project is also important to our nation's defense and 
involves our Integrated Cryo-cooled High Power Density Systems program. 
The objective of this program is to approach the goal of achieving high 
power densities through systems integration, management of heat 
generation and removal in the electrical system and minimize energy 
consumption and capital expenditures of large scale advanced power 
systems through cryo-cooled superconducting systems. The research 
activities are as follows:
    Systems Analysis.--Extensive system modeling and simulation of the 
integrated electrical and thermal systems to understand dynamic 
performance under normal and adverse conditions is necessary to achieve 
an optimal system configuration. Develop prototypes of key technologies 
and test in hardware-in-the-loop simulations at levels of several 
megawatts (MW) to validate and demonstrate the advanced technologies.
    Materials--Advanced Conductors, Semi-conductors and Insulation.--
Characterization of conductor materials (both normal and 
superconducting), semi-conductors (for use in power electronic 
components) and insulating materials (both thermal and electrical) at 
cryogenic temperatures to obtain the data needed to model system 
performance and design components for medium voltage dc (MVDC).
    Cryo-thermal Systems.--Optimize thermal system options, including 
conductive heat transfer and gas phase and fluid phase heat transfer 
systems. Modeling to understand effects from heat leaks from the 
ambient to the low temperature environment and internal heat generation 
are critical to successful performance. Adaptability to economical 
fabrication technologies is a major issue for investigation.
    System Components.--Consider new concepts for design of system 
components and interfaces to achieve optimum system integration. A 30 
meter, 10KV DC cable based on 2G HTS wire will be designed, fabricated 
and tested to prove the concept of a MVDC superconducting shipboard 
power distribution system and provide validated design parameters to 
the Navy. NAVSEA will be a scientific adviser to the project.
    We are seeking $4,000,000 for this important program in fiscal year 
2011.
    Third, I would like to tell you about our Jet Engine Noise: 
Understanding and Reduction Program. Engine noise from most modern 
tactical aircraft is dominated by the jet noise due to the exhaust of 
very high-speed (supersonic in most cases) gases from the jet engines; 
this portion of the noise is often referred to as jet noise. Noise 
levels in the vicinities of these aircraft are extremely high--often as 
high as 150 dB. This poses considerable risk to the health and safety 
of the personnel on carrier decks or near aircraft runways. These very 
high noise levels are also a problem due to their impact on the 
communities near military bases. If not properly addressed, the jet 
noise issue will continue to worsen since the noise footprint of future 
aircraft will likely be much higher due to higher exhaust velocities 
from their engines. Recently, the Naval Research Advisory Committee 
(NARC) released a report identifying aircraft exhaust noise as a major 
problem that requires immediate attention.
    Under this proposal, FSU proposes a comprehensive program with the 
short- and long-term goals of (a) developing jet noise suppression 
technologies that can be retrofitted in the current aircraft fleet; (b) 
undertaking a sustained research effort to better understanding the jet 
noise sources and fundamentals which will lead to the development of 
reduction capacities; and (c) to improve noise suppression technologies 
that will become an integral part of the propulsion systems in future 
aircraft.
    This will be achieved by leveraging our significant and unique 
resources and expertise in the study of jet noise and control. 
Leveraging resources provided by this program by the State of Florida, 
FSU will make appropriate improvements to our test and diagnostic 
facilities to provide the needed fundamental understanding for 
controlling jet noise. We will use our considerable expertise in Active 
Flow and Noise Control to rapidly develop and test many of the 
promising noise control concepts; maturing, then transitioning to the 
field, the most practical and promising ones. Our team has significant 
expertise in both the study and control of jet noise and collectively 
represents some of the best scientists and engineers presently working 
in this area. Given the interdisciplinary nature of this problem, we 
are ideally suited to making a notable impact in solving the jet noise 
suppression problem. We are asking for $3,800,000 to initiate this 
vital program.
    Our final project involves Nanotubes Optimized for Lightweight 
Exceptional Strength (NOLES) Composite Materials. The U.S. Army's 
objective of developing effective personnel protection and a lighter, 
stronger fleet of fighting vehicles may be achieved through the 
diminutive nanotubes that (1) are the strongest fiber known, (2) have a 
thermal conductivity two times higher than pure diamond, and (3) have 
unique electrical conductivity properties and an ultra-high current 
carrying capacity. For producing lightweight multifunctional 
composites, resins impregnated with nanotubes hold the promise of 
creating structures, which will be the strongest ever known, and hence 
offer maximum personnel and vehicle protection. Benefits are apparent 
not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory, FSU's team of multi-
disciplinary faculty and students has developed unique design, 
characterization and rapid prototyping capabilities in the field of 
nano-composite research, leading to vital defense applications. The 
NOLES research team is developing high performance thermal management 
materials utilizing nanotubes. The NOLES team is using nanotube 
composites for shielding against electromagnetic interference. Also, 
FSU's composites are being tested for missile wings, UAVs and missile 
guidance systems by various defense contractors.
    Three core programs are envisioned for fiscal year 2011: (1) 
innovative lightweight personnel protection based on integrating 
cutting-edge technology and commercially available, proven materials 
for enhanced safety and security of war fighters; (2) developing 
nanotubes as a material platform and supporting manufacturing processes 
for a new generation of devices and structures, giving special 
attention to the design and demonstration for Army and defense 
applications; and (3) utilizing nanotube buckypaper and optically 
transparent nanotube thin films initially for liquid crystal display 
backlighting and eventually for flexible displays. We are seeking 
$4,500,000 to continue this program in fiscal year 2011.
    Mr. Chairman, we believe this research is vitally important to our 
country and would greatly appreciate your support.
                                 ______
                                 
      Prepared Statement of the Interstitial Cystitis Association
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Subcommittee, thank you for the opportunity to discuss 
Interstitial Cystitis (IC) and to share my story to the Subcommittee. 
My name is Lauren Snyder, and I am a 29-year-old special needs teacher 
from Haddon Township, New Jersey. I am also a volunteer with the 
Interstitial Cystitis Association (ICA), the nation's foremost 
nonprofit organization dedicated to improving the quality of life for 
people living with IC. The ICA provides advocacy, research funding, and 
education to ensure early diagnosis and optimal care with dignity for 
people affected by IC. Until the biomedical research community 
discovers a cure for IC, our primary goal remains the discovery of more 
efficient and effective treatments to help patients live with the 
disease.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort in the bladder and pelvic region. The 
condition is often associated with urinary frequency and urgency, 
although this is not a universal symptom. The cause of IC is unknown. 
Diagnosis is made only after excluding other urinary and bladder 
conditions, possibly causing one or more years delay between onset of 
symptoms and treatment. Men suffering from IC are often misdiagnosed 
with bladder infections and chronic prostatitis. Women are frequently 
misdiagnosed with endometriosis, inflammatory bowel disease (IBD), 
irritable bowel syndrome (IBS), vulvodynia, and fibromyalgia, which 
commonly co-occur with IC. When healthcare providers are not properly 
educated about IC, patients may suffer for years before receiving an 
accurate diagnosis and appropriate treatment.
    Although IC is considered a ``women's disease'', scientific 
evidence shows that all demographic groups are affected by IC. Women, 
men, and children of all ages, ethnicities, and socioeconomic 
backgrounds develop IC, although it is most commonly found in women. 
Recent prevalence data reports that 3 to 8 million American women and 1 
to 4 million American men suffer from IC. Using the most conservative 
estimates, at least one out of every 77 Americans suffer from IC, and 
further study may indicate prevalence rates as high as 1 out of every 
28 people. Based on this information, IC affects more people than 
breast cancer, Alzheimer's diseases, and autism combined.
    The effects of IC are pervasive and insidious, damaging work life 
and productivity, psychological well-being, personal relationships, and 
general health. Quality of life (QoL) studies have found that the 
impact of IC can equal the severity of rheumatoid arthritis and end-
stage renal disease. Health-related QoL in women with IC is worse than 
in women with endometriosis, vulvodynia, or overactive bladder alone. 
IC patients have significantly more sleep dysfunction, higher rates of 
depression, increased catastrophizing, anxiety and sexual dysfunction.
    After sustaining permanent damage to my gastrointestinal tract as 
the result of salmonella poisoning and developing pelvic floor 
dysfunction, I underwent a number of surgical procedures that revealed 
the extent of damage to my bladder. After other conditions were ruled 
out, I finally received the diagnosis of IC and was able to begin 
meaning and appropriate treatment. In addition to medications, I 
receive Botox injections into my pelvic floor, as well as bladder 
instillations. In my case, these treatments, as well as the multiple 
surgeries I have undergone, require general anesthesia, 
hospitalization, and extended recovery time, causing me to miss work 
and other activities. As a person living with a disability, my work 
with special needs children is particularly rewarding. Unfortunately, 
my job requires bending, lifting, and repositioning my students, which 
is painful and challenging with my IC symptoms. In addition to 
teaching, I am also a swimming coach, but I have had to reduce my hours 
as extended exposure to the chlorine in the pool aggravates my bladder.
    Although IC research is currently conducted through a number of 
Federal entities, including the National Institutes of Health (NIH) and 
the Centers for Disease Control and Prevention (CDC), the DOD's Peer-
Reviewed Medical Research Program (PRMRP) remains essential. The PRMRP 
is an indispensable resource for studying emerging areas in IC 
research, such as prevalence in men, the role of environmental 
conditions such as diet in development and diagnosis, barriers to 
treatment, and IC awareness within the medical military community. 
Specifically, IC education and awareness among military medical 
professionals takes on heightened importance, as the President's fiscal 
year 2011 budget request does not include renewed funding for the CDC's 
IC Education and Awareness Program.
    On behalf of the ICA, and as an IC patient, I would like to thank 
the Subcommittee for including IC as a condition eligible for study 
under the DOD's PRMRP in the fiscal year 2010 DOD Appropriations bill. 
The scientific community showed great interest in the program, 
responding to the initial grant announcement with an immense outpouring 
of proposals. We urge Congress to maintain IC's eligibility in the 
PRMRP in the fiscal year 2011 DOD Appropriations bill, as the number of 
current military members, family members, and veterans affected by IC 
increases alongside the general population.

                         CONCLUSION OF HEARINGS

    Chairman Inouye. This subcommittee will take these issues 
under serious consideration as we develop our fiscal year 2011 
Defense appropriations bill, and this concludes our scheduled 
hearings for the fiscal year 2011 defense budget.
    And accordingly, the subcommittee will stand in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:56 a.m., Wednesday, June 23, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
